U.S. Department of Justice
Office of the Inspector General
Evaluation and Inspections Division




                               Review of the
                          Department of Justice’s
                           Reporting Procedures
                           for Loss of Sensitive
                          Electronic Information

                                          June 2007




                                      I-2007-005
                                  INTRODUCTION


      The federal government’s loss of sensitive information, often stored
on laptop computers (laptops), has generated significant concern.1 For
example, in May 2006 a laptop with 26.5 million records containing
sensitive information on veterans and their spouses was stolen from a
Department of Veterans Affairs employee. In June 2006, the Department
of Agriculture disclosed that three of its systems were compromised,
potentially making available the names, social security numbers, and
photographs of 26,000 of its employees, contractors, and retirees in the
Washington, D.C., area. In August 2006, a laptop containing personal
information on 30,000 Navy applicants, recruiters, and prospects fell off
a motorcycle belonging to a recruiter and was observed by a roadside
worker being picked up by someone in a car.

       According to a 2006 report on federal agency data breaches by the
House Committee on Government Reform, 19 federal departments and
agencies have reported hundreds of instances of loss of personally
identifiable information (PII) since January 2003.2 The number of
individuals affected in each incident ranged from 1 to 26.5 million. The
type of information lost and potentially compromised included personal
information such as names, home addresses, photographs, dates of
birth, social security numbers, fingerprints, medical information, tax
information, earnings records, user passwords, law enforcement
information requests, and personal information on law enforcement
employees.



        1 The Department of Justice defines sensitive information in its Security

Program Operating Manual as, “Any information, the loss, misuse, modification of, or
unauthorized access to, could affect the national interest, law enforcement activities,
the conduct of Federal programs, or the privacy to which individuals are entitled under
Section 552a of Title 5, U.S. Code, but that has not been specifically authorized under
criteria established by an executive order or an act of Congress to be kept classified in
the interest of national defense or foreign policy.”

       2  See Committee on Government Reform, U.S. House of Representatives, 109th
Congress, Agency Data Breaches Since January 1, 2003, October 13, 2006. According
to Office of Management and Budget (OMB) Memorandum M-06-19, July 12, 2006, PII
is defined as “any information about an individual maintained by an agency, including,
but not limited to, education, financial transactions, medical history and criminal or
employment history and information which can be used to distinguish or trace an
individual’s identity, such as their name, social security number, date and place of
birth, mother’s maiden name, biometric records, etc., including any other personal
information which is linked or linkable to an individual.”


U.S. Department of Justice                                                                  i
Office of the Inspector General
Evaluation and Inspections Division
       These incidents highlight the risk that PII and other sensitive data
can be compromised when computers or storage media such as disks,
CD-ROMs, and flash drives, are lost or stolen. The PII on lost or stolen
computers or storage media can be used to commit fraud or identity
theft. Further, other types of sensitive information, such as proprietary
business information or sensitive law enforcement information, could be
inappropriately disclosed or copied for purposes of industrial espionage,
retaliation, or other crimes.

       Because of the importance of these issues, the OIG conducted this
review to identify the policies and procedures nine Department
components are required to follow to (1) report and identify losses of
sensitive information, including PII and classified information, and
(2) notify affected parties of losses of their sensitive information.3

       The report begins with a background section that provides
information about the roles and responsibilities of the staff within the
Department’s Office of the Chief Information Officer and the development
of the Department’s reporting procedures by that office. The report then
describes the Department’s reporting and incident response procedures.
The report also contains appendices that provide a detailed description of
each of the nine components’ reporting procedures and policies.

       This review is intended to provide an overview of the policies and
procedures the Department has established to respond to and report
computer security incidents.4 However, in this review, we did not verify
that components followed Department reporting procedures or verify the
accuracy of the data contained in the database used by the Department
to track these incidents. Rather, the intent of this review was to identify


        3 The nine components reviewed were the Bureau of Alcohol, Tobacco, Firearms

and Explosives; Federal Bureau of Prisons; Criminal Division; Drug Enforcement
Administration; Executive Office for United States Attorneys; Federal Bureau of
Investigation; Justice Management Division; Tax Division; and United States Marshals
Service. These nine components were chosen because they accounted for a
large percentage of the total number of all computer security incidents, including PII
and other sensitive data loss incidents, reported to the Department between December
2005 and November 2006.

       4 According to DOJCERT, a computer security incident is any unexpected,
unplanned event that could have a negative impact on IT resources. Computer security
incidents can include the loss of both classified and unclassified systems, unauthorized
removal of computer equipment, and exploited weaknesses in a computer system that
allows unauthorized access to password files. DOJCERT considers losses of sensitive
information to be a subset of computer security incidents.


U.S. Department of Justice                                                             ii
Office of the Inspector General
Evaluation and Inspections Division
what policies had been established, and what procedures were being
followed in reporting computer security incidents.




U.S. Department of Justice                                           iii
Office of the Inspector General
Evaluation and Inspections Division
                               RESULTS IN BRIEF


      The Department has developed a computer security Incident
Response Plan that provides standard reporting procedures that all
Department components are required to follow. In December 2003, the
Department developed a template to standardize procedures
Department-wide for responding to and handling computer security
incidents. The template includes detailed instructions for handling and
reporting computer security incidents. The Department’s Computer
Emergency Readiness Team (DOJCERT) developed this Incident
Response Plan template under the direction of the Department’s Chief
Information Officer and has updated it periodically to reflect new
statutory and Office of Management and Budget (OMB) requirements and
emerging computer security threats.5

       In November 2006, the Department included in the template for
the first time reporting requirements for PII and other data loss
incidents. The new requirements include a 1-hour timeframe for
reporting these incidents and define the information that components
need to gather when a PII or other data loss occurs or when data has
been potentially compromised. The 1-hour timeframe was first
established by OMB in July 2006 in a memorandum issued to the Chief
Information Officers of all federal agencies.

      All of the Department’s components are required to develop their
own Incident Response Plans that conform to the template. The nine
Department components the OIG reviewed have all developed their own
component-specific Incident Response Plans that follow the template.
However, as of April 2007, two of the nine components had not yet
submitted their revised Incident Response Plans to DOJCERT for
approval.

      To supplement their Incident Response Plans, the components
have developed internal policies, memorandums, or practices for their
employees that provide more detailed reporting and incident response
procedures within their own internal chains of command. While all nine


       5   DOJCERT is the organization to which all Department components are
required to report computer security incidents, including PII and other data loss
incidents. Established in 2000 within the Department’s Office of the Chief Information
Officer, it operates 24 hours a day, 7 days a week. A more detailed explanation of
DOJCERT’s role and responsibilities is provided in the Background section of this
report.


U.S. Department of Justice                                                           iv
Office of the Inspector General
Evaluation and Inspections Division
components reviewed have multiple policies, two of the components have
policies that provide contradictory or faulty chain-of-command reporting
procedures. Specifically, ATF’s staff has received contradictory
instructions on which office is the primary point of contact for reporting
computer security incidents. In addition, the USMS’s policy instructs
employees to report computer security incidents to staff titles and
internal departments that either no longer exist or are inaccurate.

       Four of the nine components have developed separate procedures
for staff to follow if an incident is reported after normal business hours.
One component’s procedures were the same 24 hours a day. The
remaining four components have no specific written procedures covering
such incidents.6 We found that at least 19 percent of the incidents
reported between December 2005 and November 2006 occurred after
hours (6:00 p.m. to 6:00 a.m.).

Reporting Procedures

       Officials interviewed in the nine components told us that they
believed that their employees were following the correct internal chain-of-
command reporting procedures when reporting computer security
incidents. Although this review did not examine or verify that employees
actually were following Department or component procedures, we did
note two issues, one specific to a component and one affecting multiple
components. In reviewing the information that one component – the
Federal Bureau of Investigation (FBI) – provided and information from
DOJCERT’s database, we noticed a discrepancy between the number of
lost electronic devices that had been reported within the FBI and the
number of lost electronic devices that the FBI had reported to
DOJCERT.7 We sought additional information to determine whether the
FBI’s employees were following reporting procedures. We also found
indications that most of the components were not always reporting
computer security incidents in a timely manner.

Compliance with Reporting Procedures

     We found that the FBI did not always follow its or the
Department’s reporting procedures. Specifically, the FBI did not report

       6 Two of these components have developed draft procedures, but as of April
2007, those procedures had not yet been issued.

       7 DOJCERT maintains the Department’s Incident Response and Vulnerability

Patch Database. commonly called the Archer Database. See pages 18-19 of this report
for a more detailed explanation of how we identified this discrepancy.


U.S. Department of Justice                                                            v
Office of the Inspector General
Evaluation and Inspections Division
all incidents involving the loss of electronic devices to DOJCERT or all
incidents involving classified information to the Department’s Security
and Emergency Planning Staff.8 The FBI received internal reports of 35
lost or stolen laptops between December 2005 and November 2006.
Although the FBI is required by the Department’s Incident Response Plan
template to report such losses to DOJCERT, the FBI did so for only 7 of
those laptops. Additionally, the FBI received internal reports of 107
classified computer security incidents during that same time period, but
did not report any of these incidents to the Security and Emergency
Planning Staff as required in the Department’s Security Program
Operating Manual. This manual requires all Department components to
report all classified incidents related to information technology (IT) to the
Department’s Security Officer and DOJCERT. We also did not examine
whether the Department’s other 31 components are reporting all
classified computer security incidents to the Security and Emergency
Planning Staff and DOJCERT as required.

Timeliness of Reporting All Computer Security Incidents

       We examined 1,501 computer security incidents in the DOJCERT
Archer Database that were reported by the 9 components between
December 1, 2005, and November 30, 2006, and determined that the
components were not always meeting the timeframes established in the
Incident Response Plans. In particular, we found that the components
were not meeting the 1-hour reporting timeframe established by the
Department and OMB for reporting computer security incidents involving
PII.9 Only one of the nine components reviewed, the Tax Division,
submitted timely reports for nearly all of its computer security incidents.



        8 The Security and Emergency Planning Staff (SEPS) is required to track all

reports of losses of classified information for the Department. A more detailed
explanation of SEPS’s role and responsibilities is provided in the Background section of
this report.

       9  DOJ, Reporting Incidents Involving Data Loss and Personally Identifiable
Information, Vance Hitch, CIO, August 7, 2006; and OMB Memorandum M-06-19 for
Chief Information Officers, Reporting Incidents Involving Personally Identifiable
Information and Incorporating the Cost for Security in Agency Information Technology
Investments, Karen S. Evans, July 12, 2006. The former document establishes a
1-hour reporting timeframe after the discovery or detection of a security incident for
components to report to DOJCERT and the latter document established a 1-hour
timeframe for DOJCERT to report to the Department of Homeland Security’s United
States Computer Emergency Readiness Team (US-CERT). US-CERT is a partnership
between the Department of Homeland Security and the public and private sectors
established in 2003 to protect the nation’s Internet infrastructure.


U.S. Department of Justice                                                               vi
Office of the Inspector General
Evaluation and Inspections Division
      The DOJCERT Incident Response Plan template and the
components’ Incident Response Plans include reporting timeframes for
each of seven categories of computer security incidents, such as
Unauthorized Access and Improper Usage, that all Department
components are required to report to DOJCERT.10 We found that
between December 2005 and November 2006, the Tax Division made
timely reports for 95 percent of its reported computer security incidents.
The other eight components made timely reports for between 37 percent
and 84 percent of their security incidents.

      For PII incidents in the nine components, we found that only
15 percent were reported to DOJCERT within 1 hour of occurrence, and
none of these incidents were subsequently reported to US-CERT within
the same 1-hour timeframe. Further, DOJCERT reported only
12 percent of PII incidents to US-CERT within 1 hour of the time it
received notification from the components.11 Officials from three
components remarked that the 1-hour timeframe was impractical and
unrealistic.

       OMB’s guidance and the Department’s guidance differ as to when
the 1-hour timeframe begins and ends. On July 12, 2006, OMB issued a
memorandum requiring federal agencies to report computer security
incidents involving PII to US-CERT within 1 hour of discovery.12 The
Department’s November 2006 revision of the Incident Response Plan
template requires that the components report PII incidents to DOJCERT
within 1 hour of discovery. Our analyses found that the guidance in the
DOJCERT Incident Response Plan template appears to conflict with the
July 12, 2006, OMB memorandum. The timeliness standard in OMB’s
policy requires that incidents be reported to US-CERT within 1 hour of
discovery or detection. By allowing 1 hour for reporting just to
DOJCERT, the Department’s incident response plan does not ensure
compliance with OMB’s 1-hour reporting requirement for US-CERT.
Component staff, in fact, told us that employees interpret the OMB
requirement to mean that they have 1 hour to report to DOJCERT.



       10See Appendix XII for a description of the seven categories and the associated
timeframes. An additional category is used for training exercises only.

       11 The period we used for measuring timeliness in reporting PII incidents was

between July 12, 2006 (when OMB began requiring that PII incidents be reported within
1 hour), and November 30, 2006.

       12   OMB Memorandum M-06-19.


U.S. Department of Justice                                                          vii
Office of the Inspector General
Evaluation and Inspections Division
       For our analysis, we assessed the amount of time that that elapsed
between an incident’s occurrence and when the component reported the
incident to DOJCERT. For those incidents that were reported within 1
hour to DOJCERT, we determined if they were also reported to US-CERT
within the same 1-hour period. We also assessed the amount of time
that elapsed between when DOJCERT received notice of an incident and
when DOJCERT reported that incident to US-CERT.

Ensuring that All Incidents Are Reported

      Officials from the nine components reviewed all identified training
as the primary method for ensuring employees are aware of the reporting
requirements. The two training courses most often mentioned were the
Department’s annual Computer Security Awareness Training and the
components’ Information Technology Rules of Behavior.

Notification to Affected Parties

        There is no Department requirement to notify the affected parties
in the event of loss of PII, and none of the nine components we reviewed
has a policy addressing the notification of affected parties. Further,
according to a recent Government Accountability Office report,
“. . . existing laws do not require agencies to notify the public when data
breaches occur . . . .”13 However, the Department’s Privacy and Civil
Liberties Office is currently finalizing a Department-wide notification
policy.

Determining Type of Data Lost

       To determine if sensitive information may have been lost or
compromised during a reportable computer security incident, all nine
components stated that they interview the employee who reported the
incident. For most components, this consists of informal questioning in
an attempt to assist the employee in reconstructing what occurred and to
identify the information that a lost electronic device contained. Five
components also supplement the employee’s interview by using computer
forensic techniques to determine what information or files were stored or
accessed by the employee. For example, the Criminal Division and the
Drug Enforcement Administration reported that for incidents involving a

       13 Testimony of David M. Walker, Comptroller General, Government

Accountability Office, Privacy: Preventing and Responding to Improper Disclosures of
Personal Information (GAO-06-833T), before the House Committee on Government
Reform, June 8, 2006.


U.S. Department of Justice                                                             viii
Office of the Inspector General
Evaluation and Inspections Division
lost BlackBerry device, the BlackBerry Exchange Server allows them to
identify the e-mails that were received and sent the last time the device
was used.

Definitions of Sensitive Information, PII, and Reportable Data Loss

       The Department has developed a standard definition for sensitive
information but has not developed its own definitions for PII and a
reportable data loss. Seven of the components we reviewed have also
developed definitions of sensitive information while the remaining two
components use the Department’s definition. The components’
definitions are similar to the one the Department issued in its Security
Program Operating Manual.

       To define PII, the Department relies on OMB’s July 12, 2006,
memorandum. However, two components stated that this definition may
lead components to over-designate information as PII because the OMB
definition is too broad and overly vague. Most of the components
expressed the opinion that the Department needs to develop its own
definition of PII.

      We found no standard Department definition of a reportable data
loss. The components provided a variety of answers when defining a
reportable data loss. Their responses were generally in line with the
causes of data loss that the DOJCERT Incident Response Plan template
describes, such as hacker intrusion through network and system
defenses or the loss or theft of a laptop, removable storage medium, or
portable computing device containing PII or sensitive information.

Best Practices in Increasing Employee Awareness

     Four of the nine components are taking additional steps to either
minimize unauthorized access to sensitive information or educate
employees on their reporting responsibilities. For example:

       •   The Tax Division reinforces employees’ awareness of the 1-hour
           reporting requirement for loss of PII by posting this information
           prominently on its intranet.

       •   The Criminal Division displays a variety of security tips,
           including procedures for reporting computer security incidents,
           on the computer monitors when employees first log in.




U.S. Department of Justice                                                  ix
Office of the Inspector General
Evaluation and Inspections Division
       •    JMD Personnel staff receive verbal briefings on the procedures
            for reporting computer security incidents when they are given
            the equipment necessary to use the Justice Secure Remote
            Access system and also receive a wallet card summarizing those
            reporting procedures.

       •    BOP policy requires that to remove sensitive information from a
            BOP facility, an employee must obtain written approval from the
            Chief Executive Officer (CEO) of the facility. When requesting
            approval, the medium of the sensitive information (e.g., paper
            documents, electronic files), a description of the equipment
            being used and the contents, and the purpose for the removal
            must be documented along with the CEO’s approval.14

Recent Developments and Future Plans

       The Department frequently updates its guidance on data loss
incidents and privacy issues and changes its policies to address newly
identified needs. For example, the Department’s Privacy and Civil
Liberties Office and Office of the Chief Information Officer are developing
a Department-wide policy on notifying affected parties in the event of loss
of PII. Once this policy is finalized, DOJCERT plans to issue an
addendum to its Incident Response Plan template explaining the
notification procedures and the components’ roles in them. Additionally,
the Department stated that DOJCERT plans to release an Incident
Response Handbook during fiscal year 2007. The handbook will provide
guidance to the components on information-gathering techniques during
and following an incident, techniques for determining the type of data
included on lost equipment, and methods for identifying the level of
residual risk associated with each incident.

Conclusion and Recommendations

       The Department has developed an Incident Response Plan
template to standardize the procedures that all Department components
are required to follow to report computer security incidents. However, as
of April 2007, two of the nine components have not updated their
Incident Response Plans to conform to the Department’s November 2006
revision, which requires all computer security incidents involving PII to
be reported within 1 hour. The same two components have also issued
internal policies that have contradictory instructions on the primary
point of contact for reporting computer security incidents and that direct

       14   BOP, Information Security, P1237.13, March 31, 2006, Chapter 2, p. 14.


U.S. Department of Justice                                                           x
Office of the Inspector General
Evaluation and Inspections Division
employees to contact officials with non-existent titles in departments that
no longer exist. Another area where we found divergence among the
components was in procedures for reporting incidents that occur after
normal business hours. Four of the components have developed
additional reporting procedures for incidents reported after hours, one
component’s procedures are the same 24 hours a day, and the remaining
four components do not have specific written procedures covering after-
hours incidents.

       While all of the components stated that they believed their staff
followed procedures established for reporting computer security incidents
through their chains of command to component headquarters, we found
that the FBI was not always following the reporting procedures outlined
in its or the Department’s Incident Response Plans.

      We also found that components were not always reporting
computer security incidents to DOJCERT within the timeframes
established in the Department’s Incident Response Plan template. In
particular, the components were not consistently reporting PII incidents
within 1 hour to DOJCERT, and none of the PII incidents in the
Department were reported to US-CERT within 1 hour of discovery or
detection. DOJCERT and component staff interpret the guidance from
the Department and OMB differently as to whom the incident is to be
reported to within 1 hour. Therefore, we believe clarification is needed
on who must receive the report within 1 hour of discovery or detection –
component IT staff, DOJCERT, or US-CERT.

       Neither the Department nor any of the components we reviewed
have developed procedures for notifying affected individuals in the event
of a loss of PII, which could cause a delay in notifying affected individuals
and increase their risk of falling victim to fraud or identity theft. The
Department is developing a policy on this issue, and we believe it should
be promptly finalized and distributed to Department components.

       The Department has issued a standard definition of sensitive
information in its Security Program Operating Manual, and seven
components have developed component-specific definitions of sensitive
information that are similar to the Department’s definition. However, the
Department has not developed its own definitions of PII and what
constitutes a reportable data loss. At least seven of the nine components
expressed the opinion that the Department should develop its own, more
specific definition of PII.




U.S. Department of Justice                                                 xi
Office of the Inspector General
Evaluation and Inspections Division
      Four components have developed what we consider to be Best
Practices to increase employee awareness of the reporting requirements
for computer security incidents. We believe the Department and its other
components should examine these practices and determine if any should
be adopted Department-wide.

      To help the Department improve its computer security incident
reporting procedures, including the procedures for reporting data loss
and classified incidents, we recommend that the Department:

       1. Require all components to ensure their procedures cover
          reporting of after-hours incidents.

       2. Review the components’ procedures for reporting classified
          incidents to ensure those procedures comply with the standards
          in the Department’s Security Program Operating Manual.

       3. Clarify the requirement that all losses of PII be reported within
          1 hour and to whom so that all Department employees
          understand who to report to and when the 1-hour timeframe
          begins and ends.

       4. Ensure all components meet the established reporting
          timeframes.

       5. Promptly implement a Department-wide policy for notifying
          affected individuals in the event of a loss of PII.

       6. Develop a Department-specific definition of PII.

       7. Consider whether any of the procedures described as “Best
          Practices” should be implemented across the Department.

       8. Ensure that components update their internal policies to reflect
          correct reporting procedures in conformance with the DOJCERT
          Incident Response Plan template and contain up-to-date titles
          of internal departments and staff.




U.S. Department of Justice                                                xii
Office of the Inspector General
Evaluation and Inspections Division
                                  TABLE OF CONTENTS


INTRODUCTION ......................................................................................i
RESULTS IN BRIEF ............................................................................... iv
LIST OF ACRONYMS ........................................................................... xiv
BACKGROUND.......................................................................................1
PURPOSE, SCOPE, AND METHODOLOGY OF THE OIG REVIEW..........10
RESULTS OF THE REVIEW ..................................................................14
Reporting and Responding to Computer Security Incidents...................14
   Written Procedures ..........................................................................14
   Compliance with Reporting Procedures ............................................17
   Timeliness of Reporting All Computer Security Incidents..................19
   Ensuring that All Incidents Are Reported .........................................26
   Notification to Affected Parties .........................................................27
Determining the Type of Data Lost........................................................27
Defining Sensitive Information, PII, and Reportable Data Loss ..............28
Best Practices in Increasing Employee Awareness.................................29
Recent Developments and Future Plans................................................30
Conclusion and Recommendations .......................................................33
APPENDIX I: ATF REPORTING PROCEDURES.....................................37
APPENDIX II: BOP REPORTING PROCEDURES ...................................45
APPENDIX III: CRIMINAL DIVISION REPORTING PROCEDURES .........52
APPENDIX IV: DEA REPORTING PROCEDURES..................................58
APPENDIX V: EOUSA AND USAO REPORTING PROCEDURES ............64
APPENDIX VI: FBI REPORTING PROCEDURES ...................................71
APPENDIX VII: JMD REPORTING PROCEDURES ................................83
APPENDIX VIII: TAX DIVISION PROCEDURES.....................................89
APPENDIX IX: USMS REPORTING PROCEDURES ...............................95
APPENDIX X: ACTS, DIRECTIVES, AND STANDARDS .......................103
APPENDIX XI: COMPONENT POLICIES ..............................................107
APPENDIX XII: SEVEN CATEGORIES OF SECURITY INCIDENTS AND
   REQUIRED TIMEFRAMES FOR REPORTING INCIDENTS...............111
APPENDIX XIII: OFFICE OF THE CHIEF INFORMATION OFFICER
   RESPONSE....................................................................................113
APPENDIX XIV: OIG ANALYSIS OF THE OFFICE OF THE CHIEF
   INFORMATION OFFICER RESPONSE ............................................116
APPENDIX XV: DEA RESPONSE........................................................120
APPENDIX XVI: OIG ANALYSIS OF THE DEA RESPONSE..................123
APPENDIX XVII: USMS RESPONSE ...................................................125
APPENDIX XVIII: OIG ANALYSIS OF THE USMS RESPONSE .............127


U.S. Department of Justice                                                                     xiii
Office of the Inspector General
Evaluation and Inspections Division
                              LIST OF ACRONYMS


ATF            Bureau of Alcohol, Tobacco, Firearms and Explosives
BOP            Federal Bureau of Prisons
CEO            Chief Executive Officer
CIO            Chief Information Officer
CRM            Criminal Division
DEA            Drug Enforcement Administration
DOJCERT        Department of Justice Computer Emergency Readiness
               Team
EOUSA          Executive Office for United States Attorneys
FBI            Federal Bureau of Investigation
FISMA          Federal Information Security Management Act
ISSO           Information Systems Security Officer
IT             Information Technology
JMD            Justice Management Division
NCIC           National Crime Information Center
NIST           National Institute of Standards and Technology
OIG            Office of the Inspector General
OMB            Office of Management and Budget
PII            Personally Identifiable Information
SEPS           Security and Emergency Planning Staff
SPOM           The Department of Justice’s Security Program Operating
               Manual
USAO           United States Attorney’s Office
US-CERT        United States Computer Emergency Readiness Team
USMS           United States Marshals Service




U.S. Department of Justice                                              xiv
Office of the Inspector General
Evaluation and Inspections Division
                                   BACKGROUND


      The background section provides information about the roles and
responsibilities of the staff within the Department’s Office of the Chief
Information Officer and the development of the Department’s computer
security incident reporting procedures by that office. We also describe
the Department’s reporting requirements for classified computer security
incidents.

The Chief Information Officer

       Within the Department of Justice (Department), the management
and protection of sensitive information, including personally identifiable
information (PII), falls under the responsibility of the Office of the Chief
Information Officer (CIO). The CIO, who is also the Deputy Assistant
Attorney General for Information Resource Management, is responsible
for overseeing the management, acquisition, and integration of the
Department’s information resources, including:

       •    Formulating Department-wide information technology (IT)
            policies and strategic plans;
       •    Ensuring that investments in IT processes are aligned with the
            Department’s overall strategic goals, budget, and enterprise
            architecture;
       •    Making recommendations concerning the IT budget requests of
            the Department’s components; and
       •    Overseeing the security of the Department’s information
            systems.15

      The creation of the role of CIOs in the government is attributed to
the Clinger-Cohen Act of 1996, previously called the Information
Technology Management Reform Act of 1996.16 This Act mandates a CIO
in each federal agency.




       15   Attorney General Order 2572-2002 designates the CIO to carry out the duties
assigned under 40 U.S.C. § 1425. DOJ Order 2880.1B, Information Resources
Management Program, September 27, 2005, further establishes the authority of the
Office of the CIO in the Department and outlines the office’s duties and responsibilities.

      16 Designation of Chief Information Officers, 44 U.S.C. § 3506,

February 10, 1996.


U.S. Department of Justice                                                              1
Office of the Inspector General
Evaluation and Inspections Division
      Since the appointment of the current CIO in 2002, the following IT
security policies have been issued:

   July 2002              DOJ IT Strategic Plan
   November 2003          DOJ Order 2640.2E, Information Technology
                          Security
   May 2004               DOJ Computer System User Rules of Behavior
   May 2005               DOJ Security Program Operating Manual
   September 2005         DOJ Order 2880.1B, Information Resources
                          Management Program
   November 2005          DOJ Order 2740.1, Use and Monitoring of DOJ
                          Computers and Computer Systems
   June 2006              DOJ IT Strategic Plan, Fiscal Years 2006-2011
   August 2006            Information Technology Security Program
                          Management Plan
   November 2006          DOJ Incident Response Plan Template,
                          (originally created in December 2003, updated
                          annually)
   December 200617        IT Security Standards (17 policies)
   December 2006          DOJ Configuration Management Plan

In these documents, the Department has established extensive security
policies and incident response procedures for the Department’s IT
systems. Additionally, several memorandums have been issued by the
CIO providing further requirements on reporting computer security
incidents, particularly those involving loss of PII.

      The Office of the CIO falls organizationally within the Department’s
Justice Management Division (JMD).18 The CIO has supervisory
responsibility for five offices. One of these five offices is the Information

       17   The Federal Information Security Management Act (FISMA) of 2002 mandates
that all IT systems in the government must undergo certification and accreditation once
every 3 years. The National Institute for Standards and Technology (NIST) issued
government-wide technical guidance for the certification and accreditation process in
Special Publication 800-53, Recommended Security Controls for Federal Information
Systems (February 2005). The publication identifies 17 categories of information
security, called “control families,” and sets minimum security standards within each
control family. The Office of the CIO has written 17 separate policies describing how
the Department will meet the standards in each control family.

       18 JMD is the management arm of the Department and is led by the Assistant

Attorney General for Administration. The four offices in JMD are the Controller;
Human Resources; Information Resource Management; and Policy, Management, and
Planning.


U.S. Department of Justice                                                           2
Office of the Inspector General
Evaluation and Inspections Division
Technology Security Staff, whose mission is to ensure the protection of
the Department’s information systems that collect, process, transmit,
store, or disseminate either classified or Sensitive But Unclassified
information, including PII.19 The Information Technology Security Staff is
headed by the Chief Information Security Officer. See Chart 1 for the
Office of the CIO organization chart.

             Chart 1: Organizational Chart for the Office of
                     the Chief Information Officer

                          Chief
                       Information
                          Officer


                                                     Information
                    Chief Information                Technology
                     Security Officer                  Security
                                                       Council



                       Information
                       Technology
                      Security Staff




                        DOJCERT



The Chief Information Security Officer

       In June 2003, the CIO appointed a Chief Information Security
Officer to help support the Department’s IT security mission and goals,
and to develop and maintain a Department-wide information security
program. This program includes issuing procedures for detecting,
reporting, and responding to security incidents, and conducting periodic
risk assessments that seek to identify the magnitude of harm that could
result from unauthorized access, use, disclosure, disruption,




       19 The other four offices under the CIO are E-Government Services, Policy and

Planning, Operations Services, and Enterprise Solutions.


U.S. Department of Justice                                                             3
Office of the Inspector General
Evaluation and Inspections Division
modification, or destruction of the information and information systems
that support the operations and assets of the Department.20

       The Chief Information Security Officer also is responsible for
ensuring the Department’s compliance with various federal laws,
standards, and directives regarding electronic information security, such
as the E-Government Act of 2002, the Federal Information Security
Management Act (FISMA) of 2002, the Privacy Act of 1974, National
Institute of Standards and Technology (NIST) standards, and Office of
Management and Budget (OMB) and DOJ directives. (See Appendix X for
a summary description of each of these laws, standards, and directives.)

The CIO’s Information Technology Security Council

       The CIO created an Information Technology Security Council (the
Council), chaired by the Chief Information Security Officer, in August
2003 to address the security goals outlined in the Department’s IT
Security Program Management Plan, which is the guiding document for
managing the Department’s overall IT security program. The plan
establishes goals and performance measures; identifies initiatives,
resources, schedules, and controls; provides templates, guidelines, and
tools for IT staff to ensure systems meet federal and Department
certifications and accreditations; and describes IT security management
strategies, roles and responsibilities, program implementation, and the
goals and action plans for the security program.

       The Council is composed of IT security staff from each of the
Department’s components. The Council created four project
management teams devoted to different areas of IT security.21 These
teams develop templates and implementation guidance documents, and
test cases for developing, implementing, and testing the security controls
in the specific areas of security that are covered by each team.

      Cyber Defense Operations Team. The Department’s response to a
computer security incident is handled by the Cyber Defense Operations
Team, which is chaired by the Department of Justice Computer
Emergency Readiness Team’s (DOJCERT) Project Manager and also
includes representation from all of the Department components. The

       20Information Technology Security Program Management Plan, Version 5.41,
August 2006.

       21 The four project management teams are the IT Security Employee Services

Team, the Computing Environment and Enclave Defense Team, the Cyber Defense
Operations Team, and the Certification and Accreditation Management Team.


U.S. Department of Justice                                                          4
Office of the Inspector General
Evaluation and Inspections Division
team meets monthly to discuss changes in incident reporting standards
and procedures. Any comments are incorporated into the Incident
Response Plan template, which is updated at the beginning of each fiscal
year. For example, in the November 2006 Incident Response Plan
template, DOJCERT included for the first time reporting requirements for
incidents of PII and data loss, and defined the information that
components need to gather when a data loss occurs or when data has
been potentially compromised.

DOJCERT

      DOJCERT was established in 2000 within the Information
Technology Security Staff to fulfill the Department’s obligations under
the Government Information Security Reform Act, which directed federal
agencies to “establish procedures for detecting, reporting, and
responding to security incidents.”22 In November 2003, the Department
updated its Information Technology Security order to require all
components to respond to and report all computer security incidents to
DOJCERT in accordance with rules set forth by DOJCERT.23 These
requirements for incident response and reporting are also part of the
Department’s efforts to attain the goals in Homeland Security
Presidential Directive 7, which established a national policy for federal
departments and agencies to identify and prioritize United States critical
infrastructure and key resources and to protect them from terrorist
attacks.24

      DOJCERT is a centralized incident response team that provides
Department-wide support for computer security incidents and can be
contacted 24 hours a day, 7 days a week.25 The CIO has assigned
DOJCERT the responsibility to provide leadership and guidance to all
Department components in incident response planning and plan
evaluation. DOJCERT’s stated objective is to work in coordination with
all Department component incident response teams to provide a central



       22Pub. L. No. 106-398, the Government Information Security Reform Act,
October 30, 2000. This Act expired in November 2002 and was superseded by FISMA
in December 2002.

       23   DOJ Order 2640.2E, Information Technology Security, November 28, 2003.

        24 Homeland Security Presidential Directive 7, Critical Infrastructure

Identification, Prioritization, and Protection, December 17, 2003.

       25   DOJCERT is located in Rockville, Maryland.


U.S. Department of Justice                                                           5
Office of the Inspector General
Evaluation and Inspections Division
point of information collection, information dissemination, and response
planning.

      DOJCERT Incident Response Plan. DOJCERT is the organization to
which all Department components are required to report computer
security incidents, including data loss incidents. DOJCERT developed
an Incident Response Plan template in December 2003 that established a
Department-wide standardized approach for handling and reporting
computer security incidents and that provided detailed incident response
procedures within each component. DOJCERT periodically updates the
template to reflect new statutory or OMB requirements or emerging
computer security threats.

      As explained earlier, DOJCERT revised its Incident Response Plan
template in November 2006 to require for the first time that the
components add language that identifies the loss of PII as a distinct type
of reportable incident, and that defines the category and timeframe
(1 hour) that should be used to report these data loss incidents.

      The Incident Response Plan identifies seven categories of computer
security incidents, such as Unauthorized Access and Improper Usage,
that all Department components are required to report to DOJCERT, and
includes reporting timeframes for each category.26 The DOJCERT
Incident Response Plan also provides:

       •   Requirements for incident response handling,
       •   Agency objectives for incident response handling,
       •   Organizational structure for incident response handling,
       •   Roles and responsibilities for key elements and personnel,
       •   Preparation and training guidelines,
       •   Policy and procedures for handling incidents, and
       •   Incident reporting procedures for all Sensitive But Unclassified
           and classified incidents.

       Each Department component is required to develop its own
Incident Response Plan that is aligned with the requirements and goals
of the DOJCERT Incident Response Plan. In addition, each component
must conduct an exercise of that plan at least annually.27 DOJCERT

       26 See Appendix XII for a description of the seven categories and the associated

timeframes. An additional category is used for training exercises only.

       27 The IT Security Standard Incident Response Control Family, November 2006,

written by DOJCERT, describes the Department’s overall policy for incident response.
                                                                               (Cont’d.)

U.S. Department of Justice                                                            6
Office of the Inspector General
Evaluation and Inspections Division
reviews each component’s plan annually for compliance with the
DOJCERT Incident Response Plan template.

      DOJCERT has also instituted regular monthly reporting
requirements (in addition to the required reporting of security incidents
as they occur) to collect additional details on incidents in two of the
reporting categories and to promote component familiarity with the
DOJCERT process and staff.28 The DOJCERT template is a technical
document for component IT staff and is not distributed to all employees.

      DOJCERT’s Archer Database. To manage and track the reporting
process, DOJCERT maintains an Incident Response and Vulnerability
Patch Database (commonly called the Archer Database, after the vendor
that developed it) where incidents are recorded and monitored. Using the
Archer Database, reports can be generated on all Sensitive But
Unclassified incidents. All the components we reviewed have online
access to this database.29 Each component can choose whether to
complete the online Incident Report Form, e-mail or fax the completed
form to DOJCERT, or telephone DOJCERT with the specifics of the
incident. Department components with access to the Archer Database
are able to use it for their own internal tracking purposes as well.

       DOJCERT’s Educational and Technical Support. DOJCERT also
provides information resources, technical support, coordination
activities, and educational support to the Department on incident
response. Furthermore, DOJCERT tracks the implementation of critical
patches on IT systems and applications. As part of its educational

The policy requires that each component develop and implement a formal written
incident response policy, provide annual training to incident response personnel, test
its incident response plan at least annually, develop a capability for responding to and
recovering from incidents that have occurred, track and document incidents, report
incidents promptly, and provide assistance to users who need to report security
incidents.

       28 The two categories are Spam and Scans/Probes/Attempted Access. Scans,
probes, and attempted access include “any activity that seeks to access or identify a
Department computer, open ports, protocols, service, or any combination for later
exploit. This activity does not directly result in a compromise or denial of service.” See
Appendix XII.

       29   The United States Marshals Service (USMS) informed us that only one person
had been trained to use the Archer Database and that this individual had been on
extended sick leave. Due to work schedules and recent staff vacancies in the security
office, the USMS has been unable to train any other staff to access the Archer
Database. Therefore, the USMS reports new incidents to DOJCERT via telephone
instead of through the Archer Database.


U.S. Department of Justice                                                                 7
Office of the Inspector General
Evaluation and Inspections Division
support responsibilities, DOJCERT provides annual training to all
component IT security staff to meet the FISMA requirements for Incident
Response and IT Contingency Plan training and testing.30 Since 2002
DOJCERT has developed and distributed online, to component CIOs and
their staff, a quarterly newsletter that provides the Department with
security awareness information, security tips, training information, and
updates to DOJCERT operations.

       DOJCERT Reporting Responsibilities. DOJCERT reports all of the
Department’s computer security incidents, except spam, to the
Department of Homeland Security’s United States Computer Emergency
Readiness Team (US-CERT). US-CERT is a partnership between the
Department of Homeland Security and the public and private sectors
that was established in 2003 to protect the nation’s Internet
infrastructure. US-CERT also coordinates defenses against and
responses to cyber attacks across the nation.31 It is responsible for
analyzing and reducing cyber threats and vulnerabilities, disseminating
cyber threat warning information, and coordinating incident response
activities.

       Additionally, DOJCERT is responsible for reporting all actual or
potential data loss incidents to appropriate components in the
Department. If the incident involves PII, it is reported to the
Department’s Privacy and Civil Liberties Office in the Office of the Deputy
Attorney General. If there is evidence that a crime has occurred – for
example, computer crimes, child pornography, e-mail threats, successful
malicious activity directed towards the Department, or financial fraud –
then these incidents are reported to the Federal Bureau of Investigation
(FBI), the U.S. Secret Service, the Criminal Division, the Office of the
Inspector General (OIG), or other appropriate agencies. Additionally,
DOJCERT reports any information that could be relevant to terrorism
investigations to the FBI and the U.S. Secret Service.

Reporting Classified Incidents

     Classified incident reporting in the Department is governed by the
Department’s Security Program Operating Manual (SPOM).32 Classified

         30   FISMA established the responsibilities of agencies to assess their security
risks.

      31 Department of Homeland Security website, www.us-cert.gov/aboutus.html,

February 28, 2007.

         32   DOJ Security Program Operating Manual, May 2005.


U.S. Department of Justice                                                                  8
Office of the Inspector General
Evaluation and Inspections Division
computer security incidents are to be reported by the components’
Security Programs Manager to the Department Security Officer, who is
the Director of the Security and Emergency Planning Staff (SEPS).33
SEPS maintains a separate database to track these reports. The SPOM
defines nine categories of classified security incidents that are to be
reported, including:

       Any incident involving a possible loss, compromise, or suspected
       compromise of classified information, foreign or domestic, and . . . Any
       event involving [IT] systems, equipment or media which may result in
       disclosure of classified information to unauthorized individuals, or that
       results in unauthorized modification or destruction of system data, loss
       of computer system processing capability, or loss or theft of computer
       system media.34

The SPOM also requires components to report all IT-related classified
incidents to DOJCERT in addition to notifying the Department Security
Officer. DOJCERT notifies SEPS of all data loss incidents, including
classified data losses, via e-mail. DOJCERT, in its Incident Response
Plan template, requests that components, if possible, sanitize and
declassify the incident report and then report it through normal channels
to DOJCERT.




       33 The Department Security Officer reports to the Deputy Assistant Attorney
General for Human Resources, who reports to the Assistant Attorney General for
Administration. The Assistant Attorney General for Administration is the head of the
Justice Management Division.

       34   DOJ Security Program Operating Manual, § 1-302(a) and (e).


U.S. Department of Justice                                                             9
Office of the Inspector General
Evaluation and Inspections Division
    PURPOSE, SCOPE, AND METHODOLOGY OF THE OIG REVIEW


Purpose

       The purpose of this review was to provide an overview of the
policies and procedures that Department components are required to
follow to respond to and report computer security incidents.

Scope

       This review examined nine of the Department’s components:

       •   Bureau of Alcohol, Tobacco, Firearms and Explosives (ATF);
       •   Federal Bureau of Prisons (BOP);
       •   Criminal Division;
       •   Drug Enforcement Administration (DEA);
       •   Executive Office for United States Attorneys (EOUSA);
       •   Federal Bureau of Investigation (FBI);
       •   Justice Management Division (JMD);
       •   Tax Division; and
       •   United States Marshals Service (USMS).

        These 9 components accounted for 69 percent of the total number
of all computer security incidents reported to DOJCERT between
December 2005 and November 2006. According to the 9 components,
taken together they have 229 databases that contain PII. These
databases contain personal information from or about the public and
therefore present a potentially serious risk to the public if this sensitive
data is lost.

       We identified each component’s reporting procedures for the
following situations:

       •   Losses of electronic devices, including hardware such as laptops
           and BlackBerry devices that potentially could contain sensitive
           information; and
       •   Compromises of sensitive information, including PII and
           classified information, through unauthorized access to
           computer systems or data.




U.S. Department of Justice                                                10
Office of the Inspector General
Evaluation and Inspections Division
       We also determined:

       •   Whether the components had procedures to identify the
           information that was lost,
       •   Whether the components had procedures to notify the affected
           parties, and
       •   Whether the components had procedures for reporting
           computer security incidents outside normal business hours.

       However, the review did not:

       •   Examine Department or component procedures for tracking,
           protecting, or controlling sensitive information or PII prior to the
           reported occurrences;
       •   Examine Department or component procedures for tracking,
           protecting, or controlling removable electronic media, including
           disks, CD-ROMs, and flash drives;
       •   Verify components’ compliance with reporting procedures by
           means of a case file review;
       •   Verify that all computer security incidents are reported; or
       •   Verify the accuracy of the data contained in the Archer
           Database.

Methodology

      The methodology used in this review consisted of interviews with
40 staff, document review and analysis, and data analysis.

       Interviews. To determine the computer security incident reporting
procedures followed by each of the components, we interviewed officials
from all nine components, including the headquarters-based individuals
with primary responsibility for contacting DOJCERT on behalf of the
component. For those components with field offices, we interviewed a
field office official with computer security incident reporting
responsibilities. We also interviewed officials from the Office of the CIO,
the Security and Emergency Planning Staff (SEPS), and the Office of the
Deputy Attorney General to discuss Department-wide standards for
computer security incident reporting and Department-wide issues
concerning privacy.




U.S. Department of Justice                                                  11
Office of the Inspector General
Evaluation and Inspections Division
  Department
  Component                                 Officials Interviewed
                  •   Chief, Product Assurance Branch
                  •   Information Systems Security Officer
                  •   Project Manager, Information Systems Security Office
      ATF
                  •   Special Agent in Charge, Investigations Division
                  •   Assistant Special Agent in Charge, Investigations Division
                  •   Assistant Special Agent in Charge, Miami Field Division
                  •   Chief, IT Planning and Development
                  •   Chief, Information Security
                  •   Information Technology Security Administrator
      BOP         •   Program Analyst, Information Security Programs Section
                  •   Supervisory Management Analyst, Internal Affairs Division
                  •   Computer Services Manager, Allenwood Federal Correctional
                      Complex
    Criminal      •   Director, Information Technology Management
    Division      •   Information Systems Security Officer
                  •   Chief, Information Security
                  •   Deputy Chief Information Officer
      DEA         •   Deputy Chief Counsel
                  •   Security Programs Manager
                  •   Assistant Special Agent in Charge, Houston Field Division
                  •   Information Systems Security Officer
                  •   Senior Security Programs Specialist
    EOUSA
                  •   District Office Security Manager, Southern District of New York
                  •   Executive Assistant U.S. Attorney, Central District of California
                  •   Unit Chief, Assurance Management Unit
                  •   Unit Chief, Security Compliance Unit
      FBI         •   Unit Chief, Enterprise Security Operations Center
                  •   Unit Chief, Major Theft Unit
                  •   Assistant Special Agent in Charge, New York Field Division
                  •   Chief Information Security Officer, Office of the CIO
                  •   Deputy Director for Information Technology Security, Office of the
                      CIO
                  •   DOJCERT Project Manager, Office of the CIO
      JMD
                  •   Assistant Director for Information Safeguards and Security
                      Oversight, SEPS
                  •   Security Specialist, SEPS
                  •   Information Systems Security Officer, Personnel Staff
                  •   Executive Officer
  Tax Division    •   Associate Executive Officer
                  •   Information Technology Specialist
                  •   Chief, Enterprise Management
     USMS
                  •   Chief Deputy U.S. Marshal, District of Colorado
  Office of the   •   Chief Privacy and Civil Liberties Officer
Deputy Attorney
    General




U.S. Department of Justice                                                          12
Office of the Inspector General
Evaluation and Inspections Division
        Document Review and Analysis. We reviewed federal, Department,
and component procedures and policies regarding computer security
incident reporting. These included various federal statutes,
memorandums issued by OMB, US-CERT’s Concept of Operations,
Department Orders, memorandums issued by the Deputy Attorney
General, memorandums issued by the Department’s CIO, the DOJCERT
Incident Response Plan Template, the Department’s IT Security Standard
on Incident Response, documents detailing the Department’s compliance
with FISMA, the components’ Incident Response Plans, and the
components’ IT security policies. See Appendices X and XI for a complete
list of the acts, directives, standards, and component policies we
reviewed.

      Data Analysis. DOJCERT maintains a database titled the
DOJCERT Incident Response and Vulnerability Patch Database, also
known as the Archer Database, for tracking all computer security
incidents, including data loss incidents. We downloaded data from this
database to identify all computer security incidents reported by the nine
components that occurred in the 12-month period of December 1, 2005,
through November 30, 2006. Within each incident category defined in
the DOJCERT Incident Response Plan, we analyzed compliance with
reporting timeframes.

       We also conducted an analysis of this data to determine the
number of incidents reported by each component that involved actual or
potential loss of PII or classified information. We determined that an
incident involved actual or potential loss of PII if the database showed
that the components answered “Yes” or “Unknown,” respectively, when
asked if an incident involved personal data loss. We determined that an
incident potentially involved classified information based on the incident
description provided in the database. We did not verify this data with
either DOJCERT or the components’ internal records.

      In addition, we analyzed the components’ compliance with the
July 12, 2006, OMB memorandum requiring all federal agencies to
report actual or potential losses of PII within 1 hour.




U.S. Department of Justice                                              13
Office of the Inspector General
Evaluation and Inspections Division
                          RESULTS OF THE REVIEW


      The Department has developed a computer security Incident
Response Plan that provides standard reporting procedures that all
Department components are required to follow. In December 2003, at
the direction of the Chief Information Security Officer, DOJCERT
developed an Incident Response Plan template to standardize procedures
Department-wide for responding to and handling computer security
incidents. Each of the nine Department components we reviewed has
developed an Incident Response Plan that conforms to the DOJCERT
template. The following is a summary discussion of:

       •   Reporting procedures that the nine components have
           established for reporting and responding to computer security
           incidents;

       •   Determining the type of data lost; and

       •   Defining sensitive information, PII, and reportable loss.

In addition, we identify best practices, recent developments, and future
plans. Detailed discussions of the above areas for each component are
included in Appendices I through IX.

Reporting and Responding to Computer Security Incidents

Written Procedures

      All of the nine components the OIG reviewed have official written
procedures for their employees to follow when reporting computer
security incidents. All nine components have developed their own
component-specific Incident Response Plans that follow the DOJCERT
Incident Response Plan template. The Incident Response Plans are the
primary written guidance for the components’ IT staff response to and
reporting of computer security incidents involving sensitive information,
including PII, to DOJCERT.

      DOJCERT updates the Incident Response Plan template as needed,
but at least annually, to reflect new statutory or OMB requirements or
emerging computer security threats. In November 2006, DOJCERT
revised its Incident Response Plan template to require for the first time
that the components add language that identifies loss of PII as a distinct



U.S. Department of Justice                                              14
Office of the Inspector General
Evaluation and Inspections Division
type of reportable incident and that defines the category and timeframe
(1 hour) for reporting these data loss incidents.

      As of April 2007, seven of the nine components we reviewed had
updated Incident Response Plans that conformed to the November 2006
DOJCERT template revision: the BOP, the Criminal Division, the DEA,
EOUSA, the FBI, JMD, and the Tax Division. The remaining two
components, ATF and the USMS, had not yet submitted their revised
Incident Response Plans to DOJCERT for approval.

       The DOJCERT template provides instructions for reporting
computer security incidents to DOJCERT, but it does not dictate the
internal reporting requirements within each component. Therefore, to
supplement the DOJCERT template, each component has developed
additional policies, memorandums, or practices for its employees that
provide more detailed reporting and incident response procedures. These
supplemental policies provide further tools to help components respond
to computer security incidents or identify when data loss may have
occurred. For example, components have policies that tell their
employees how to identify reportable computer security incidents and
how to contact internal IT staff to report such incidents. While all nine
components reviewed have multiple policies, two of the components have
policies that provide contradictory or faulty chain-of-command reporting
procedures. ATF staff has received contradictory instructions on which
office is the primary point of contact for reporting computer security
incidents. The USMS policy instructs employees to report computer
security incidents to staff titles and internal departments that either no
longer exist or are inaccurate. Appendix XI identifies the policies that
each component developed and relies on for guidance related to
computer security incidents.

       Four of the nine components have developed separate procedures
for staff to follow if an incident is reported after normal business hours.
One component’s procedures were the same 24 hours a day. The
remaining four components have no specific written procedures covering
such incidents.35 We found that at least 19 percent of the incidents
reported between December 2005 and November 2006 occurred after
hours (6:00 p.m. to 6:00 a.m.).

     Between December 1, 2005, and November 30, 2006, the 9
components the OIG reviewed reported 1,501 computer security

       35 Two of these components have developed draft procedures but, as of April

2007, those procedures had not yet been issued.


U.S. Department of Justice                                                           15
Office of the Inspector General
Evaluation and Inspections Division
incidents to DOJCERT. During this same period, all 40 Department
components reported 2,162 incidents. (See Table 1 for the number of
incidents reported by each of the nine components reviewed.)

                          Table 1: Total Computer Security
                              Incidents, by Component
                      Component                   Incidents
                      ATF                                   70
                      BOP                                  252
                      Criminal Division                     24
                      DEA                                   43
                      EOUSA                                463
                      FBI                                  206
                      JMD                                  402
                      Tax Division                          22
                      USMS                                  15
                      DOJCERT                                4
                      Total                             1,501
                      Source: Archer Database

       Of the 1,501 incidents reported by the 9 components in this
review, 19 incidents involved the actual loss of PII and an additional 228
incidents involved the potential loss of PII. The number of PII incidents
could be underreported because until July 2006 there was no
requirement to identify and report whether incidents involved the loss of
PII.36 Prior to July 2006, the components’ internal records may have
indicated whether incidents involved the loss of PII, but the components
were not required to report this detail to DOJCERT. According to the
Archer Database, 5 actual losses of PII and 43 potential losses of PII were
reported during the 8 months between the December 1, 2005, start of
our review period and July 12, 2006, when the reporting requirement
went into effect.

      The 1,501 incidents also included 57 incidents involving classified
information.37 The remaining 1,215 incidents involved spam, computer
viruses, or other types of incidents that did not involve either PII or


       36  OMB Memorandum M-06-19 for Chief Information Officers, Reporting
Incidents Involving Personally Identifiable Information and Incorporating the Cost for
Security in Agency Information Technology Investments, Karen S. Evans, July 12, 2006.

        37 One of the incidents involving the actual loss of PII also involved classified

information. Seventeen of the incidents involving the potential loss of PII also involved
classified information.


U.S. Department of Justice                                                             16
Office of the Inspector General
Evaluation and Inspections Division
classified information. Table 2 gives the breakdown of the types of
incidents reported by the nine components.

              Table 2: Types of Incidents Reported by Nine Components
                                             Incidents      Incidents
                                             involving      involving
                       Total     Incidents   classified    both PII and    All other
                    number of involving     information     classified      types of
   Component         incidents    PII only      only       information     incidents
ATF                          70           7             0              1           62
BOP                        252           24             0              0          228
Criminal Division            24           1             6              4           13
DEA                          43           6             2              0           35
EOUSA                      463         140              2              2          319
FBI                        206           32            24             11          139
JMD                        402           18             5              0          379
Tax Division                 22           0             0              0           22
USMS                         15           0             0              0           15
DOJCERT                       4           1             0              0             3
Total                    1,501         229            39             18         1,215
Source: Archer Database

Compliance with Reporting Procedures

       IT security staff and other staff with related duties we interviewed
in all nine components stated that their staff generally followed
procedures established for reporting computer security incidents through
their chain of command up to component headquarters. In this review,
we did not test to verify those statements. However, in reviewing the
information the FBI provided to us and the information we analyzed from
the Archer Database, we noticed a discrepancy between the number of
lost electronic devices that had been reported within the FBI and the
number of lost electronic devices that the FBI had reported to DOJCERT.
Therefore, we asked the FBI some additional questions to determine
whether they were following their reporting procedures. We found that
the FBI was not always following the procedures required in the
DOJCERT Incident Response Plan template or its own required
procedures.

      Within the FBI, computer security incidents are reported to two
separate offices, but only one of those offices is required to report
incidents to DOJCERT. The FBI’s Security Policy Manual requires staff to
report computer security incidents to the FBI’s Security Compliance
Unit. The FBI’s four Incident Response Plans require staff to report
computer security incidents to the FBI’s Enterprise Security Operations


U.S. Department of Justice                                                      17
Office of the Inspector General
Evaluation and Inspections Division
Center.38 Only the Enterprise Security Operations Center reports
computer security incidents to DOJCERT.

       We found that the FBI is not in full compliance with DOJCERT’s
requirement that all lost or stolen electronic devices be reported.39 In
reviewing the information the FBI provided, and in our analysis of
information from the Archer Database, we noticed a discrepancy between
the number of lost electronic devices that had been reported to the FBI’s
Security Compliance Unit and the number of lost electronic devices that
had been reported to the Enterprise Security Operations Center and to
DOJCERT. For the period from December 2005 through November 2006,
FBI employees reported 35 lost or stolen laptops to the Security
Compliance Unit, but only 7 lost or stolen laptops were reported to the
Enterprise Security Operations Center.40 The underreporting of incidents
to the Enterprise Security Operations Center caused an underreporting
of incidents to DOJCERT and US-CERT. Table 3 below shows the
number of lost or stolen FBI laptops that were reported.

                    Table 3: Number of FBI Laptops Reported Lost
                      or Stolen between December 1, 2005, and
                                  November 30, 2006
                   Reported to the Security Compliance Unit*  35
                   Reported to the Enterprise Security
                                                                6
                   Operations Center*
                   Reported to DOJCERT via the Enterprise
                                                                7
                   Security Operations Center**
                   * Based on FBI documents.
                   ** Based on OIG analysis of Archer Database.
                   Sources: FBI documents and Archer Database

      In addition to not reporting all incidents of lost electronic devices
to DOJCERT, we found the FBI was underreporting classified computer
security incidents to both SEPS and DOJCERT. The Department’s
Security Program Operating Manual (SPOM) requires that all 40

       38   All four of the Incident Response Plans conform to the DOJCERT template.

       39 The OIG recently conducted an audit that describes in greater detail the FBI’s
processes for identifying and reporting lost or stolen laptop computers. See OIG, The
Federal Bureau of Investigation’s Control Over Weapons and Laptop Computers Follow-
Up Audit, Audit Report 07-18, February 2007.

       40 FBI officials told us that 35 lost or stolen laptops were reported to the

Security Compliance Unit. We reviewed data from DOJCERT’s Archer Database and
determined that seven lost or stolen laptops had been reported to the Enterprise
Security Operations Center and to DOJCERT. We did not verify those reports.


U.S. Department of Justice                                                             18
Office of the Inspector General
Evaluation and Inspections Division
Department components report classified computer security incidents,
including those involving losses of classified information, to SEPS. At
least 72 classified computer security incidents that were reported to the
Security Compliance Unit by FBI employees between December 2005 and
November 2006 were not reported to either SEPS or DOJCERT as
required. FBI policy does not require the Security Compliance Unit to
report any computer security incident to any entity outside the FBI,
including SEPS. FBI policy only requires the Enterprise Security
Operations Center to report computer security incidents to DOJCERT.
For additional details on FBI compliance with reporting procedures, see
Appendix VI.

Timeliness of Reporting All Computer Security Incidents

       We found that the components were not always timely in reporting
all occurrences of computer security incidents, especially those involving
PII, to DOJCERT. Further, DOJCERT was not always timely in reporting
all occurrences of computer security incidents, especially those involving
PII, to US-CERT.

      Timeliness of Components’ Reporting Computer Security Incidents
Overall. Between December 2005 and November 2006, 66 percent of the
computer security incidents were reported in a timely manner by the
nine components overall. However, only one of the nine components
reported nearly all of its computer security incidents within specified
timeframes. We analyzed data from DOJCERT’s Archer Database to
determine the amount of time that elapsed between the occurrence of a
potential or actual computer security incident and the time the incident
was reported to DOJCERT. The timeframes are defined in the DOJCERT
Incident Response Plan template and the components’ Incident Response
Plans and vary for the seven categories of computer security incidents
the plans address.41

      Between December 2005 and November 2006, the Tax Division
made timely reports for 95 percent of its reported computer security
incidents. The other eight components reported between 37 percent and
84 percent of their security incidents on a timely basis. Table 4 shows




       41 See Appendix XII for a detailed description of each category. An additional

category is used for training exercises only.




U.S. Department of Justice                                                              19
Office of the Inspector General
Evaluation and Inspections Division
the timeliness in reporting to DOJCERT by category of incident for all
components.42

  Table 4: Nine Components’ Timeliness in Reporting Category 1-7 Incidents to DOJCERT
                                                Reported      Reported       Could not
                     Reporting    Incidents       within        after         compute
                    timeframe*     reported    timeframe     timeframe      timeliness**
Category 0
                        None              29           N/A           N/A              29
(Exercise/Test)
Category 1
(Unauthorized          1 hour            100             12            79              9
Access)
Category 2
                      2 hours               4             1             3              0
(Denial of Service)
Category 3
                        1 day            402            143           166             93
(Malicious Code)
Category 4
                       1 week            264            144            84             36
(Improper Usage)
Category 5
                      1 month            180            149            15             16
(Scans/Probes)
Category 6
                        None             241           N/A           N/A             241
(Investigation)
Category 7
                      1 month            281            233            11             37
(Spam)
Total                                  1,501           682            358           461
* For purposes of this table, “reporting timeframe” refers to the timeframes defined in the
components’ Incident Response Plans.
** We could not compute timeliness for some incidents because the Archer Database contained
no information to indicate when DOJCERT received the reports. We also could not compute
timeliness for incidents in Categories 0 and 6, which do not have timeframes.
Source: Archer Database

      Timeliness of Components’ Reporting of PII Incidents. The
9 components in this review reported 199 potential or actual losses of PII
to DOJCERT between July 12, 2006, and November 30, 2006. Only
15 percent of those incidents were reported within 1 hour to DOJCERT,
and none of the PII incidents were reported to US-CERT within 1 hour of
discovery or detection. Table 5 provides data on the nine components’
timeliness in reporting actual and potential PII incidents to DOJCERT.




        42 Our calculations are based on Categories 1 through 5 and Category 7. We

did not include incidents found in Categories 0 and 6 because they had no associated
time criteria, nor did we include incidents for which the Archer Database contained no
information to indicate when DOJCERT received the report that an incident had
occurred.


U.S. Department of Justice                                                            20
Office of the Inspector General
Evaluation and Inspections Division
     Table 5: Nine Components’ Timeliness in Reporting Actual and Potential
                            PII Incidents to DOJCERT
                                       Reported
                    Incidents          within 1                  Could not
                 occurring on or         hour      Reported       compute
   Category      after 07/12/06       (TIMELY)*   after 1 hour  timeliness**
   ATF                           6              4            2              0
   BOP                           7              1            6              0
   CRM                           4              0            4              0
   DEA                           6              1            5              0
   EOUSA                       134             19          101            14
   FBI                          26              0           25              1
   JMD                          16              2           12              2
   TAX                           0            N/A          N/A           N/A
   USMS                          0            N/A          N/A           N/A
   Total                      199              27          155            17
   Note 1: Because the Archer Database does not require components to identify
   the date and time an incident was discovered, we relied on the components’
   reports of the date and time each incident occurred to conduct our analysis.
   Note 2: PII incidents were reported in several incident categories.
   * The 1-hour timeframe for PII incidents is defined in OMB Memorandum
   M-06-19.
   ** We could not compute timeliness for some incidents because the Archer
   Database contained no information to indicate when DOJCERT received the
   reports.
   Source: Archer Database

      Although OMB requires that all potential or actual losses of PII be
reported within 1 hour to US-CERT, the median time for the nine
components to report such incidents to DOJCERT was slightly over
12 hours.43 Chart 2 shows the components’ timeliness in reporting PII
incidents to DOJCERT within the first 24 hours after occurrence. The
components reported 66 PII incidents (36 percent) to DOJCERT more
than 24 hours after occurrence.




        43 The median refers to the middle number of a group of numbers; that is, half

the numbers have values that are greater than the median, and half the numbers have
values that are less than the median. For example, the median of 2, 3, 3, 4, 5, 7, and
10 is 4.


U.S. Department of Justice                                                          21
Office of the Inspector General
Evaluation and Inspections Division
              Chart 2: Components’ Timeliness in Reporting PII Incidents to
                  DOJCERT Within the First 24 Hours After Occurrence

                                 30




                                 25
  Number of Incidents Reported




                                 20




                                 15




                                 10




                                 5




                                 0
                                      0      3        6       9        12       15       18      21   24
                                             Number of Hours Between Incident and Report to DOJCERT
                                  Source: Archer Database

       When discussing their timeliness in reporting PII incidents, the
nine components’ staff told us there was a lack of clarity as to when the
1-hour reporting timeframe begins and ends. OMB’s July 12, 2006,
memorandum requires federal agencies to report computer security
incidents to US-CERT within 1 hour of discovery. However, the
Department’s November 2006 revision of its Incident Response Plan
template requires that PII incidents be reported by the components
within 1 hour of discovery or detection to DOJCERT. By allowing 1 hour
for reporting to DOJCERT, the incident response plan appears to conflict
with the OMB directive that incidents be reported to US-CERT within 1
hour of discovery or detection.

       Component staff told us that component employees interpret the
OMB requirement to mean that they have 1 hour to report incidents to
their component’s IT staffs. We found the components’ IT staffs interpret
the OMB requirement to mean that they have 1 hour to report incidents

U.S. Department of Justice                                                                             22
Office of the Inspector General
Evaluation and Inspections Division
to DOJCERT. DOJCERT interprets the OMB requirement to mean that it
has 1 hour from the time it is notified of an incident to report that
incident to US-CERT. Therefore, the components may need further
clarification from the Department on when the 1-hour window for
reporting PII incidents begins and ends, and who must receive the report
within 1 hour of discovery or detection – component IT staff, DOJCERT,
or US-CERT. Officials from three components remarked that the 1-hour
timeframe was impractical and unrealistic.

      For our analysis, we assessed the amount of time that that elapsed
between an incident’s occurrence and when the component reported the
incident to DOJCERT. For those incidents that were reported within
1 hour to DOJCERT, we determined if they were also reported to
US-CERT within the same 1-hour period. We also assessed the amount
of time that elapsed between when DOJCERT received notice of an
incident and when DOJCERT reported that incident to US-CERT.

       Because the 1-hour requirement is relatively recent, we also
examined whether the components’ timeliness in reporting PII incidents
to DOJCERT was improving. To examine this, we compared incidents
that occurred between July 12, 2006, and September 20, 2006, with
incidents that occurred between September 21, 2006, and
November 30, 2006.44 We found that the components’ reporting data
suggests that their performance improved over time. Only 5 of the 76
potential or actual losses of PII that occurred between July 12, 2006, and
September 20, 2006 (7 percent) were reported to DOJCERT within 1 hour
of the incidents’ occurrence.45 However, between September 21, 2006,
and November 30, 2006, 22 of the 106 potential or actual losses of PII
(21 percent) were reported to DOJCERT within 1 hour of the incidents’
occurrence.46 (See Chart 3.)




       44We chose September 20, 2006, as the cutoff date because it is halfway
between July 12, 2006, and November 30, 2006.

       45 We could not analyze 10 incidents for timeliness because there was no

information in the Archer Database to indicate when DOJCERT received the reports.

       46 We could not analyze seven incidents for timeliness because there was no

information in the Archer Database to indicate when DOJCERT received the reports.


U.S. Department of Justice                                                           23
Office of the Inspector General
Evaluation and Inspections Division
Chart 3: Timeliness of Reporting PII Incidents Improved Over Time



      Date Incident Occurred   7/12/06 -
                                                7%
                                9/20/06



                               9/21/06 -
                                                       21%
                               11/30/06


                                           0%        20%      40%       60%      80%   100%
                                                             Percentage Timely

         Source: Archer Database

       Timeliness of DOJCERT’s Reporting of PII Incidents. Between
December 2005 and November 2006, DOJCERT reported 61 percent of
computer security incidents to US-CERT in a timely manner. However,
our analysis also showed that DOJCERT reported only 12 percent of the
potential or actual losses of PII to US-CERT within 1 hour of being
notified by the components of the incidents.47 DOJCERT reported
88 percent of the potential or actual losses of PII to US-CERT more than
an hour after being notified by the components.48 See Table 6 for data on
DOJCERT’s timeliness in reporting PII incidents to US-CERT.




          For the 199 potential or actual losses of PII, we compared the date and time
         47

the incident was reported to DOJCERT with the date and time the incident was reported
to US-CERT, to determine how well DOJCERT was meeting the 1-hour timeframe. We
could not analyze 64 of the incidents for timeliness because there was no information in
the Archer Database to indicate when the report was submitted to US-CERT.

        48 DOJCERT staff report incidents to US-CERT by completing a web-based

form. DOJCERT staff also print a copy of each completed form and maintain the paper
copies in their records. The date and time the form was printed appears automatically
at the bottom of the page. DOJCERT staff type this information into the Archer
Database for tracking purposes.


U.S. Department of Justice                                                                    24
Office of the Inspector General
Evaluation and Inspections Division
      Table 6: DOJCERT’s Timeliness in Reporting PII Incidents to US-CERT
          Incidents occurring on or    Reported      Reported       Could not
          after 07/12/06 (reported  within 1 hour      after 1       compute
            by nine components)       (TIMELY)*         hour       timeliness**
Total                           199            16            119              64
* The 1-hour timeframe for PII incidents is defined in OMB Memorandum M-06-19.
** We could not compute timeliness for the 64 incidents because the Archer Database
contained no information to indicate when the report was submitted to US-CERT.
Source: Archer Database

       The median time taken by DOJCERT to report potential or actual
losses of PII to US-CERT was slightly under 24 hours, with 67 of the
incidents being reported more than 24 hours after the components
notified DOJCERT that they had occurred. Chart 4 shows DOJCERT’s
timeliness in reporting PII incidents to US-CERT within the first 24 hours
after receiving notice that the incident had occurred.

       Chart 4: DOJCERT’s Timeliness in Reporting PII Incidents to
        US-CERT Within the First 24 Hours After Receiving Notice

                                   20
    Number of Incidents Reported




                                   15




                                   10




                                    5




                                    0
                                        0       3        6        9       12      15       18       21      24
                                            Number of Hours Between Report to DOJCERT and Report to US-CERT
                                   Source: Archer Database




U.S. Department of Justice                                                                                       25
Office of the Inspector General
Evaluation and Inspections Division
Ensuring that All Incidents Are Reported

      The nine components stated that they cannot ensure that all
incidents are reported, but they identified training as their primary
method for ensuring that employees are aware of the requirement to
report data loss incidents, including those involving PII. This training
includes:

       •    Computer Security Awareness Training – Seven of nine
            components identified the Department’s annual Computer
            Security Awareness Training as a way to ensure that all
            employees are aware of the reporting requirements.49 This
            training consists of a 1-hour online PowerPoint presentation.
            The fiscal year 2007 Computer Security Awareness Training
            included, for the first time, a section on data loss reporting
            procedures, including PII. Additionally, the training defines
            computer security incidents, reviews the protection of systems
            information, and explains the consequences of lost or breached
            sensitive information.

       •    Standards of Conduct and IT Rules of Behavior – Two
            components use the Department’s Standards of Conduct, and
            seven components use their own IT Rules of Behavior as other
            forms of training to inform all employees of their responsibilities
            related to computer use, including reporting all computer
            security incidents or vulnerabilities (as well as losses of
            sensitive information), accountability for and confidentiality of
            federally owned information, and reporting any loss or damage
            to laptops or BlackBerry devices.50 All of those components’
            employees must read and sign the IT Rules of Behavior.

       Two components use additional methods to make employees aware
of the requirement to report data loss incidents:

       •    The Criminal Division displays security tips on computer
            monitors after employees have entered their passwords and are
            waiting for the computers to connect to the division’s network.


       49The seven components were ATF, the Criminal Division, the DEA, the FBI,
JMD, the Tax Division, and the USMS.

      50 The two components that identified Standards of Conduct were ATF and the

DEA. The seven components that identified IT Rules of Behavior were ATF, the
Criminal Division, the DEA, the FBI, JMD, the Tax Division, and the USMS.


U.S. Department of Justice                                                         26
Office of the Inspector General
Evaluation and Inspections Division
       •   The Tax Division posts the reporting requirements for data loss
           prominently on its intranet to make them readily accessible to
           employees.

Notification to Affected Parties

       The Department does not have a policy to notify affected parties of
a loss of PII. According to recent Government Accountability Office
testimony, “. . . existing laws do not require agencies to notify the public
when data breaches occur . . . .”51 However, the Department’s Privacy
and Civil Liberties Office is circulating a draft Department-wide
notification policy.

       None of the nine components we reviewed had a written policy for
notification. Four of the components reviewed offered suggestions for
what the component might do if a loss of PII occurred, and three stated
that the Department or OMB should develop a Department-wide
notification policy so that responses would be standardized and
consistent.

Determining the Type of Data Lost

       All nine components informed us that when a computer security
incident is discovered, the employee who reported the data loss is
interviewed to determine what sensitive information the lost device or
removable storage media may have contained. For most components,
this consists of informal questioning in an attempt to assist the employee
in reconstructing what occurred and to identify the information that the
device contained. DOJCERT’s Incident Response Plan template and the
components’ Incident Response Plans contain a section that provides
general guidelines on how to respond to incidents. Three components –
ATF, the FBI, and the USMS – have developed a questionnaire for use
when interviewing the employee to identify the contents of the lost or
compromised sensitive information.

      ATF, the Criminal Division, the DEA, the FBI, and the USMS
reported that they use computer forensic techniques in certain situations
to supplement the employee’s account of what information or files were

       51 Testimony of David M. Walker, Comptroller General, Government

Accountability Office, Privacy: Preventing and Responding to Improper Disclosures of
Personal Information (GAO-06-833T), before the House Committee on Government
Reform, June 8, 2006.


U.S. Department of Justice                                                             27
Office of the Inspector General
Evaluation and Inspections Division
stored or accessed by the employee. For example, the Criminal Division
and the DEA reported that for incidents involving a lost BlackBerry
device, the BlackBerry Exchange Server allows them to identify the
e-mails that were received and sent the last time the device was used.
All components can send a “kill signal” to a BlackBerry device once its
loss is known, rendering it useless and the information on it
inaccessible.

Defining Sensitive Information, PII, and Reportable Data Loss

      The Department has developed a standard definition for sensitive
information but has not developed its own definitions for PII and what
constitutes a reportable data loss. The Department’s definition for
sensitive information in its Security Program Operating Manual (SPOM),
which is distributed to the components’ Security Programs Managers, is:

       Any information, the loss, misuse, modification of, or unauthorized
       access to, could affect the national interest, law enforcement activities,
       the conduct of Federal programs, or the privacy to which individuals are
       entitled under Section 552a of Title 5, U.S. Code, but that has not been
       specifically authorized under criteria established by an executive order or
       an act of Congress to be kept classified in the interest of national defense
       or foreign policy.52

       However, officials in seven of the nine components we reviewed
stated that basically all of their information is sensitive. One component
official stated, “We’ve lowered it [the definition of sensitive information] to
a point where nearly everything is sensitive and that’s a problem.”

       The Department has not issued its own definition of PII but instead
relies on the definition set forth in OMB Memorandum M-06-19:

       [A]ny information about an individual maintained by an agency,
       including, but not limited to, education, financial transactions, medical
       history, and criminal or employment history and information which can
       be used to distinguish or trace an individual’s identity, such as their
       name, social security number, date and place of birth, mother’s maiden
       name, biometric records, etc., including any other personal information
       which is linked or linkable to an individual.

      Two components stated that this definition may lead components
to over designate information as PII because the OMB definition is too
broad and overly vague. One component official stated that even his
government e-mail address was considered PII. Another component

       52   DOJ Security Programs Operations Manual, May 2005, p. A-7.


U.S. Department of Justice                                                            28
Office of the Inspector General
Evaluation and Inspections Division
official voiced concern that the terms PII and sensitive are now
interchangeable. Most of the components expressed the opinion that the
Department needs to develop its own definition of PII.

      In addition, we found no standard Department definition of a
reportable data loss. However, the components provided a variety of
answers when defining what they considered a reportable data loss.
Their responses were generally in line with the causes of data loss
described in the DOJCERT Incident Response Plan template, which notes
that data loss can be caused by:

            •   Loss or theft of a laptop, removable storage medium, or portable
                computing device containing PII or sensitive information; . . .
            •   Successful phishing, pharming, or social engineering by a
                malicious attacker;
            •   Hacker intrusion through network and system defenses;
            •   Spyware, viruses, worms, Trojan horses, rootkits, backdoors,
                keyloggers, or other malicious code installed on a computing
                device;
            •   Eavesdropping of communications at public Internet access
                points, such as cyber cafes or hotels;
            •   Eavesdropping of wireless communications; . . .
            •   Failure to secure unattended documents containing sensitive
                information or PII; and
            •   Failure to clean sensitive information or PII from computers or
                storage devices before they are discarded.53

      For more discussion on each component’s definitions of sensitive
information, PII, and a reportable data loss, see Appendices I through IX.

Best Practices in Increasing Employee Awareness

       The OIG believes the following procedures or policies used by four
of the nine components could be considered as a Best Practice. These
components are taking additional steps to either minimize unauthorized
access to sensitive information or to educate employees on their
reporting responsibilities:



       53 DOJCERT Incident Response Plan template, version 1.3, § 9.4, November
2006. Social engineering is a collection of techniques, such as phishing and pharming,
used to manipulate people into performing actions or divulging confidential information.
Phishing is e-mail appearing to come from a legitimate business – a bank, or credit card
company – requesting “verification” of information and warning of dire consequence if it
is not done. Pharming is a hacker’s attack aiming to redirect a website’s traffic to
another (bogus) website.


U.S. Department of Justice                                                           29
Office of the Inspector General
Evaluation and Inspections Division
       •    The Tax Division reinforces employees’ awareness of the 1-hour
            reporting requirement for loss of PII by posting this information
            prominently on its intranet.

       •    The Criminal Division displays a variety of security tips,
            including procedures for reporting computer security incidents,
            on computer monitors when employees first log in.

       •    JMD Personnel staff receives verbal briefings on the procedures
            for reporting computer security incidents when they are given
            the equipment necessary to use the Justice Secure Remote
            Access system and also receive a wallet card summarizing those
            reporting procedures.

       •    BOP policy requires that to remove sensitive information from a
            BOP facility, an employee must obtain written approval from the
            Chief Executive Officer (CEO) of the facility. When requesting
            approval, the medium of the sensitive information (e.g., paper
            documents, electronic files), a description of the equipment
            being used and the contents, and the purpose for the removal
            must be documented along with the CEO’s approval.54

Recent Developments and Future Plans

       The Department frequently updates its guidance on data loss
incidents and privacy issues, or changes its policies to address a newly
identified need. For example, the Department must comply with the
Privacy Act, which regulates the collection, maintenance, use, and
dissemination of certain types of personal information maintained by
federal agencies.55 The Act prohibits the disclosure of such information
except with the prior written consent of the individual to whom the
information pertains or if the disclosure falls within one of 12 statutory
exceptions.56 One of these exceptions permits disclosure for a “routine
use,” which is defined as “the use of such record for a purpose which is
compatible with the purpose for which it was collected.”57 Consistent

       54   BOP, Information Security, P1237.13, March 31, 2006, Chapter 2, p. 14.

        5 U.S.C. § 552a. For a comprehensive overview of the Act’s requirements, see
       55

www.usdoj.gov/oip/04_7_1.html.

       56   5 U.S.C. § 552a(b).

      57 5 U.S.C. §§ 552a(b)(3) & (a)(7). An example of a published routine use for

Department recordkeeping systems is disclosure to any criminal, civil, or regulatory law
                                                                                (Cont’d.)

U.S. Department of Justice                                                           30
Office of the Inspector General
Evaluation and Inspections Division
with the Act, the Department and its components have published in the
Federal Register its routine uses, “including the categories of users and
the purpose of such use[s].”58

       As part of its response to a data breach, the Department might be
required to disclose information protected by the Privacy Act. For
example, an official with the Privacy and Civil Liberties Office observed
that the Department of Veterans Affairs, in responding to the May 2006
laptop theft, contacted other federal agencies to determine whether the
contact information it had for the affected individuals was correct. In
such a case, the Department would need to rely on a routine use to
authorize the disclosure. Accordingly, the Privacy and Civil Liberties
Office reviewed the Department’s existing published routine uses and
determined that a new routine use to cover this situation was required.

        In October 2006, the Department published a notice in the Federal
Register describing this new routine use. The routine use would
“facilitate an effective response to a confirmed or suspected [data] breach
by allowing for disclosure to those individuals affected by the breach, as
well as to others who are in a position to assist in the Department's
response efforts.” The provision went into effect in December 2006.59

       In February 2007, the Department’s Privacy and Civil Liberties
Office added a Privacy Resources page to the Department’s intranet.
This page provides Department employees with OMB’s definition of PII,
guidance and templates for preparing Privacy Impact Assessments,
copies of DOJ Orders and Department guidance related to the general
protection of privacy, and links to OMB privacy guidance.60

      The Privacy and Civil Liberties Office and the Office of the CIO have
also drafted a Department-wide policy on notification of affected parties

enforcement authority (whether federal, state, local, territorial, tribal, or foreign) where
the information is relevant to the recipient entity's law enforcement responsibilities.

       58   5 U.S.C. § 552a(e)(4)(D).

       59 The Department published a minor modification in the Federal Register in
January 2007 to clarify that it is the Department that must confirm or suspect a data
breach before disclosure would be permitted.

        60 The page defines PII as “information which can be used to distinguish or

trace an individual's identity, such as their name, social security number, date and
place of birth, mother's maiden name, biometric records, etc., including any other
personal information which is linked or linkable to a specific individual.” This is the
definition used in OMB Memorandum M-06-19, July 12, 2006.


U.S. Department of Justice                                                                31
Office of the Inspector General
Evaluation and Inspections Division
in the event of a data loss incident that could result in identity theft. To
ensure that the Department makes notification decisions in a consistent
manner, the final determination about whether to notify affected parties
in each situation will be made by high-ranking Department officials
rather than by component officials. The draft policy calls for the
establishment of an Identity Theft Core Management Team, which will
convene in the event of a data breach and analyze the situation to
determine the risk of identity theft.61 If the management team
determines that there is a risk of identity theft, and that affected
individuals should be notified, the policy outlines factors that should be
incorporated into the Department’s response, including timing and the
contents and methods of notification. Once this policy is finalized,
DOJCERT plans to issue an addendum to the DOJCERT Incident
Response Plan template explaining the procedures and the components’
roles in relation to them.

      DOJCERT told us that later in fiscal year 2007 it plans to release
an Incident Response Handbook to provide the components with
additional guidance on determining the type of data contained on lost
equipment. The handbook will provide guidance to the components on:

       •   Information-gathering techniques during and following an
           incident,
       •   Techniques for determining the type of data included on lost
           equipment, and
       •   Methods for identifying the level of residual risk associated with
           each incident.




       61 The Identity Theft Core Management Team will consist of the Associate

Attorney General; the Assistant Attorneys General for Administration, the Office of Legal
Counsel, and the Office of Legislative Affairs; an Associate Deputy Attorney General; the
CIO; the Chief Privacy Officer; the Inspector General; and the Director of the Office of
Public Affairs.


U.S. Department of Justice                                                            32
Office of the Inspector General
Evaluation and Inspections Division
                 CONCLUSION AND RECOMMENDATIONS


       The Department has developed an Incident Response Plan
template to standardize the procedures that its components are required
to follow to report computer security incidents. The nine Department
components reviewed by the OIG have all developed and implemented
their own component-specific incident response plans that follow the
Department’s template. However, as of April 2007 two of the nine
components had not updated their incident response plans to conform to
the Department’s November 2006 revision that requires all computer
security incidents involving PII to be reported within 1 hour.

      Although the Department’s template does not require it, we also
found that four of the nine components had developed additional written
procedures to ensure prompt reporting of incidents that occur outside
normal business hours and that one component’s procedures are the
same 24 hours a day. To ensure that all Department employees know
who to call after hours to report a computer security incident, we believe
the Department should require all of its components to develop after-
hours reporting procedures.

      While all of the components stated that they believed their staff
followed procedures established for reporting computer security incidents
through their chains of command up to component headquarters, we
found indications that the FBI’s IT staff was not always following the
reporting procedures outlined in the Department’s Incident Response
Plan template or its own internal procedures. The FBI also was not
reporting classified computer security incidents directly to the Security
and Emergency Planning Staff, as required by the Department’s Security
Program Operating Manual.

      Because this review covered only nine components, it is unknown
whether other Department components are reporting all classified
computer security incidents. Because of the potential risk involved in
the loss of classified information, we believe the Department should
review and ensure each component’s compliance with the Department’s
requirements for the reporting of classified security incidents.

       In addition, we found that the components were not always
reporting all computer security incidents to DOJCERT within the
timeframes established in the Department’s Incident Response Plan
template. In particular, the components were not consistently reporting
PII incidents within a 1-hour timeframe to DOJCERT, nor was DOJCERT


U.S. Department of Justice                                              33
Office of the Inspector General
Evaluation and Inspections Division
consistently reporting PII incidents within a 1-hour timeframe to
US-CERT.

      We believe the components need further clarification from the
Department on when the 1-hour window for reporting PII begins and
ends and who must receive the report within 1 hour of discovery or
detection – component IT staff, DOJCERT, or US-CERT. Three
components remarked that the 1-hour timeframe was impractical and
unrealistic. We believe the Department should examine and clarify the
1-hour timeframe.

       The components told us that training was the primary means of
ensuring that employees report computer security incidents. The
training most often used was the Department’s annual Computer
Security Awareness Training. Also, some components have developed
additional methods of reminding their employees of the requirement to
report computer security incidents that we consider Best Practices. For
example, the Criminal Division displays security tips, including
procedures for reporting computer security incidents, on employees’
computer monitors each time they log in. We believe the Department
and other components should examine these practices and determine if
any should be adopted Department-wide.

       Neither the Department nor any of the components we reviewed
have developed procedures for notifying affected individuals in the event
of a loss of PII. To address this issue, the Department’s Privacy and Civil
Liberties Office and the Office of the CIO are working together to develop
a Department-wide policy. We believe this is a positive step and
encourage the Department to finalize and issue this policy promptly.

      To determine what data may have been lost as the result of a
computer security incident, officials in all nine components interview the
employee who reported the incident. Three components have developed
questionnaires to conduct these interviews, while the other six
components use more informal interviewing methods. Five components
also use computer forensic techniques to supplement the information
provided by the employee. DOJCERT told us that later in fiscal year
2007 it plans to release an Incident Response Handbook to provide the
components with additional guidance on determining the type of data
contained on lost equipment.

      The Department has issued a standard definition of sensitive
information in its Security Program Operating Manual, and seven
components have developed component-specific definitions that are


U.S. Department of Justice                                              34
Office of the Inspector General
Evaluation and Inspections Division
similar to the Department’s definition. The other two components use
the Department’s definition. However, officials in seven of the nine
components we reviewed stated that their components considered all
information to be sensitive.

       The Department currently relies on OMB’s definition of PII. Most
of the components reviewed expressed the opinion that the Department
should develop its own, more specific definition of PII because they
believed that OMB’s definition was vague and overbroad. We agree and
encourage the Department to clarify the definition of PII.

Recommendations

      We make eight recommendations to help the Department improve
its computer security incident reporting procedures, including the
procedures for reporting data loss and classified incidents.

       We recommend that the Department:

       1. Require all components to ensure their procedures cover
          reporting of after-hours incidents.

       2. Review each component’s procedures for reporting classified
          incidents to ensure those procedures comply with the standards
          in the Department’s Security Program Operating Manual.

       3. Clarify the requirement that all losses of PII be reported within
          1 hour and to whom so that all Department employees
          understand who to report to and when the 1-hour timeframe
          begins and ends.

       4. Ensure all components meet the established reporting
          timeframes.

       5. Promptly implement a Department-wide policy for notifying
          affected individuals in the event of a loss of PII.

       6. Develop a Department-specific definition of PII.

       7. Consider whether any of the procedures described as “Best
          Practices” should be implemented across the Department.

       8. Ensure that components update their internal policies to reflect
          correct reporting procedures in conformance with the DOJCERT


U.S. Department of Justice                                                35
Office of the Inspector General
Evaluation and Inspections Division
          Incident Response Plan template and contain up-to-date titles
          of internal departments and staff.




U.S. Department of Justice                                            36
Office of the Inspector General
Evaluation and Inspections Division
                APPENDIX I: ATF REPORTING PROCEDURES


Introduction

       Between December 2005 and November 2006, ATF reported 70
computer security incidents to DOJCERT, including 8 incidents involving
potential PII loss and 1 incident potentially involving classified
information.62 According to ATF officials we interviewed, a reportable
computer security incident is the loss of any data on an electronic device
such as a laptop or BlackBerry device, receipt of an e-mail with a virus,
or a server failure or hard drive crash in which all information was not
backed up and could not be fully restored or reconstructed. ATF policy
defines a computer security incident as “any event or condition that has
the potential to affect the security or accreditation of an automated
information system and that may result from either intentional or
unintentional actions.”63 ATF considers “security incident” synonymous
with “security violation,” which is defined as “an event that may result in
the disclosure of sensitive information to unauthorized individuals or
that results in the unauthorized modification or destruction of system
data, the loss of computer system processing capability, or the loss or
theft of any computer system resources.”64

      ATF policy defines sensitive information as a category of
unclassified information. Sensitive information is used synonymously
with Sensitive But Unclassified and defined as “any information, the loss,
misuse, or unauthorized access to, or modification of which could
adversely affect the national interest or the conduct of federal
programs.”65

      ATF has no written definition of PII but stated that in practice it
defines PII as a collection of several pieces of information that can be
used to identify a specific person or to construct an identity; for example,
a social security number plus an address constitutes PII. What
constitutes PII is a judgment call, according to ATF staff we interviewed,

       62  As of January 31, 2007, the loss of PII had been confirmed in two of these
eight incidents. The remaining six incidents involve potential losses of PII.

       63 ATF H 7250.1, Automated Information System Security Program,
July 26, 2006, p. B-13.

       64   ATF H 7250.1, p. B-14.

       65   ATF H 7250.1, p. B-14.


U.S. Department of Justice                                                              37
Office of the Inspector General
Evaluation and Inspections Division
and they believed there should be more guidance from the Department
regarding this definition. According to these officials, PII was not a term
that was used prior to the May 2006 Department of Veterans Affairs’
laptop theft. 66

      ATF uses the definition of classified information contained in
Executive Order 12958, as Amended, Classified National Security
Information, dated March 25, 2003.67 This order requires all components
in the Department and other executive branch agencies to use its
uniform definitions.

Reporting Procedures

     ATF has three written policies that define procedures for reporting
computer security incidents:

       •    Automated Information System Security Program
            (ATF H 7250.1), dated July 26, 2006;
       •    Computer Security Incident Response Capability Incident
            Response Plan, dated July 24, 2006; and
       •    Computer Security Incident Response Capability,
            (ATF Order O 7500.4A), dated April 12, 2005.

      The Automated Information System Security Program establishes
the requirements for managing ATF’s information systems to ensure the
confidentiality, integrity, and accountability of those systems. It
complements the DOJCERT and ATF Incident Response Plans by
providing more detailed security roles and responsibilities for all
employees and by expanding on the responsibilities and reporting

        66 Previous regulatory guidance from NIST on information systems did not

specifically define PII and as a result, Department components were not required to
identify which systems process or store PII. OMB Memorandums M-06-15 and
M-06-19 issued in May and July 2006 respectively, required federal agencies to identify
and ensure adequate safeguards to protect systems that contain PII, defined PII, and
required, for the first time, that all incidents involving PII be reported to US-CERT
within 1 hour.

       67  Executive Order 12958 provides for three classification levels. The “Top
Secret” classification shall be applied to information, the unauthorized disclosure of
which reasonably could be expected to cause exceptionally grave damage to the national
security. The ‘‘Secret’’ classification shall be applied to information, the unauthorized
disclosure of which reasonably could be expected to cause serious damage to the
national security. The ‘‘Confidential’’ classification shall be applied to information, the
unauthorized disclosure of which reasonably could be expected to cause damage to the
national security.


U.S. Department of Justice                                                             38
Office of the Inspector General
Evaluation and Inspections Division
instructions for specific staff in the event of a computer security incident.
However, this policy also provides contradictory guidance to ATF
employees. In two sections of the policy, it lists the Help Desk as the
primary point of contact for all users to contact when reporting computer
security incidents. In two other sections, it lists the Information Systems
Security Office as the primary point of contact.

       ATF’s July 2006 Incident Response Plan conforms to the DOJCERT
Incident Response Plan template, and lists the roles and responsibilities
for ATF employees when reporting all suspicious computer events or
incidents to ATF’s Help Desk or Security Office. Section 9.3 of this plan,
titled “Incident Reporting,” includes ATF-specific procedures for reporting
computer security incidents for the categories of technical/non-sensitive,
sensitive, and classified information. DOJCERT added the data loss and
PII requirements to its Incident Response Plan template in November
2006 with the requirement that all components incorporate this update
by December 29, 2006. As of April 17, 2007, ATF has updated its
Incident Response Plan to reflect requirements for reporting data loss
incidents that include the loss of PII, but has not yet submitted it to
DOJCERT for approval. ATF stated that this update will also include
after-hours reporting procedures.

      The Computer Security Incident Response Capability policy also
describes expanded duties, responsibilities, and guidance to all ATF
employees to respond to computer security incidents.

       Reporting procedures are to be initiated as soon as an employee
realizes that a potential computer security incident has occurred.
Reporting procedures for non-sensitive, sensitive, and classified
information are described below.

Non-Sensitive Information

      For non-sensitive information, all ATF employees are required to
report computer security incidents to the Help Desk by telephone,
facsimile, e-mail, or in person, or via secure U.S. Postal Service mail.
According to ATF officials, in practice the employee, although not
required by written policy, will also notify his or her supervisor.68



       68 According to ATF officials, ATF employees in the field offices report security

incidents to their field supervisors who in turn report the incidents through their chain
of command to the Help Desk and the Information Systems Security Office at ATF
Headquarters.


U.S. Department of Justice                                                             39
Office of the Inspector General
Evaluation and Inspections Division
       According to ATF officials, the Help Desk is used as the main point
of contact for all incidents and is responsible for reporting all incident-
related information to the Information Systems Security Office.69 The
person serving as the Information Systems Security Officer also serves as
the Computer Security Incident Response Capability Coordinator. The
Information Systems Security Office is required to report computer
security incidents to DOJCERT within the timeframes required for the
priority level of the incident as established in the DOJCERT Incident
Response Plan. The Information Systems Security Office is required to
notify DOJCERT by logging into the Archer Database and recording the
incident. The Archer Database also serves as ATF’s incident tracking
system. When appropriate, the Information Systems Security Office may
also notify managers such as the employee’s Division Chief and the
Office of Operations Security and even the Department’s CIO.

       When laptops or BlackBerry devices are lost or stolen, the ATF
Investigations Division, Office of Professional Responsibility, and Security
Operations must be notified. Also, in the event of a theft of a laptop or
BlackBerry device, the employee involved is required to contact local law
enforcement and may be required to provide a copy of the police report to
his or her supervisor. For such thefts, the Information Systems Security
Office also is required to notify the FBI, which should enter the stolen
device’s serial number into the National Crime Information Center (NCIC)
system.70 The ATF Investigations Division should be notified by the
Information Systems Security Office of all incidents in which employee
misconduct may be involved. Chart 5 shows ATF’s reporting procedures
for loss of non-sensitive information.




       69  Help Desk staff also are responsible for recording all incident reports from
employees and making an initial assessment of the criticality (classified,
mission-critical, and so forth) and the priority level of the incident and for assigning the
incident to the Computer Security Incident Response Capability team for investigation.

        70 The NCIC is a computerized index of criminal justice information (i.e.,

information on criminal histories, fugitives, stolen property, missing persons, foreign
fugitives, immigration violators, violent gangs, and terrorist organizations) maintained
by the FBI.


U.S. Department of Justice                                                               40
Office of the Inspector General
Evaluation and Inspections Division
    Chart 5: Flowchart of ATF’s Reporting Procedures for Loss of
                    Non-Sensitive Information


                                                Information
                                                  Systems
     Employee              Help Desk                                   DOJCERT
                                                  Security
                                                   Office


Sensitive Information

       If sensitive information, including PII, is involved, ATF employees
are required to contact the Information Systems Security
Officer/Computer Security Incident Response Capability Coordinator
directly. The Officer is then required to contact DOJCERT within the
timeframes required for the category of incident. The Officer is also
required to notify the Help Desk. Chart 6 shows ATF’s reporting
procedures for loss of sensitive information.

    Chart 6: Flowchart of ATF’s Reporting Procedures for Loss of
                       Sensitive Information


                              Information Systems
                                    Security
                                                    If PII within
                                Office/Computer     1 hour
          Employee              Security Incident                   DOJCERT
                              Response Capability
                                  Coordinator




                                 Help Desk



Classified Information

      If classified information is involved, employees are required to
contact the Information Systems Security Officer/Computer Security
Incident Response Capability Coordinator in person or via secured
facsimile or secure telephone. ATF officials told us that in practice the
employee, although not required by written policy, will also notify his or
her supervisor. The Computer Security Incident Response Capability
Coordinator has a Top Secret clearance to respond to such incidents.


U.S. Department of Justice                                                       41
Office of the Inspector General
Evaluation and Inspections Division
The Information Systems Security Office is then required to contact both
DOJCERT and Security and Emergency Planning Staff (SEPS), which
handles the Department’s classified incidents. ATF does not provide
DOJCERT or SEPS with details concerning the specific classified
information that was lost or compromised. Chart 7 shows ATF’s
reporting procedures for loss of classified information.

    Chart 7: Flowchart of ATF’s Reporting Procedures for Loss of
                      Classified Information


                                 Information Systems
                                                                DOJCERT
                                   Security Office/
                                  Computer Security
            Employee              Incident Response
                                      Capability
                                     Coordinator                   SEPS



            Supervisor




Indications of Compliance with Reporting Procedures

       ATF officials told us that they believed their employees were
following the correct reporting procedures. While we did not validate this
statement, our analysis of the Archer Database showed that ATF was not
always reporting computer security incidents, including PII, within the
required timeframes specified in both the DOJCERT and ATF Incident
Response Plans. Between December 2005 and November 2006, ATF
reported 78 percent of its computer security incidents to DOJCERT
within the required timeframes. Further, 66 percent of the PII incidents
that occurred on or after July 12, 2006 were reported within the required
1-hour timeframe.71 Table 7 shows ATF’s reporting in each category.72



       71 We did not analyze incidents for timeliness that occurred before OMB
established the 1-hour timeframe in July 2006.

        72 Our calculations are based on Categories 1 through 5 and Category 7. We

did not include incidents found in Categories 0 and 6 because they had no associated
time criteria, nor did we include incidents for which the Archer Database contained no
information to indicate when DOJCERT received the report that an incident had
occurred.


U.S. Department of Justice                                                          42
Office of the Inspector General
Evaluation and Inspections Division
           Table 7: ATF’s Timeliness in Reporting Incidents to DOJCERT
                                             Reported     Reported   Could not
                      Reporting  Incidents     within       after    compute
Category             timeframe* reported timeframe timeframe timeliness**
Category 0
                         None             2         N/A         N/A           2
(Exercise/Test)
Category 1
(Unauthorized           1 hour           13           2           10          1
Access)
Category 2
                       2 hours            0         N/A         N/A         N/A
(Denial of Service)
Category 3
                         1 day            9           5            2          2
(Malicious Code)
Category 4
                        1 week            5           3            1          1
(Improper Usage)
Category 5
                       1 month           18          17            0          1
(Scans/Probes)
Category 6
                         None             5         N/A         N/A           5
(Investigation)
Category 7
                       1 month           18          18            0          0
(Spam)
Total                                    70          45           13         12
PII incidents
occurring on or         1 hour            6           4            2          0
after 7/12/06***
* For purposes of this table, reporting timeframes for Categories 0-7 refer to the
timeframes defined in the Incident Response Plan. Reporting timeframe for PII
incidents refers to the timeframe defined in OMB Memorandum M-06-19.
** Some records did not include information to indicate when DOJCERT received the
reports. Category 0 and 6 incidents, for which there are no reporting timeframes, are
also included in this category.
*** PII incidents were reported in varying incident categories.
Source: Archer Database

Ensuring All Incidents Are Reported

       Although ATF uses several methods to ensure employees know to
report computer security incidents involving potential data loss, it relies
primarily on training. ATF uses the Department’s required annual
Computer Security Awareness Training to educate and remind staff of
their reporting responsibilities as well as of what is considered a
reportable incident. All employees are also required to read and sign
ATF’s Conduct and Accountability and Rules of Behavior statements that
address employees’ responsibilities regarding the reporting of any
incidents of improper use and the security and care of accountable
property assigned to them. ATF also told us that it conducts property
audits annually in which all staff are asked to bring in their accountable



U.S. Department of Justice                                                           43
Office of the Inspector General
Evaluation and Inspections Division
property to check against inventory. If property (such as a laptop or a
BlackBerry device) is missing, the inventory uncovers the loss.

Notification to Affected Parties

      ATF has not developed policies concerning notification to affected
parties in the event of a loss of PII.

Determining the Type of Data Lost

       To determine the type of data lost or compromised, ATF relies on
interviewing the employee involved through an investigation conducted
by the Computer Security Incident Response Capability team (which
includes the Information Systems Security Officer as Computer Security
Incident Response Capability Coordinator). The team determines, among
other things, the type of incident, its level of impact, what action needs to
be taken, and who should be involved in the investigation process. In
interviewing the employee, the team attempts to determine what
information may have been stored on the device. ATF staff told us that
the Information Systems Security Office created a list of interview
questions to help identify the lost or compromised data. ATF may also
try to identify information on the employee’s hard drive through the
network system.




U.S. Department of Justice                                                44
Office of the Inspector General
Evaluation and Inspections Division
               APPENDIX II: BOP REPORTING PROCEDURES


Introduction

       Between December 2005 and November 2006, the BOP reported
252 security incidents to DOJCERT, including 24 incidents involving
potential PII loss.73 None of the incidents involved the loss of classified
information.74 According to BOP officials we interviewed, a reportable
computer security incident or a reportable data loss includes the loss of
PII, data lost due to a corrupted data system, violation of the Privacy Act,
or an unauthorized release of information. A computer security incident
or “violation” is defined by the BOP in its Information Security policy as
an event such as password sharing, social engineering, computer
hacking, software viruses, or other unauthorized information or system
access, theft, or loss of automatic data processing equipment.75

      The BOP defines sensitive information as information that, if
released to the public, would pose an unacceptable risk to the BOP, its
employees, or its inmate population. The BOP considers the term
“sensitive” to be synonymous with Sensitive But Unclassified. All of the
BOP’s databases are considered Sensitive But Unclassified. The BOP
does not have a policy that specifically defines PII as it is treated as
synonymous with sensitive information.

Reporting Procedures

      The BOP relies on two documents, in addition to the DOJCERT
Incident Response Plan template, when reporting incidents of data loss:

   1. BOP Information Security Policy, which provides primarily for the
      security and maintenance of information, computers, terminals,
      telecommunications, and data communications systems. This
      policy also provides incident response and reporting procedures,

       73 As of January 31, 2007, the loss of PII has been confirmed in 4 of these 24
incidents. The remaining 20 incidents involve potential losses of PII.

       74   The BOP processes classified information on a very limited basis as its
networks are not authorized to process classified information. The BOP has only one
stand-alone laptop computer that is authorized for classified processing, located at BOP
Central Office. A second networked laptop, also physically located at BOP Central
Office, is owned by the FBI who must approve all system access.

       75   BOP, Information Security, P1237.13, March 31, 2006, Chapter 2, pp. 24-25.


U.S. Department of Justice                                                              45
Office of the Inspector General
Evaluation and Inspections Division
       describes staff responsibilities related to information and computer
       security (including the BOP’s Rules of Behavior), and sets annual
       training requirements to meet those responsibilities; and

   2. BOP Incident Response Plan, which is consistent with the
      DOJCERT Incident Response Plan template and was updated to
      reflect DOJCERT’s most recent November 2006 changes that
      incorporate reporting procedures for loss of PII.

       The BOP’s Information Security Policy instructs employees in all
institutions, Regional Offices, and Community Corrections Centers to
report computer security violations to the facility Information Security
Officer as soon as possible. Employees are also required to report loss or
theft to the Property Officer. The Information Security Officer is required
to then notify the BOP’s Central Office Information Security Programs
Section. Employees at the BOP’s Central Office are to notify the
Information Security Programs Section directly rather than reporting
through an Information Security Officer. If PII is involved, notification is
required to be made to the Information Security Programs Section within
1 hour. The Information Security Programs Section should then notify
DOJCERT within the timeframes specified in the BOP Incident Response
Plan. The BOP’s Incident Response Plan, revised in December 2006,
reflects timeframes in which to notify DOJCERT depending on the
category and severity of the incident.

       The Information Security policy further states that relevant
supervisors, managers, executive staff, and Regional Administrators
should also be notified. The Information Security Officer therefore
notifies the appropriate chain of command (facility executive staff and
regional personnel), including the Information Security Programs Section
at the Central Office. The Information Security Officer, upon verification
of the security threat, is encouraged to notify other facilities or localities
that may be similarly susceptible to a particular security violation. Chart
8 shows the BOP’s reporting procedures for loss of sensitive information.

      Although the BOP’s processing of classified information is very
limited, a BOP official told us that if a computer security incident
occurred involving classified information, they would follow the
Department’s SPOM and report the incident to the Department’s Security
Officer.




U.S. Department of Justice                                                 46
Office of the Inspector General
Evaluation and Inspections Division
  Chart 8: Flowchart of the BOP’s Reporting Procedures for Loss of
                       Sensitive Information


                                                           if classified
                                                                                  SEPS



                       Facility              Central Office     If PII within
    Facility         Information              Information       1 hour
                                            Security P rogram
                                                                                DOJCERT
   e mploye e          Security
                                                Section
                        Officer


   Prope rty
   Manage r



    Central
     office
   employee


      If a computer security incident occurs after hours at one of the
BOP facilities, the employee should call the facility’s Control Center,
which is manned 24 hours a day. The Control Center then calls the
Information Security Officer at home. The Information Security Officer
should then follow the procedures described above. Chart 9 shows the
BOP’s procedures for after-hours reporting of loss of sensitive
information.

   Chart 9: Flowchart of BOP Facility Staff After-Hours Reporting
            Procedures for Loss of Sensitive Information


                                                              Central
                                                               Office
                                                                           If PII within
                                        Facility
                     Facility                                              1 hour
   Facility                           Information           Information
                     Control
                                                              Security
                                                                                           DOJCERT
  Employe e                             Security
                     Center
                                         Officer              P rogram
                                                              Section




     In the event of a theft of a laptop or BlackBerry device at the
Central Office, the BOP is required to report the theft to Federal




U.S. Department of Justice                                                                  47
Office of the Inspector General
Evaluation and Inspections Division
Protective Service.76 If a theft or other computer security crime occurs at
a facility, the FBI should be notified because it has jurisdiction to
investigate crimes occurring in federal prisons. Employees should
contact the local police department in the event of a laptop or BlackBerry
device theft off-site. Any of these law enforcement officials should enter
the theft into the NCIC database. Additionally, if employee negligence is
suspected, the incident should be referred to the BOP Office of Internal
Affairs and the OIG for possible investigation.

Indications of Compliance with Reporting Procedures

       BOP officials told us that they believed their employees were
following the correct reporting procedures. While we did not validate this
statement, our analysis of the Archer Database showed that the BOP was
not always reporting computer security incidents, including PII, within
the required timeframes specified in both the DOJCERT and BOP
Incident Response Plans. Between December 2005 and November 2006,
BOP reported only 37 percent of its computer security incidents to
DOJCERT within the required timeframes. Further, only 14 percent of
the PII incidents that occurred on or after July 12, 2006 were reported to
DOJCERT within the required 1-hour timeframe.77 Table 8 shows the
BOP’s reporting in each category.78




       76  The Department of Homeland Security’s Federal Protective Service provides
law enforcement and security services to federal government agencies who occupy
federally owned and leased facilities nationwide.

       77 We did not analyze incidents for timeliness that occurred before OMB
established the 1-hour timeframe in July 2006.

        78 Our calculations are based on Categories 1 through 5 and Category 7. We

did not include incidents found in Categories 0 and 6 because they had no associated
time criteria, nor did we include incidents for which the Archer Database contained no
information to indicate when DOJCERT received the report that an incident had
occurred.


U.S. Department of Justice                                                          48
Office of the Inspector General
Evaluation and Inspections Division
        Table 8: The BOP’s Timeliness in Reporting Incidents to DOJCERT
                                            Reported     Reported   Could not
                     Reporting  Incidents    within        after     compute
Category            timeframe* reported timeframe timeframe timeliness**
Category 0
                        None             4        N/A          N/A           4
(Exercise/Test)
Category 1
(Unauthorized          1 hour           19           2           17          0
Access)
Category 2
                      2 hours            2           0            2          0
(Denial of Service)
Category 3
                        1 day         144           34           98         12
(Malicious Code)
Category 4
                       1 week           34          17           17          0
(Improper Usage)
Category 5
                      1 month           19          15            2          2
(Scans/Probes)
Category 6
                        None            14        N/A          N/A          14
(Investigation)
Category 7
                      1 month           16          12            1          3
(Spam)
Total                                 252           80         137          35
PII incidents
occurring on or        1 hour            7           1            6          0
after 7/12/06***
* For purposes of this table, reporting timeframes for Categories 0-7 refer to the
timeframes defined in the Incident Response Plan. Reporting timeframe for PII
incidents refers to the timeframe defined in OMB Memorandum M-06-19.
** Some records did not include information to indicate when DOJCERT received the
reports. Category 0 and 6 incidents, for which there are no reporting timeframes, are
also included in this category.
*** PII incidents were reported in varying incident categories.
Source: Archer Database

Ensuring All Incidents Are Reported

      The BOP relies on several methods to ensure that all computer
security incidents are reported: training, program reviews, and policies.
The BOP administers annual computer security training to all staff to
educate them on their reporting responsibilities. The BOP also said that
it conducts program reviews to ensure reporting procedures are being
followed in the program area of information security. A BOP program or
operational review is required annually for each facility’s Information
Security program.79 Program reviews are a system of internal reviews
conducted by BOP staff who are subject matter experts in the program


       79   BOP, Information Security, P1237.13, March 31, 2006.


U.S. Department of Justice                                                           49
Office of the Inspector General
Evaluation and Inspections Division
under review. These reviews ensure that programs are in compliance
with applicable laws, regulations, and policies.

        The BOP Property Management Manual also establishes employee
responsibilities for the management and control of government-owned
personal property such as laptops and BlackBerry devices.80 Designated
Property Officers are responsible for maintaining up-to-date computer
inventories of all accountable government-owned personal property and
reconciling that property list against required quarterly and annual
physical inventories conducted in all BOP facilities. According to policy,
if a lost or stolen electronic device was not reported, both the Property
Officer and the employee are held liable for the property. The Property
Management Manual states that it is the employee’s duty to report loss,
theft, or damage to accountable property and requires that reports be
made to the Property Officer upon discovery (but no later than the next
working day).

       This policy also establishes the Board of Survey, a BOP committee
that investigates the circumstances surrounding lost, stolen, missing,
damaged, or destroyed government-owned personal property. The board
makes recommendations consistent with the findings disclosed by its
review and, if applicable, may refer cases to the Office of Internal Affairs,
which can refer cases to the OIG or the Criminal Division for
prosecution.

       The BOP also has Rules of Behavior concerning the use and
security of computer systems.81 The rules notify employees that sensitive
information is to be protected from disclosure to unauthorized
individuals and that they will be sanctioned for unauthorized use,
disclosure, destruction, or misuse of information resources. The rules
also state that security violations and system vulnerabilities are to be
immediately reported to the appropriate authorities.

Notification to Affected Parties

       The BOP has not developed policies concerning notification to
affected parties in the event of a loss of PII.




       80   BOP, Property Management Manual, P4400.05, May 26, 2004.

       81 The BOP’s Rules of Behavior are contained in a BOP policy entitled

Information Resources Protection, P1237.12, February 20, 2001.


U.S. Department of Justice                                                     50
Office of the Inspector General
Evaluation and Inspections Division
Determining the Type of Data Lost

      The BOP said that it determines the type of data lost by having the
Information Security Officer interview the employee involved in the
computer security incident. The BOP Information Security policy states
that the Information Security Officer may perform a preliminary review to
confirm that a computer security violation has occurred.

        In addition, the BOP also said that it has instituted controls to
restrict employee access to sensitive data. The head of a facility is
required to give written approval to employees before they remove laptops
(or other devices) to process sensitive data off-site, such as while at home
or traveling on official business. According to policy, a written request
from the employee must include the type of device (such as a laptop), a
description of the contents, and the purpose of the data removal.82
However, in practice, according to interviews, it is up to the head of each
facility whether the contents are actually described in the request.




       82   BOP, Information Security, P1237.13, March 31, 2006, p. 14.


U.S. Department of Justice                                                51
Office of the Inspector General
Evaluation and Inspections Division
   APPENDIX III: CRIMINAL DIVISION REPORTING PROCEDURES


Introduction

       Between December 2005 and November 2006, the Criminal
Division reported 24 security incidents to DOJCERT, including 5
incidents involving potential PII loss and 10 incidents potentially
involving classified information.83 The Criminal Division considers a
reportable data loss to be information on lost electronic media (CD-ROM,
disk, or tape), and electronic devices (BlackBerry device or laptop), or
information intentionally or inadvertently released from its network.
Several Criminal Division policies refer to the term “Sensitive But
Unclassified” without defining it. In general, the Criminal Division
considers all of its information to be sensitive and relies on the
Department’s definition of the term “sensitive information.”84 The
Criminal Division uses the definition of PII found in OMB Memorandum
M-06-19 and therefore considers PII to be “any information about an
individual” that is “maintained by an agency . . . which can be used to
distinguish or trace an individual’s identity.” To define classified
information, the Criminal Division relies on the National Security
Information definition in Executive Order 12958, as Amended, Classified
National Security Information, dated March 25, 2003.

Reporting Procedures

       The Criminal Division uses a single Incident Response Plan for
addressing the reporting of sensitive, PII, and classified computer
security incidents. The division has updated its plan to conform to the
DOJCERT template of November 2006 and identifies the seven categories
of incidents that should be reported to DOJCERT within specified
timeframes. Reporting procedures are as follows for sensitive, PII, and
classified information.


       83 As of January 31, 2007, the loss of PII has been confirmed in one of these five
incidents. The remaining four incidents involve potential losses of PII.

       84  The Department’s Security Program Operating Manual defines sensitive
information as “any information, the loss, misuse, modification of, or unauthorized
access to, could affect the national interest, law enforcement activities, the conduct of
Federal programs, or the privacy to which individuals are entitled under Section 552a of
Title 5, U.S. Code, but that has not been specifically authorized under criteria
established by an executive order or an act of Congress to be kept classified in the
interest of national defense or foreign policy.”


U.S. Department of Justice                                                            52
Office of the Inspector General
Evaluation and Inspections Division
Sensitive and PII Reporting Procedures

      Criminal Division employees are required to report a potential
sensitive computer security incident “immediately” to the division’s
Information Technology Management Help Desk when it is determined
that an incident has occurred. The Help Desk should then log the
incident information into its ticketing database and notify the Incident
Response Team consisting of the Incident Response Team Coordinator,
the Information Systems Security Manager, and the Network Security
Officer. The Incident Response Team members should then determine
the information that needs to be collected for the initial informal incident
report and provide this report either verbally or in written form to
DOJCERT. Once more information becomes known, the Network
Security Officer should send a formal Preliminary Incident Report to
DOJCERT, usually within 24 hours.

       If a computer security incident involving a potential loss of PII
occurs during normal work hours, Criminal Division employees should
follow the same process as when reporting a sensitive data loss, except
that the Incident Response Team makes an informal verbal or written
report to DOJCERT within 1 hour. The Network Security Officer is
directed to follow up with a formal Preliminary Incident Report within 24
hours. Chart 10 shows the Criminal Division’s reporting procedures for
loss of sensitive information, including PII.

Chart 10: Flowchart of Criminal Division’s Reporting Procedures for
            Loss of Sensitive Information, Including PII


                       Information                      If PII within
                                            Incident
                       Technology                       1 hour
 Employee                                   Response                    DOJCERT
                       Management
                                              Team
                        Help Desk



Classified Information Incidents

       The Criminal Division is required to follow the procedures
contained in the Department’s Security Program Operating Manual for
reporting classified incidents. In addition to the notifications to the Help
Desk and DOJCERT described above, the Incident Response Team also is
required to notify the Department’s Security and Emergency Planning
Staff (SEPS). Chart 11 shows the Criminal Division’s reporting
procedures for loss of classified information.


U.S. Department of Justice                                                   53
Office of the Inspector General
Evaluation and Inspections Division
       Chart 11: Flowchart of the Criminal Division’s Reporting
             Procedures for Loss of Classified Information


                                                                     DOJCERT
                        Information
                                              Incident
                        Technology
 Employee                                     Response
                        Management
                                                Team
                         Help Desk
                                                                        SEPS



After-Hours Reporting Procedures

       If a sensitive, PII, or classified incident occurs after normal work
hours, the employee involved should call the Help Desk representative
who is on-call after hours. The Help Desk should notify the Incident
Response Team who then notifies DOJCERT and SEPS (if the incident
involves classified information). The Help Desk or a member of the
Incident Response Team is required to follow up with the employee to
ensure that all of the facts about the incident are collected and the
incident has been properly reported to DOJCERT via a Preliminary
Incident Report. According to the Criminal Division’s Incident Response
Plan, if the employee does not receive a return phone call from the Help
Desk representative within 10 minutes, the employee then should report
the computer security incident directly to DOJCERT. If the incident
involves classified information the employee should also notify SEPS.
Chart 12 shows the Criminal Division’s procedures for after-hours
reporting of sensitive, PII, or classified computer security incidents.




U.S. Department of Justice                                               54
Office of the Inspector General
Evaluation and Inspections Division
     Chart 12: Flowchart of the Criminal Division’s After-Hours
     Procedures for Reporting Loss of Sensitive, PII, or Classified
                            Information

                                                                          If PII within
                                                                          1 hour
                               Information                                                DOJCERT
                               Technology
                                                         Incident
                               Management
        Employee                                         Response
                                Help Desk
                                                           Team
                              Representative
                                 On Call                                                   SEPS


        If Help Desk
           does not
       return phone
       call w ithin 10
           minutes




Indications of Compliance with Reporting Procedures

       Criminal Division officials told us that they believed their
employees were following the correct reporting procedures. While we did
not validate this statement, our analysis of the Archer Database showed
that the Criminal Division was not always reporting computer security
incidents, including PII, within the required timeframes specified in both
the DOJCERT and Criminal Division Incident Response Plans. Between
December 2005 and November 2006, the Criminal Division reported 60
percent of its computer security incidents to DOJCERT within the
required timeframes. However, none of the PII incidents that occurred on
or after July 12, 2006 were reported within the required 1-hour
timeframe.85 Table 9 shows the Criminal Division’s reporting in each
category.86

       85 We did not analyze incidents for timeliness that occurred before OMB
established the 1-hour timeframe in July 2006.

        86 Our calculations are based on Categories 1 through 5 and Category 7. We

did not include incidents found in Categories 0 and 6 because they had no associated
time criteria, nor did we include incidents for which the Archer Database contained no
information to indicate when DOJCERT received the report that an incident had
occurred.


U.S. Department of Justice                                                           55
Office of the Inspector General
Evaluation and Inspections Division
 Table 9: The Criminal Division’s Timeliness in Reporting Incidents to DOJCERT
                                             Reported    Reported     Could not
                     Reporting   Incidents    within       after       compute
Category            timeframe* reported timeframe timeframe timeliness**
Category 0
                        None             0        N/A          N/A           N/A
(Exercise/Test)
Category 1
(Unauthorized          1 hour            1           0           1             0
Access)
Category 2
                      2 hours            0        N/A          N/A           N/A
(Denial of Service)
Category 3
                        1 day            8           2           4             2
(Malicious Code)
Category 4
                       1 week            8           6           2             0
(Improper Usage)
Category 5
                      1 month            3           3           0             0
(Scans/Probes)
Category 6
                        None             2        N/A          N/A             2
(Investigation)
Category 7
                      1 month            2           1           1             0
(Spam)
Total                                   24          12           8             4
PII incidents
occurring on or        1 hour            4           0           4             0
after 7/12/06***
* For purposes of this table, reporting timeframes for Categories 0-7 refer to the
timeframes defined in the Incident Response Plan. Reporting timeframe for PII
incidents refers to the timeframe defined in OMB Memorandum M-06-19.
** Some records did not include information to indicate when DOJCERT received the
reports. Category 0 and 6 incidents, for which there are no reporting timeframes, are
also included in this category.
*** PII incidents were reported in varying incident categories.
Source: Archer Database

Ensuring All Incidents Are Reported

       While the Criminal Division uses several methods to ensure that
employees report incidents of data loss, it primarily relies on training and
the Rules of Behavior. The annual Computer Security Awareness
Training that is required of all Department employees includes a segment
on protecting, preventing, and reporting PII loss or compromise. The
Rules of Behavior require users to immediately report any evidence of
tampering with a computer. A member of the Information Technology
Management staff also told us that employees must read and sign the
Rules of Behavior when they are hired and must review them on a yearly
basis.



U.S. Department of Justice                                                           56
Office of the Inspector General
Evaluation and Inspections Division
      Additionally, Criminal Division officials told us that when each
computer in the Criminal Division starts up it displays a security
statement screen and gives examples of security incidents, which serves
as a daily reminder to all employees of their responsibility to report
incidents. The Criminal Division also said it uses a physical property
inventory to identify missing electronic devices.

Notification to Affected Parties

       The Criminal Division has not developed policies concerning
notification to affected parties in the event of a loss of PII.

Determining the Type of Data Lost

      The Criminal Division said that it generally interviews its
employees and obtains a statement of facts as the primary means for
determining what information was on a disk, laptop, or other electronic
device that was lost, stolen, or compromised. According to one
Information Technology Management official, employees “know what was
on the device.”

       In addition to interviewing the employee, the Criminal Division said
that it has controls in place to monitor what is on electronic devices. For
example, the Criminal Division said that a record is made of all e-mail
that passes through a server to and from a BlackBerry device, so that if a
BlackBerry device were lost, a method to identify the e-mail information
on the device is available. Also, the Criminal Division said that a “kill
signal” can be sent to a BlackBerry device once its loss is known,
rendering it useless and the information on it inaccessible.




U.S. Department of Justice                                              57
Office of the Inspector General
Evaluation and Inspections Division
              APPENDIX IV: DEA REPORTING PROCEDURES


Introduction

      Between December 2005 and November 2006, the DEA reported
43 security incidents to DOJCERT, including 6 incidents involving
potential PII loss and 2 incidents potentially involving classified
information.87 The DEA considers a reportable computer security
incident to be any loss of electronic devices that might contain sensitive
information such as laptops, flash drives, removable hard drives, tapes,
or CD-ROMs.

      The DEA considers all of its information to be sensitive,
categorizing it as either Sensitive But Unclassified, Law Enforcement
Sensitive, For Official Use Only, or DEA Sensitive. The DEA defines
Sensitive But Unclassified information as information subject to controls
outside the formal system for classifying National Security Information
and considers Sensitive But Unclassified information as exempt from
release to the public under the Freedom of Information Act. Law
Enforcement Sensitive information is a subset of Sensitive But
Unclassified. The term For Official Use Only is used to identify
information or material that, although unclassified, may not be
appropriate for public release. DEA Sensitive information is information,
media, or material that must be afforded a higher level of protection than
Sensitive But Unclassified information. According to the DEA, this
includes information and materials:

       •    That are investigative in nature;
       •    To which access is restricted by law;
       •    That are critical to the operation and mission of the DEA;
       •    That, if disclosed, would violate a privileged relationship; and




       87  According to the DEA, its internal documents and DOJCERT and SEPS
records showed that only one incident involving classified information occurred during
the review period. Further, of the six incidents cited by the OIG as involving potential
PII loss, only two were actual or suspected losses of PII. However, the numbers that
DEA cites are not reflected in the DOJCERT’s Archer Database data, which we used for
each of the nine components reviewed in our analysis. See the Purpose, Scope, and
Methodology section of this report for a more detailed discussion of our method for
deriving our numbers.


U.S. Department of Justice                                                            58
Office of the Inspector General
Evaluation and Inspections Division
       •    That relate to any DEA employee’s identification or location if
            revealing such information would negatively affect an operation
            or mission.88

       The DEA has adopted the definition of PII that was published in
OMB Memorandum M-06-19 on July 12, 2006. The DEA broadcast this
definition to all DEA employees in an e-mail from the DEA’s CIO and the
DEA’s Chief Inspector on October 12, 2006.89 The broadcast e-mail
defined PII as:

       any information about an individual maintained by an agency, including,
       but not limited to, education, financial transactions, medical history,
       criminal or employment history, and any information which can be used
       to distinguish or can be traced to an individual's identity, such as their
       name, social security number, date and place of birth, mother's maiden
       name, biometric records, etc., including any other personal information
       which is linked or linkable to an individual.

      The DEA uses the definition of classified information contained in
Executive Order 12958, as Amended, Classified National Security
Information, dated March 25, 2003.

Reporting Procedures

      The DEA outlined its reporting procedures for DEA Sensitive, Law
Enforcement Sensitive, For Official Use Only, and PII in its October 12,
2006, e-mail to all DEA employees. These procedures apply to
information on electronic devices such as flash drives, laptops, hard
disks, tapes, and CD-ROMs as well as to printed information. These
procedures are also contained in the DEA’s eight Incident Response
Plans, all of which have been updated to reflect the changes DOJCERT
made to the November 2006 Incident Response Plan template.90




       88DEA Policy, Control and Decontrol of DEA Sensitive Information,
REF 99-001, June 2, 1999.

       89  DEA Headquarters broadcast e-mail to all DEA personnel, Personally
Identifiable Information (PII) Media Loss Reporting Requirements and Procedures,
October 12, 2006.

        90 One Incident Response Plan covers several IT systems that are part of the

same IT network. The remaining seven Incident Response Plans cover seven stand-
alone IT systems. The procedure defined in the Incident Response Plans is the same in
each of the eight plans.


U.S. Department of Justice                                                          59
Office of the Inspector General
Evaluation and Inspections Division
        The DEA’s written procedures for reporting computer security
incidents involving Sensitive But Unclassified information, both
electronic and paper, instruct all employees to report computer security
incidents immediately to the DEA Headquarters Help Desk after
determining that an incident has occurred.91 The Help Desk is required
to then notify the Information Security Section. The Information Security
Section should then notify DOJCERT of incidents via the Archer
Database. If the incident involves PII, the Information Security Section is
required to report the incident to DOJCERT within 1 hour. The DEA
Command Center is staffed 24 hours a day, 7 days a week. If an incident
is reported outside normal business hours, the Help Desk should report
it to the DEA Command Center instead of the Information Security
Section, and the DEA Command Center should ensure that DOJCERT is
notified within the required timeframe. Chart 13 shows the DEA’s
procedures for reporting sensitive information loss, including PII.

   Chart 13: Flowchart of DEA’s Reporting Procedures for Loss of
                Sensitive Information, Including PII

                                                                    If PII, within
                            DEA                     Information
                                                                    1 hour
  Employee              Headquarters                  Security                               DOJCERT
                         Help Desk                    Section



                                                                                     If PII within
                                                        DEA
                                    After-hours                                      1 hour
                                                      Command
                                                       Center


       Incidents involving classified information must be reported
following the same procedures as outlined in the Incident Response
Plans. The DEA Incident Response Plans require the DEA to notify the
Department’s Security and Emergency Planning Staff (SEPS) of all
incidents involving classified information and DOJCERT. Chart 14
shows the DEA’s procedures for reporting of classified information loss.




        91 However, in interviews with DEA officials we were told that the employee

reporting the loss is to notify his or her direct supervisor and the supervisor is
responsible for ensuring that the Help Desk is notified. Further, if a device has been
reported lost or stolen, the supervisor is required to initiate a search for that device
while the incident is being reported.


U.S. Department of Justice                                                                 60
Office of the Inspector General
Evaluation and Inspections Division
 Chart 14: Flowchart of the DEA’s Reporting Procedures for Loss of
                      Classified Information


                                                                             DOJCERT
                          DEA                   Information
 Employee             Headquarters                Security
                       Help Desk                  Section
                                                                                 SEPS



       In the event a device has been stolen, the employee reporting the
theft is required to contact the local police and obtain a police report,
after reporting the incident to the Help Desk. The DEA should then
notify other law enforcement agencies about the loss of DEA information
if there is a suspicion that such loss could have an impact on those
agencies. The DEA should also notify the FBI about losses resulting
from the theft of government equipment of significant value.

Indications of Compliance with Reporting Procedures

       DEA officials told us that they believed their employees were
following the correct reporting procedures. While we did not validate this
statement, our analysis of the Archer Database showed that the DEA was
not always reporting computer security incidents, including PII, within
the required timeframes specified in both the DOJCERT and DEA
Incident Response Plans. Between December 2005 and November 2006,
the DEA reported 75 percent of its computer security incidents to
DOJCERT within the required timeframes. However, only 17 percent of
the PII incidents that occurred on or after July 12, 2006, were reported
within the required 1-hour timeframe.92 Table 10 shows the DEA’s
reporting in each category.93




       92 We did not analyze incidents for timeliness that occurred before OMB
established the 1-hour timeframe in July 2006.

        93 Our calculations are based on Categories 1 through 5 and Category 7. We

did not include incidents found in Categories 0 and 6 because they had no associated
time criteria, nor did we include incidents for which the Archer Database contained no
information to indicate when DOJCERT received the report that an incident had
occurred.


U.S. Department of Justice                                                          61
Office of the Inspector General
Evaluation and Inspections Division
        Table 10: The DEA’s Timeliness in Reporting Incidents to DOJCERT
                                             Reported    Reported    Could not
                     Reporting  Incidents     within       after     compute
Category            timeframe* reported timeframe timeframe timeliness**
Category 0
                        None             3        N/A          N/A            3
(Exercise/Test)
Category 1
(Unauthorized          1 hour            7           2            5           0
Access)
Category 2
                      2 hours            0        N/A          N/A          N/A
(Denial of Service)
Category 3
                        1 day            8           4            2           2
(Malicious Code)
Category 4
                       1 week            2           1            1           0
(Improper Usage)
Category 5
                      1 month            3           3            0           0
(Scans/Probes)
Category 6
                        None             6        N/A          N/A            6
(Investigation)
Category 7
                      1 month           14          14            0           0
(Spam)
Total                                   43          24            8          11
PII incidents
occurring on or        1 hour            6           1            5           0
after 7/12/06***
* For purposes of this table, reporting timeframes for Categories 0-7 refer to the
timeframes defined in the Incident Response Plan. Reporting timeframe for PII
incidents refers to the timeframe defined in OMB Memorandum M-06-19.
** Some records did not include information to indicate when DOJCERT received the
reports. Category 0 and 6 incidents, for which there are no reporting timeframes, are
also included in this category.
*** PII incidents were reported in varying incident categories.
Source: Archer Database

Ensuring All Incidents Are Reported

      The DEA told us that it has taken a number of steps to ensure
employees are aware of procedures for reporting computer security
incidents. The DEA said that most plans or manuals are available to all
DEA employees on a common server called Webster. One of the
documents required for employees to review is the DEA’s Interim
Information Technology Rules of Behavior that instructs employees to
immediately report all security incidents or suspected incidents to the




U.S. Department of Justice                                                           62
Office of the Inspector General
Evaluation and Inspections Division
DEA Help Desk.94 Employees are required to review these Rules of
Behavior when they are hired and annually thereafter.

        To further reinforce these rules, the Deputy Chief Inspector in the
Office of Security Programs sent a memorandum to the DEA Deputy
Assistant Administrator in the Office of Information Systems advising of
an amendment to the Rules of Behavior. The memorandum stated that
“[a]ll personnel shall immediately report any loss of sensitive information
or PII to the HELPDESK.” This requirement was further reinforced in the
most recent annual Computer Security Awareness Training, which
explained the requirement to protect PII information and report any loss
of PII information.

Notification to Affected Parties

       The DEA has not developed policies concerning notification to
affected parties in the event of a loss of PII.

Determining the Type of Data Lost

       The DEA said that it primarily relies on employee interviews for
identifying what was on lost equipment such as laptops and BlackBerry
devices. However, under certain circumstances DEA officials told us they
can use computer forensics to determine what file was last accessed by
an employee on a server. Doing so could suggest what information might
have been downloaded to a lost laptop.




       94 The Incident Response Plans are also on the Webster server and available to

DEA employees should they need to find out how to report sensitive or PII computer
security incidents.


U.S. Department of Justice                                                         63
Office of the Inspector General
Evaluation and Inspections Division
     APPENDIX V: EOUSA AND USAO REPORTING PROCEDURES


      EOUSA provides the 93 United States Attorneys’ Offices (USAO)
with administrative management oversight, operational support, policy
development, and coordination with other components of the Department
and other federal agencies. As part of this support, EOUSA provides
policy and procedural assistance for implementation of all security
programs for the USAOs and ensures compliance with all applicable
statutes and Executive and Department Orders.95 The USAOs are
required to report all computer security incidents to EOUSA, and EOUSA
acts as the point of contact for notifying DOJCERT and the Security and
Emergency Planning Staff (SEPS). For the purposes of this appendix, we
use the acronym EOUSA to refer to EOUSA and the USAOs combined.

Introduction

      Between December 2005 and November 2006, EOUSA reported
463 security incidents to DOJCERT, including 142 incidents involving
potential PII loss and 4 incidents potentially involving classified
information.96 According to an EOUSA official, EOUSA considers a
reportable computer security incident to be any physical loss of media,
systems information, or a breach that results in the loss of data, a
laptop, a cell phone, or a wireless device such as a BlackBerry device.

       EOUSA considers its information to be either Limited Official Use
or classified; however, most of its information is designated as Limited
Official Use. EOUSA relies on the 1982 DOJ Order 2620.7, which
defines Limited Official Use as “unclassified information of a sensitive,
proprietary or personally private nature which must be protected against
release to unauthorized individuals . . . .”97 EOUSA uses the term
Limited Official Use as synonymous with the terms “sensitive” and
“Sensitive But Unclassified.” Limited Official Use information includes
but is not limited to “grand jury information, informant and witness
information, investigative material, federal tax and tax return


       95United States Attorneys’ Manual, Security Programs Management, § 3-15.010,
August 2004.

       96 As of January 31, 2007, the loss of PII has been confirmed in three incidents.

The remaining 139 incidents involve potential losses of PII.

       97 DOJ Order 2620.7, Control and Protection of Limited Official Use

Information, September 1, 1982, p. 1.


U.S. Department of Justice                                                           64
Office of the Inspector General
Evaluation and Inspections Division
information, Privacy Act information, and information that can cause
risk to individuals or could be sold for profit.”98

        In 2003, EOUSA further defined Limited Official Use information
to include the term Law Enforcement Sensitive, which developed through
“common usage and agency culture to identify a specific type of Limited
Official Use or Sensitive information,” for example, intelligence
information unrelated to terrorism.99

       EOUSA considers PII as a category of sensitive information. While
EOUSA does not have its own specific definition of PII, it has adopted the
definition of PII published in OMB Memorandum M-06-15 to Department
and agency heads that defines PII to be “any information about an
individual” that is “maintained by an agency . . . which can be used to
distinguish or trace an individual’s identity.”100

      To define classified information, EOUSA relies on the National
Security Information definition in Executive Order 12958, as Amended,
Classified National Security Information, dated March 25, 2003.101

Reporting Procedures

Limited Official Use and PII Reporting Procedures

      EOUSA has several written policies that contain instructions for
reporting computer security incidents. General reporting procedures for
Sensitive But Unclassified (Limited Official Use) and PII are contained in
EOUSA’s Incident Response Plan, dated December 13, 2006. This plan
is consistent with the DOJCERT Incident Response Plan and has been
updated to reflect DOJCERT’s November 2006 revision. Additionally,
written policies and procedures for USAOs are contained in the United



         United States Attorneys’ Manual, Security Programs Management, § 3-15.120,
        98

August 2004.

        99EOUSA Memorandum sent via e-mail, Limited Official Use (Sensitive)
Information Designation, January 14, 2003.

          OMB Memorandum M-06-15 for Heads of Departments and Agencies,
        100

Safeguarding Personally Identifiable Information, Clay Johnson III, Acting Director,
May 22, 2006.

        101   Executive Order 12958, Classified National Security Information, April 17,
1995.


U.S. Department of Justice                                                             65
Office of the Inspector General
Evaluation and Inspections Division
States Attorneys’ Manual and the United States Attorneys’ Procedures.102
However, because no one policy defines the entire reporting chain of
command from the field to EOUSA to DOJCERT, our description of
reporting procedures is taken from a combination of policies, draft
policies, and practice as stated by EOUSA officials during interviews.

      According to interviews, the procedures for reporting computer
security incidents involving Limited Official Use (Sensitive But
Unclassified) information and PII are as follows: In the USAO districts,
an employee is required to immediately notify the District Office Security
Manager that a computer security incident had occurred.103 If the
District Office Security Manager is unreachable, then the employee
should report the incident to a Regional Security Specialist for that
District’s region. The District Office Security Manager or Regional
Security Specialist should then e-mail an incident report to the Assistant
Director, Information Systems Security Staff, who should report the
incident to DOJCERT. If a data loss incident occurs at EOUSA, the
employee or the employee’s immediate supervisor should notify the
Assistant Director, Information Systems Security Staff. If PII is involved,
the Assistant Director should notify DOJCERT within 1 hour.

       For incidents that do not involve PII, DOJCERT should be notified
within the timeframes specified in the EOUSA Incident Response Plan.
For both EOUSA and the USAOs, when an incident occurs after hours,
the employee should contact the EOUSA Security Operations Center.104
Depending on the severity of the incident, the Assistant Director may
also report the incident immediately to the Department’s CIO. An
example of a severe incident could be a virus outbreak that hinders the
operating capability of EOUSA or a particular USAO office. Chart 15
shows EOUSA’s procedures for reporting the loss of sensitive
information, including PII.




       102The manual contains general policies and procedures relevant to the work of
the USAOs and to their relations with the legal divisions, investigative agencies, and
other components within the Department. United States Attorneys’ Manual, § 1-1.100,
September 1997.

       103 An employee may also notify his or her immediate supervisor, who then
reports the incident to the District Office Security Manager. Each USAO has a District
Office Security Manager.

        104 In April 2007, an EOUSA official stated that EOUSA had developed a draft

policy on after-hours reporting procedures, but that this policy had not yet been issued.


U.S. Department of Justice                                                            66
Office of the Inspector General
Evaluation and Inspections Division
 Chart 15: Flowchart of EOUSA’s Reporting Procedures for Loss of
               Sensitive Information, Including PII


         Supervisor



           EOUSA
          Employee
                                                                          If PII
                                                           Assistant      within
                                     District Office       Director,
           District                                                       1 hour
                                       Security           Information                 DOJCERT
          Employee                                          Systems
                                       Manager
                                                         Security Staff




          If unable to
                                            Regional
         reach District
         Office Security                     Security
            Manager                         Specialist


                                             EOUSA                          If PII within
                           After-hours      Security                        1 hour
                                           Operations
                                             Center


Classified Reporting Procedures

      For reporting classified information loss, the EOUSA’s Incident
Response Plan states that reporting procedures shall be done in
accordance with the Department’s Security Program Operations Manual.
According to EOUSA officials we interviewed, when an USAO employee
discovers a classified incident, the employee is required to report the
incident to his or her supervisor and then to the District Office Security
Manager. The District Office Security Manager in turn should report it to
EOUSA’s Information Security Program Manager. The Information
Security Program Manager then should obtain the facts of the incident
from the District Office Security Manager or EOUSA employee and
forward the incident report to his supervisor, the Security Programs
Manager, who then forwards the report to SEPS. If a data loss occurred
at EOUSA Headquarters, the employee should report directly to EOUSA’s
Information Security Program Manager. Chart 16 shows EOUSA’s
procedures for reporting classified information loss.


U.S. Department of Justice                                                            67
Office of the Inspector General
Evaluation and Inspections Division
  Chart 16: Flowchart of EOUSA’s Reporting Procedures for Loss of
                      Classified Information


              EOUSA
             Employee

                                  District Office
                                     Security
                                    Manager                  EOUSA
              District                                                              EOUSA
                                                           Information
             Employe e                                                             Security
                                                             Security
                                                                                  P rograms
                                                             P rogram
                                                                                  Manager
                                 Supervisor                  Manager




         If unable to                                                              SEPS
        reach District                Regional
        Office Security                Security
           Manager                    Specialist




Indications of Compliance with Reporting Procedures

       We were told in interviews by EOUSA officials that they believed
their employees were following the reporting procedures. While we did
not validate this statement, our analysis of the Archer Database showed
that EOUSA was not always reporting computer security incidents,
including PII, within the required timeframes specified in both the
DOJCERT and EOUSA Incident Response Plan. Between December 2005
and November 2006, EOUSA reported 80 percent of its computer security
incidents to DOJCERT within the required timeframes. However, only 16
percent of the PII incidents that occurred on or after July 12, 2006 were
reported within the required 1-hour timeframe.105 Table 11 shows
EOUSA’s reporting in each category.106



       105 We did not analyze incidents for timeliness that occurred before OMB
established the 1-hour timeframe in July 2006.

        106 Our calculations are based on Categories 1 through 5 and Category 7. We

did not include incidents found in Categories 0 and 6 because they had no associated
time criteria, nor did we include incidents for which the Archer Database contained no
information to indicate when DOJCERT received the report that an incident had
occurred.


U.S. Department of Justice                                                            68
Office of the Inspector General
Evaluation and Inspections Division
         Table 11: EOUSA’s Timeliness in Reporting Incidents to DOJCERT
                                            Reported     Reported   Could not
                     Reporting   Incidents   within        after     compute
Category            timeframe* reported timeframe timeframe timeliness**
Category 0
                        None             6        N/A          N/A           6
(Exercise/Test)
Category 1
(Unauthorized          1 hour           25           0           18          7
Access)
Category 2
                      2 hours            0        N/A          N/A         N/A
(Denial of Service)
Category 3
                        1 day          143          66           14         63
(Malicious Code)
Category 4
                       1 week           94          63            2         29
(Improper Usage)
Category 5
                      1 month           15           7            0          8
(Scans/Probes)
Category 6
                        None           179        N/A          N/A         179
(Investigation)
Category 7
                      1 month            1           0            0          1
(Spam)
Total                                 463         136            34        293
PII incidents
occurring on or        1 hour          134          19         101          14
after 7/12/06***
* For purposes of this table, reporting timeframes for Categories 0-7 refer to the
timeframes defined in the Incident Response Plan. Reporting timeframe for PII
incidents refers to the timeframe defined in OMB Memorandum M-06-19.
** Some records did not include information to indicate when DOJCERT received the
reports. Category 0 and 6 incidents, for which there are no reporting timeframes, are
also included in this category.
*** PII incidents were reported in varying incident categories.
Source: Archer Database

       An EOUSA official we interviewed stated that employees are
expected to report computer security incidents immediately. This official
also stated that while EOUSA tries to adhere as much as possible to the
1-hour requirement for reporting incidents to DOJCERT when PII is
involved, the 1-hour requirement was impractical because of the number
of steps that have to be taken prior to the notification to DOJCERT. The
official stated that it takes time for an employee to recall when the
incident occurred, what information was on the device, or where the
device might have been lost. It also takes time for a District Office
Security Manager to gather the necessary information and facts
surrounding the loss of data or a device before reporting the incident to
the EOUSA Information Systems Security Officer.




U.S. Department of Justice                                                           69
Office of the Inspector General
Evaluation and Inspections Division
Ensuring All Incidents Are Reported

       EOUSA said that it primarily relies on training and employee
integrity for ensuring that employees report all computer security
incidents. EOUSA relies on the Department’s annual Computer Security
Awareness Training and the USAOs’ Justice Consolidated Office
Network II Rules of Behavior to inform employees of their responsibility
to report such incidents.107 The Rules of Behavior, which employees are
required to read and sign when they begin employment, state that loss of
a Department laptop or personal digital assistant shall be reported
immediately to the District Office Security Manager and EOUSA
Assistant Director, Information Systems Security Staff. The rules also
require any actual or suspected security violations, incidents, vandalism,
or vulnerabilities be reported to the District Office Security Manager and
Systems Manager. Any violation of these rules may be cause for
disciplinary action. EOUSA also said that it relies on the employee to
report any incidents in which electronic devices or sensitive data is lost
or stolen.

Notification to Affected Parties

       EOUSA has not developed policies concerning notification to
affected parties in the event of a loss of PII.

Determining the Type of Data Lost

      EOUSA said that it primarily relies on interviews with employees,
supervisors, and systems managers for identifying the information
contained on lost or stolen laptops and personal digital assistants.




       107 United States Attorneys’ Offices Justice Consolidated Office Network II,

Rules of Behavior, April 13, 2004.


U.S. Department of Justice                                                            70
Office of the Inspector General
Evaluation and Inspections Division
                APPENDIX VI: FBI REPORTING PROCEDURES


Introduction

       Between December 2005 and November 2006, the FBI reported
206 computer security incidents to DOJCERT, including 43 incidents
involving potential PII loss and 35 incidents potentially involving
classified information.108 The FBI considers all of its information to be
sensitive – either Sensitive But Unclassified or classified – and requires
its employees to report incidents that result in the loss of classified or
Sensitive But Unclassified information as well as the loss or theft of all
portable electronic devices or removable storage media, such as laptops,
BlackBerry devices, hard drives, CDs, and flash drives. Sensitive But
Unclassified is defined in the FBI’s Security Policy Manual as “information
that requires protection due to the risk or magnitude of loss or harm that
could result from inadvertent or deliberate disclosure, modification
and/or destruction of the information.” The FBI Security Policy Manual
states that records requiring protection under the Privacy Act are a
subset of Sensitive But Unclassified information.109 The FBI does not
currently have a separate definition for PII. The FBI uses the definition
of classified information contained in Executive Order 12958, as
Amended, Classified National Security Information, dated March 25,
2003.

Reporting Procedures

      Within the FBI, computer security incidents are reported to two
separate offices, but only one of those offices is required to report
incidents to DOJCERT. One office’s procedure for reporting computer
security is defined in an FBI policy issued by the Security Division called
the Security Policy Manual.110 The other office’s procedure is defined in
the FBI’s four Incident Response Plans.111 Both offices should be notified



       108 As of January 31, 2007, the loss of PII has been confirmed in 1 of the 43
incidents. The remaining 42 incidents involve potential losses of PII.

       109   5 U.S.C. § 552a.

       110   FBI Security Policy Manual, POL05-0001-SecD, revised April 3, 2006.

       111 The procedure defined in the Incident Response Plans is the same in each of

the four plans.


U.S. Department of Justice                                                             71
Office of the Inspector General
Evaluation and Inspections Division
as soon as an employee informs both his or her supervisor and the Chief
Security Officer that a computer security incident has occurred.112

Procedures Defined in FBI Security Policy

       The Security Policy Manual, issued by the Security Division,
requires FBI employees to report potential computer security incidents to
the Security Compliance Unit via a web-based form.113 The form is
available to all employees on the FBI intranet and may be completed by
either the employee who discovered the incident, the employee’s
supervisor, the Division’s Chief Security Officer, or any other individual
with direct knowledge of an incident. Employees must identify the type
of security incident that occurred, choosing from five categories provided,
and answer additional questions that are specific to that category of
security.114 For example, incidents identified as “Information Technology
Security” require employees to describe the circumstances surrounding
the loss of electronic information or the loss of a portable electronic
device. Employees must also provide the serial number and
classification level of a lost portable electronic device.

      The Security Compliance Unit said that it tracks all reported
security incidents in an Access database and provide monthly reports to
the Section Chief of the Security Operations Section in FBI
Headquarters. The Security Compliance Unit also said that it generates
quarterly reports of security incidents, by type of incident, to keep the
Career Services Management Unit (which develops FBI training) and the
Policy Unit (which develops FBI policy) aware of areas of security that
may need more attention.




       112Each FBI field division and each division within FBI Headquarters has a
Chief Security Officer.

       113 Subsequent to FBI Special Agent Robert Hanssen’s arrest for espionage, the
Commission for the Review of FBI Security Programs was formed. As a result of a
recommendation from the Commission, the FBI established the Security Compliance
Unit at FBI Headquarters in 2003 to coordinate and oversee all information and
physical security compliance activity and violations. FBI employees, contractors, and
task force members are required to report all types of security incidents, including data
loss incidents and losses of PII, to the Security Compliance Unit.

      114 The five categories are Information Technology Security, Technical Security,

Personnel Security, Physical Security, and Control/Loss of Documents.


U.S. Department of Justice                                                            72
Office of the Inspector General
Evaluation and Inspections Division
Procedures Defined in Incident Response Plans

       The FBI maintains four Incident Response Plans that conform to
the DOJCERT template to cover the following four types of systems: the
system that has been classified Top Secret, the systems that have been
classified Secret, the unclassified systems, and the systems operated by
the Criminal Justice Information Services Division. All four plans have
been updated to reflect the changes DOJCERT made to the November
2006 template and identify the seven categories of incidents that should
be reported to DOJCERT within specified timeframes.115

       The Division’s Chief Security Officer is required to review each
reported incident and determine if the incident fits into one of the
categories identified in the Incident Response Plans.116 If it does, the
division’s Chief Security Officer is required to contact the FBI’s
Enterprise Security Operations Center. After-hours reporting procedures
are the same as normal business hours procedures because the
Enterprise Security Operations Center is staffed 24 hours a day, 7 days a
week. The center should implement the procedures in the Incident
Response Plans and notify DOJCERT via the Archer Database. Incidents
reported to the center should also be tracked in the FBI’s Security
Information Management System. Quarterly reports generated from this
system are provided to the FBI’s CIO. Chart 17 shows the FBI’s
procedures for reporting all computer security incidents, including those
involving sensitive, PII, and classified information.




       115  Incidents in these seven categories can be caused by either internal sources
(threats that originate inside the FBI) or external sources (threats that originate outside
the FBI). Threats caused by internal sources are reported to both the Security
Compliance Unit and the Enterprise Security Operations Center. Threats caused by
external sources are reported only to the Enterprise Security Operations Center.

        116 Some FBI divisions have an Information Systems Security Officer who makes

this initial determination. If this is the case, the Information Systems Security Officer
notifies both the division’s Chief Security Officer and DOJCERT. However, for
budgetary reasons, not all divisions have an Information Systems Security Officer.


U.S. Department of Justice                                                              73
Office of the Inspector General
Evaluation and Inspections Division
  Chart 17: Flowchart of the FBI’s Procedures for Reporting All
Computer Security Incidents, Including Sensitive, PII, and Classified
           (Includes After-Hours Reporting Procedures)



                     Employee's
                    supervisor, or       Security
  Employee            Division
                                                         All incidents
                                      Compliance Unit    entered into
                   Security Officer
                                                        Access database




                                                                      If PII within
                      Division           If incident    Enterprise
                   Security Officer     conforms to                   1 hour
                                                         Security
                    review s each       certain IRP     Operations
                                                                                      DOJCERT
                      incident            categories      Center




       FBI officials told us that the Security Compliance Unit and the
Enterprise Security Operations Center are supposed to routinely discuss
information security incidents with each other and the actions each
section will take to respond to those incidents. However, according one
official, these discussions do not always occur within the timeframes
established in the Incident Response Plans. The Security Compliance
Unit is not involved in the communications between the center and
DOJCERT.

Indications of Compliance with Reporting Procedures

Lost Electronic Device Reporting Procedures

       The FBI was not in full compliance with DOJCERT’s reporting
requirements for lost electronic devices. The requirements in the
Security Policy Manual (issued by the FBI Security Division) for reporting
losses of electronic devices are not consistent with the requirements in
the FBI’s Incident Response Plans (issued by the Enterprise Security
Operations Center). In reviewing the information the FBI provided to us
and the information we analyzed from the Archer Database, we noticed a
discrepancy between the number of lost electronic devices that had been
reported to the Security Compliance Unit and the number of lost
electronic devices that had been reported to the Enterprise Security
Operations Center (who is required to report all computer security
incidents to DOJCERT).


U.S. Department of Justice                                                      74
Office of the Inspector General
Evaluation and Inspections Division
       For the period from December 2005 through November 2006, FBI
employees reported 35 lost or stolen laptops to the Security Compliance
Unit, but reported only 7 lost or stolen laptops to the Enterprise Security
Operations Center, and therefore to DOJCERT.117 We asked the FBI to
explain the discrepancy, and officials stated that, prior to the release of
OMB Memorandum M-06-16 in June 2006, the FBI did not realize that
all losses of electronic devices were considered reportable incidents as
defined by DOJCERT’s Incident Response Plan template. Previously, the
FBI relied on Chapter 22 of its Security Policy Manual, dated April 2006,
which addresses the reporting procedures for loss of portable electronic
devices. This policy requires FBI employees to report security violations
involving portable electronic devices to the Security Compliance Unit and
does not mention the Enterprise Security Operations Center.

       Additionally, we noted that although the FBI stated it did not
realize that all losses of electronic devices were considered reportable
incidents as defined by DOJCERT’s Incident Response Plan template, the
FBI’s January 2006 Incident Response Plan for unclassified systems
required FBI IT security staff to report thefts of computer assets to the
Enterprise Security Operations Center.

      The OIG recently released an audit that found deficiencies in the
FBI’s procedures for reporting the loss of laptops, including failure to
report those incidents in a timely manner.118 In response to a
recommendation in that audit, the FBI agreed to revise its policies and to
develop additional guidance for reporting incidents to DOJCERT.

Classified Reporting Procedures

      The FBI was not following the chain-of-command reporting
procedures for reporting of classified computer security incidents.
Between December 2005 and November 2006, FBI employees reported


       117   One of the laptops that was reported to the Security Compliance Unit was a
classified laptop.

       FBI officials told us that 35 lost or stolen laptops were reported to the Security
Compliance Unit. We reviewed data from DOJCERT’s Archer Database and determined
that seven lost or stolen laptops had been reported to the Enterprise Security
Operations Center and to DOJCERT. We did not verify the information from either of
these sources.

      118 OIG, The Federal Bureau of Investigation’s Control Over Weapons and Laptop

Computers Follow-Up Audit, Audit Report 07-18, February 2007.


U.S. Department of Justice                                                            75
Office of the Inspector General
Evaluation and Inspections Division
107 classified computer security incidents to the Security Compliance
Unit. Our analysis of data from the Archer Database showed that the
Enterprise Security Operations Center reported 35 classified computer
security incidents to DOJCERT.119 However, the Department’s Security
and Emergency Planning Staff (SEPS) did not receive any reports of
classified computer security incidents from the FBI during that same
time period.

      The Department’s Definition of a Reportable Classified Incident. The
Department’s Security Program Operating Manual (SPOM) requires all
components to report “any incident involving a possible loss,
compromise, or suspected compromise of classified information”
immediately to the Department Security Officer, who is the Director of
SEPS.120 The SPOM identifies nine categories of reportable classified
incidents meeting this definition including:

             • Any incident involving a possible loss, compromise, or suspected
               compromise of classified information;
             • Efforts by any individual . . . to obtain illegal or unauthorized
               access to classified information or to compromise an employee’s
               authorized access;
             • Any emergency situation that renders a facility incapable of
               safeguarding classified material;
             • A delay of more than 48 hours in the delivery of classified
               material by a commercial carrier;
             • Any event involving . . . IT systems, equipment or media which
               may result in disclosure of classified information to unauthorized
               individuals, or that results in unauthorized modification or
               destruction of system data, loss of computer system processing
               capability, or loss or theft of computer system media;
             • Any evidence of tampering with a shipment, delivery, or mailing
               containing classified information;
             • Any shipment or transmission of classified information that is
               received by other than an approved method prescribed by this
               manual;
             • Any incidents that indicate an employee knowingly or willfully
               violated security policies established for the protection of
               classified or sensitive information; and




       119We did not conduct a case file review to determine whether the 35 classified
computer security incidents reported to the Enterprise Security Operations Center were
among the 107 classified computer security incidents reported to the Security
Compliance Unit.

       120 Security Program Operating Manual, § 1-300. The Security Program

Operating Manual is written by SEPS and applies to the entire Department.


U.S. Department of Justice                                                          76
Office of the Inspector General
Evaluation and Inspections Division
              • Any information that raises doubt as to whether another
                employee’s continued eligibility for access to classified
                information is clearly consistent with the national security.121

      Classified Incidents Reported to the Security Compliance Unit. The
Security Compliance Unit utilizes the FBI’s Security Policy Manual to
define a classified incident as “a failure to safeguard FBI classified and
sensitive material according to FBI policies, Executive Order 12958, and
Director of National Intelligence Directives.”122 The FBI’s Security Policy
Manual identifies eight categories of reportable classified incidents
meeting this definition including:

              • Any loss, compromise, or suspected compromise of classified
                information;
              • Efforts by a person to obtain unauthorized access to classified
                information, or to compromise an employee with access;
              • Any emergency situation that renders a facility incapable of
                safeguarding classified materials;
              • A delay of more than 48 hours in the delivery of classified
                materials by a commercial carrier;
              • Any event involving computer or telecommunications equipment
                or media which may result in disclosure of classified information
                to unauthorized persons, or that results in unauthorized
                modification or destruction of system data, loss of computer
                system processing capability, or loss or theft of computer system
                media;
              • Any evidence of tampering with a shipment, delivery or mailing
                containing classified information;
              • Any shipment or transmission of classified information that is
                received by other than an approved method; and
              • Any incidents that indicate an employee knowingly or willfully
                violated security policies.123

       We noted that the Security Policy Manual’s definition of reportable
classified incidents was nearly identical to the SPOM’s definition of
reportable classified incidents. Even though the SPOM requires
components to report classified incidents to SEPS, the FBI stated that it
was unaware of any FBI policy requiring it to notify SEPS. However, the
FBI also directed us to another passage from its Security Policy Manual,
which requires the FBI to notify the Director of National Intelligence of:



       121   Security Program Operating Manual, § 1-302.

       122   FBI Security Policy Manual, § 17.3.

       123   FBI Security Policy Manual, § 17.4.


U.S. Department of Justice                                                          77
Office of the Inspector General
Evaluation and Inspections Division
             a significant security violation or a compromise of intelligence
             information that is either extensive in scope, indicates pervasive
             breach of security procedures, or is otherwise likely to have a
             serious effect on national security interests. This notification is to
             be made through the AD [Assistant Director], Security Division, to
             the Department of Justice Security Officer.124

       The OIG recognizes that not all classified incidents will meet the
“significant” standard that requires reporting to the Director of National
Intelligence, as outlined in § 17.10 of the Security Policy Manual.
However, because the FBI’s general definition of a classified security
incident, found in §§ 17.3 and 17.4 of the Security Policy Manual,
matches the Department’s definition, the FBI should be reporting all of
these incidents to SEPS as required by the SPOM. As noted above, the
Security Compliance Unit’s role is to track all reported security incidents
in a database, and provide monthly reports to the Section Chief of the
Security Operations Section in FBI Headquarters. FBI policy does not
require the Security Compliance Unit to report any computer security
incident to any entity outside the FBI, including SEPS.

      Classified Incidents Reported to the Enterprise Security Operations
Center. The Enterprise Security Operations Center defined a classified
incident as “an event where an individual gains logical or physical access
without permission or a ‘need to know’ to a network, system, application,
data, or other resource that contains National Security Information,” and
stated that the loss of an electronic device or media (such as a laptop,
CD, or flash drive) or the placement of information “on a lower level
medium than it is intended for” also constituted a classified incident.125
As noted above, the Enterprise Security Operations Center is required to
report computer security incidents to DOJCERT.

       The FBI stated that the Enterprise Security Operations Center had
mistakenly believed that DOJCERT was a subcomponent of SEPS. As a
result, the FBI believed that reporting classified computer security



       124 See FBI Security Policy Manual, § 17.10. The FBI also told us that computer
security incidents meeting this standard are defined as “loss or compromise of
information storage media or equipment containing intelligence information of such
quantity or sensitivity as to potentially jeopardize intelligence activities, sources or
methods.”

         125 The placement of information “on a lower level medium than it is intended

for” is commonly referred to as a classified spill.




U.S. Department of Justice                                                            78
Office of the Inspector General
Evaluation and Inspections Division
incidents to DOJCERT constituted reporting them to SEPS.126 Between
December 2005 and November 2006, the Enterprise Security Operations
Center reported 35 classified computer security incidents to DOJCERT.127

      While this practice does not exactly match the requirements set
out in the SPOM, DOJCERT provides SEPS the opportunity to review all
data loss incidents, including classified incidents, via e-mail notification.
We are more concerned that at least 72 classified computer security
incidents which were reported to the Security Compliance Unit by FBI
employees between December 2005 and November 2006 were not
reported to either DOJCERT or SEPS.128

Timeliness of Reporting.

      Our analysis of the Archer Database showed that the FBI was not
always reporting computer security incidents, including PII, within the
required timeframes specified in both the DOJCERT and FBI Incident
Response Plans. Between December 2005 and November 2006, the FBI
reported only 45 percent of its computer security incidents to DOJCERT
within the required timeframes. Further, none of the PII incidents that
occurred on or after July 12, 2006 for which we could determine
timeliness were reported within the required 1-hour timeframe.129
Table 12 shows the FBI’s reporting in each category.130

       126 As noted earlier, both DOJCERT and SEPS are part of the Justice
Management Division. However, the offices are in separate chains of command.
DOJCERT reports to the Department’s CIO, who reports to the Assistant Attorney
General for Administration. SEPS reports to the Deputy Assistant Attorney General for
Human Resources/Administration, who also reports to the Assistant Attorney General
for Administration. See JMD’s organizational chart at
www.usdoj.gov/jmd/orginfo/chart.htm

       127 The FBI stated in a February 2007 e-mail sent to the OIG that it now

understands that SEPS and DOJCERT have different, but complimentary, missions and
that the FBI should make overlapping reports of classified computer security incidents.

       128   We did not conduct a case file review to determine whether or not the 35
classified, IT-related security incidents reported to the Enterprise Security Operations
Center were among the 107 classified, IT-related security incidents reported to the
Security Compliance Unit.

       129 We did not analyze incidents for timeliness that occurred before OMB
established the 1-hour timeframe in July 2006. Additionally, we could not analyze one
incident that occurred after OMB established the 1-hour timeframe because there was
no information in the Archer Database to indicate when DOJCERT received the report.

       130 Our calculations are based on Categories 1 through 5 and Category 7. We

did not include incidents found in Categories 0 and 6 because they had no associated
                                                                              (Cont’d.)

U.S. Department of Justice                                                             79
Office of the Inspector General
Evaluation and Inspections Division
        Table 12: The FBI’s Timeliness in Reporting Incidents to DOJCERT
                                             Reported    Reported    Could not
                     Reporting   Incidents    within       after     compute
Category            timeframe* reported timeframe timeframe timeliness**
Category 0
                        None              0        N/A         N/A          N/A
(Exercise/Test)
Category 1
(Unauthorized          1 hour           15            2          13           0
Access)
Category 2
                      2 hours             1           0           1           0
(Denial of Service)
Category 3
                        1 day           42           14          28           0
(Malicious Code)
Category 4
                       1 week          113           50          57           6
(Improper Usage)
Category 5
                      1 month           21           18           3           0
(Scans/Probes)
Category 6
                        None            13         N/A         N/A           13
(Investigation)
Category 7
                      1 month             1           1           0           0
(Spam)
Total                                  206          85         102           19
PII incidents
occurring on or        1 hour           26            0          25           1
after 7/12/06***
* For purposes of this table, reporting timeframes for Categories 0-7 refer to the
timeframes defined in the Incident Response Plan. Reporting timeframe for PII
incidents refers to the timeframe defined in OMB Memorandum M-06-19.
** Some records did not include information to indicate when DOJCERT received the
reports. Category 0 and 6 incidents, for which there are no reporting timeframes, are
also included in this category.
*** PII incidents were reported in varying incident categories.
Source: Archer Database

       The FBI is aware of the Department requirement to report all
incidents involving PII loss within 1 hour and has incorporated that
requirement into its four Incident Response Plans. However, one FBI
official stated that the Department’s guidance concerning PII “is clear as
mud.” The FBI has raised concerns about this timeframe with the
Department’s CIO and asked for clarification. Specifically, the FBI told
us they asked the Department to more clearly define the action that
should trigger the 1-hour timeframe. An Assistant Special Agent in
Charge assigned to a large field division told us that the 1-hour

time criteria, nor did we include incidents for which the Archer Database contained no
information to indicate when DOJCERT received the report that an incident had
occurred.


U.S. Department of Justice                                                           80
Office of the Inspector General
Evaluation and Inspections Division
timeframe is “very difficult, if not impossible, to meet on a practical
basis” and further noted that his particular office is so large that “I
couldn’t find someone within 1 hour if my life depended on it.” The FBI
would like the Department to work with the components to develop
criteria and thresholds for reporting incidents involving PII loss so that
the components can better determine which incidents may be serious
enough to warrant reporting.

       While the FBI is aware of the Department requirement to report all
potential losses of PII within 1 hour, not all FBI employees had been
notified of the requirement as of the end of 2006. For example, one
Assistant Special Agent in Charge stated that, at the end of 2006,
knowledge of the requirement was inconsistent in his field division, with
employees in the sections that handle large amounts of PII, such as the
White Collar Crime Section, aware of the requirement and employees in
other sections, such as the Counterterrorism Section, not likely to be
aware. The Assistant Special Agent in Charge also expressed concern
that employees might not realize the urgency of the situation when an
incident involving PII loss occurs.

Ensuring All Incidents Are Reported

       The FBI said that it conducts training to ensure that employees are
aware of the requirement to report computer security incidents,
including those involving PII loss. The FBI said that it administers the
Department’s annual Computer Security Awareness Training to remind
employees of the requirement to report computer security incidents. The
requirement is also included in the Information Technology Rules of
Behavior, which employees are required to sign. The Computer Security
Awareness Training has been updated to include the requirement that
losses of PII be reported within 1 hour. FBI employees were scheduled to
take this annual training between January 2007 and April 2007. An
official in the FBI’s Security Division noted that the division always sees
a spike in reporting incidents immediately after employees complete their
annual training. All FBI staff with relevant responsibilities interviewed
agreed that, beyond conducting training to ensure that all employees are
aware of the requirement to report security incidents, there is no way to
guarantee that every incident is properly reported. Employees are also
reminded that failure to report a security incident is, in itself, a security
incident. However, one Assistant Special Agent in Charge noted that
employees may delay reporting a lost or stolen device because they fear
the possibility of punishment. In addition to training, FBI staff identified
the annual property inventory as a method of verifying whether all lost or
stolen electronic devices were reported.


U.S. Department of Justice                                                81
Office of the Inspector General
Evaluation and Inspections Division
Notification to Affected Parties

       The FBI has not developed policies concerning notification to
affected parties in the event of a loss of PII.

Determining the Type of Data Lost

       The FBI said that it determines the type of data lost through
written questions and employee interviews. The Security Compliance
Unit is supposed to review the initial report of the incident and send a
series of questions to the Chief Security Officer. The Security
Compliance Unit said that it began specifically asking about the loss of
PII after that type of loss became an important issue for the government,
although no written FBI policy requires the unit to obtain that
information. Using the questions provided by the Security Compliance
Unit, the Chief Security Officer is supposed to interview the employee
reporting the loss to determine what type of information the device may
have contained. Based on the employee’s response, the Chief Security
Officer should facilitate communication between the employee, the
employee’s supervisor, and the appropriate division in FBI Headquarters
to conduct a damage assessment of the incident.131 In addition, the
Enterprise Security Operations Center can review server log-in records
and e-mail servers to determine when an employee last logged in and
which files the employee accessed during that time.




        131 For example, if an employee states that a stolen laptop contained

information related to a violent crime case still under investigation, the Chief Security
Officer will help the employee and the supervisor arrange a meeting with someone from
the Violent Crimes Unit at FBI Headquarters to determine if the theft of the laptop could
have an impact on the ongoing investigation.


U.S. Department of Justice                                                            82
Office of the Inspector General
Evaluation and Inspections Division
               APPENDIX VII: JMD REPORTING PROCEDURES


       DOJCERT is located within the Office of the CIO, which is a
subcomponent of the Justice Management Division (JMD). For purposes
of incident reporting, the subcomponents of JMD are treated as separate
components. Each subcomponent reports its own incidents and
maintains its own Incident Response Plan. The following section is
based on interviews with and documents obtained from two
subcomponents of JMD: Personnel and the Security and Emergency
Planning Staff (SEPS).

Introduction

       Between December 2005 and November 2006, JMD reported
402 computer security incidents to DOJCERT, including 18 incidents
involving PII and 5 incidents potentially involving classified
information.132 Both Personnel and SEPS consider any loss of PII,
including the loss of any electronic device or removable media containing
PII, to be reportable computer security incidents.

      JMD officials we interviewed stated that their subcomponents of
JMD follow the Department’s definition of sensitive information and
consider all of their information to be sensitive. In the Security Program
Operating Manual, the Department defines sensitive information as:

             any information, the loss, misuse, modification of, or unauthorized
             access to, could affect the national interest, law enforcement
             activities, the conduct of Federal programs, or the privacy to which
             individuals are entitled under Section 552a of Title 5, U.S. Code, but
             that has not been specifically authorized under criteria established
             by an executive order or an act of Congress to be kept classified in
             the interest of national defense or foreign policy.133




       132  Personnel reported 13 incidents to DOJCERT between December 2005 and
November 2006, including 1 incident involving potential loss of PII, and no incidents
involving classified information. SEPS reported four incidents to DOJCERT between
December 2005 and November 2006, none of which involved either PII or classified
information. All of the incidents reported by SEPS were instances of SEPS employees
receiving spam e-mails.

        133 The Security Program Operating Manual is written by SEPS and applies to the

entire Department.


U.S. Department of Justice                                                            83
Office of the Inspector General
Evaluation and Inspections Division
      The Personnel division considers PII to be synonymous with
information that is protected by the Privacy Act.134 However, SEPS uses
OMB’s definition of PII. Personnel does not handle classified information,
while SEPS does. SEPS uses the definition of classified information
contained in Executive Order 12958, as Amended, Classified National
Security Information, dated March 25, 2003.

Reporting Procedures

       JMD employees are required to contact the individual who handles
security issues in their subcomponent to report any computer security
incidents. In Personnel, the Avue User Rules of Behavior require all
employees to report all computer security incidents to the Avue
Administrator, who is required to notify the Personnel Information
Systems Security Officer.135 Personnel’s Information Systems Security
Officer should notify DOJCERT, via the Archer Database, and also
should ensure that the Personnel staff follows the procedures outlined in
Personnel’s Incident Response Plan. Personnel staff may also notify their
supervisors of computer security incidents, although no policy
specifically requires them to do so. Personnel has not developed any
written procedures for reporting computer security incidents after hours.

      SEPS employees are not provided with written procedures
instructing them on how to report computer security incidents through
the SEPS reporting chain of command. We were told in interviews that,
in practice, employees report computer security incidents to their
supervisors, who forward the report to the staff of the Technical Security
Section.136 The Technical Security Section notifies DOJCERT, via the
Archer Database, and also ensures that SEPS follows the procedures
outlined in its Incident Response Plan. For classified incidents, SEPS’s
employees said that in practice they report a suspected loss to their
supervisor. The supervisor then reports the incident to the Technical
Security Section who forwards the report to the Department Security
Officer (Director of SEPS). Chart 18 shows Personnel’s and SEPS’s
procedures for reporting all computer security incidents, including those
involving sensitive, PII, and classified information.


       134   5 U.S.C. § 552a.

       135   Avue is the system the Department uses for online job applications.

       136 SEPS is divided into 10 different sections, each of which handles a different

aspect of security. The Technical Security Section handles the security of technology
used to store and transmit classified information.


U.S. Department of Justice                                                            84
Office of the Inspector General
Evaluation and Inspections Division
           Chart 18: Flowchart of Personnel’s and SEPS’s
      Procedures for Reporting All Computer Security Incidents,
         Including Sensitive, PII, and Classified Information

                                                                If PII within
                                               P ersonnel       1 hour
   Pe rsonne l            AVUE            Information Systems                   DOJCERT
   Employe e           Administrator        Security Officer


                                                                              If PII within
                                                                  Sensitive   1 hour
                                                                  information            DOJCERT
                                               T echnical
     SEPS
                        Supervisor              Security
    employee
                                                 Section
                                                                  Classified           Department
                                                                  information        Security Officer
                                                                                    (Director of SEPS)



       Personnel and SEPS have updated the Incident Response Plans
they maintain to reflect the changes DOJCERT made to the November
2006 Incident Response Plan template. The Incident Response Plans
identify the seven categories of incidents that should be reported to
DOJCERT within specified timeframes.

      Both Personnel and SEPS use the Archer Database to track
incidents that have been reported to DOJCERT.

Indications of Compliance with Reporting Procedures

       For the two JMD subcomponents we reviewed, subcomponent
officials told us that they believed employees were following the correct
reporting procedures. While we did not validate this statement, we did
analyze data from the Archer Database to determine if all of the
subcomponents of JMD were reporting incidents to DOJCERT in a timely
manner.137 Our analysis showed that JMD was not always reporting
computer security incidents, including PII, within the required
timeframes specified in both the DOJCERT and JMD Incident Response
Plans. Between December 2005 and November 2006, JMD reported
84 percent of its computer security incidents to DOJCERT within the
required timeframes. However, only 14 percent of PII incidents that
occurred on or after July 12, 2006 were reported within the required

      137 The Archer Database included incidents that were reported by 25 different

subcomponents of JMD.


U.S. Department of Justice                                                            85
Office of the Inspector General
Evaluation and Inspections Division
1-hour timeframe.138 Personnel reported one PII incident after July 12,
2006, but did not report it in the required 1-hour timeframe. SEPS did
not report any PII incidents. Table 13 shows JMD’s overall reporting in
each category.139

          Table 13: JMD’s Timeliness in Reporting Incidents to DOJCERT
                                            Reported     Reported   Could not
                     Reporting   Incidents    within       after     compute
Category            timeframe* reported timeframe timeframe timeliness**
Category 0
                        None            11         N/A         N/A          11
(Exercise/Test)
Category 1
(Unauthorized          1 hour           17           3           13          1
Access)
Category 2
                      2 hours            1           1            0          0
(Denial of Service)
Category 3
                        1 day           42          16           15         11
(Malicious Code)
Category 4
                       1 week            6           2            4          0
(Improper Usage)
Category 5
                      1 month           99          84           10          5
(Scans/Probes)
Category 6
                        None            21         N/A         N/A          21
(Investigation)
Category 7
                      1 month          205         165            8         32
(Spam)
Total                                  402         271           50         81
PII incidents
occurring on or        1 hour           16           2           12          2
after 7/12/06***
* For purposes of this table, reporting timeframes for Categories 0-7 refer to the
timeframes defined in the Incident Response Plan. Reporting timeframe for PII
incidents refers to the timeframe defined in OMB Memorandum M-06-19.
** Some records did not include information to indicate when DOJCERT received the
reports. Category 0 and 6 incidents, for which there are no reporting timeframes, are
also included in this category.
*** PII incidents were reported in varying incident categories.
Source: Archer Database


       138 We did not analyze incidents for timeliness that occurred before OMB
established the 1-hour timeframe in July 2006. We could not analyze two incidents
that occurred after OMB established the 1-hour timeframe because there was no
information in the Archer Database to indicate when DOJCERT received the reports.

        139 Our calculations are based on Categories 1 through 5 and Category 7. We

did not include incidents found in Categories 0 and 6 because they had no associated
time criteria, nor did we include incidents for which the Archer Database contained no
information to indicate when DOJCERT received the report that an incident had
occurred.


U.S. Department of Justice                                                           86
Office of the Inspector General
Evaluation and Inspections Division
Ensuring All Incidents Are Reported

      JMD said that it relies primarily on training as its method for
ensuring employees are aware of the requirement to report computer
security incidents, including those involving PII loss. An official on the
Personnel staff described the Department’s annual Computer Security
Awareness Training as “the number one vehicle” for emphasizing the
importance of security to Personnel staff and for reinforcing the reporting
requirements that are outlined in the Avue User Rules of Behavior. JMD
said that personnel staff members receive verbal briefings on the
procedures for reporting computer security incidents when they are given
the equipment necessary to use Justice Secure Remote Access and also
receive a wallet card summarizing those reporting procedures. Lost
laptops or BlackBerry devices can be identified through Personnel’s
annual inventory process. Personnel’s Property Officer told us that the
annual property inventory has not uncovered any problems with lost or
stolen electronic devices.

      A Security Specialist in the SEPS Technical Security Section noted
that there is no failsafe method for ensuring that all incidents are
reported but stated that explaining the reporting procedures and
encouraging employees to make reports was an important method for
ensuring that incidents are properly reported. SEPS’s Executive Officer
told us that the annual property inventory has not uncovered any lost or
stolen electronic devices.

Notification to Affected Parties

      JMD has not developed policies concerning notification to affected
parties in the event of a loss of PII.

Determining the Type of Data Lost

       JMD said that it generally determines the type of data loss through
employee interviews. In Personnel, the Information Systems Security
Officer is required to interview both the employee reporting the loss and
the employee’s supervisor to determine how the employee used the device
and what data it may have contained. In addition, in August 2006
Personnel modified its Avue User Rules of Behavior to require employees
to obtain written permission from their supervisors before downloading
PII to the hard drive of a laptop.




U.S. Department of Justice                                              87
Office of the Inspector General
Evaluation and Inspections Division
       SEPS does not have any written procedures for determining what
data a lost or stolen electronic device may have contained, and SEPS
officials stated that only one laptop has been stolen in the past 15 years.
A member of SEPS’s Technical Security Section stated that if a lost or
stolen laptop were to be reported, the Technical Security Section would
speak with the employee reporting the loss and his or her supervisor to
determine what information the laptop may have contained. SEPS did
not report any lost or stolen electronic devices between December 2005
and November 2006.




U.S. Department of Justice                                               88
Office of the Inspector General
Evaluation and Inspections Division
               APPENDIX VIII: TAX DIVISION PROCEDURES


Introduction

       Between December 2005 and November 2006, the Tax Division
reported 22 computer security incidents to DOJCERT, none of which
involved the loss of PII. The Tax Division defines reportable computer
security incidents as the loss of sensitive data; PII; or any portable
electronic device or removable storage media that contains Tax Division
information, including the loss of any laptop, BlackBerry device, flash
drive, or CD. The Tax Division considers all of its information to be
sensitive, including PII, Privacy Act information, federal taxpayer
information, and grand jury information. The Tax Division defines PII as
information that uniquely identifies an individual, which may include
social security numbers, Taxpayer ID numbers, driver’s license numbers,
license plate numbers, credit card numbers, current or previous
addresses, current or previous telephone numbers, birthdates, maiden
names, previous married names, aliases, and family or medical history.
Tax return information, which is defined in Internal Revenue Service
Publication 1075 and DOJ Order 2620.5A as including a taxpayer’s
identity and information about his or her finances, is considered to be
synonymous to PII, as is Privacy Act information. The Tax Division does
not generally handle classified information.

Reporting Procedures

      Tax Division employees are required to notify their supervisors and
the Division’s Security Program Manager within 1 hour of discovering
that sensitive data or PII may have been lost.140 If Tax Division
employees mistakenly contact the Help Desk to report sensitive data loss
incidents, the Help Desk staff should direct them to contact the Security
Program Manager. The Tax Division told us that employees have been
instructed to report data loss incidents directly to the Help Desk if they
are unable to reach the Security Program Manager immediately. The
Help Desk should then notify the Information Systems Security Officer.

       140  On September 5, 2006, the Assistant Attorney General of the Tax Division
sent a memorandum to all division employees instructing them to contact their
supervisors and the division’s Security Program Manager within 1 hour of discovering
that sensitive data or PII may have been lost. This 1-hour timeframe is also reflected in
the Tax Division’s Incident Response Plan. All other types of computer security
violations, incidents, and vulnerabilities are reported to the Tax Division Help Desk.
The Help Desk is not required to report incidents that do not involve sensitive data or
PII beyond this point.


U.S. Department of Justice                                                            89
Office of the Inspector General
Evaluation and Inspections Division
Tax Division officials also told us that if an incident occurs after hours,
employees should notify their supervisors. The supervisors have an
after-hours contact number for the Security Program Manager.

       The Security Program Manager should notify the Tax Division’s
Information Systems Security Officer of all computer security incidents.
The Information Systems Security Officer should notify DOJCERT, via
the Archer Database, and ensure that the Tax Division follows the
procedures outlined in its Incident Response Plan.141 The Tax Division’s
plan identifies the seven categories of incidents that should be reported
to DOJCERT within specified timeframes. The plan has been updated to
reflect the required changes DOJCERT made in November 2006 to the
DOJCERT Incident Response Plan template.

      The Tax Division also has procedures in place for notifying senior
Tax Division management of incidents. If a computer security incident
includes PII, grand jury information, or federal taxpayer information, the
supervisor of the employee involved should notify the Deputy Assistant
Attorney General who oversees the section where the incident occurred.
The Deputy Assistant Attorney General should then notify the Tax
Division’s Office of the Assistant Attorney General. Chart 19 shows the
Tax Division’s procedures for reporting loss of sensitive information,
including PII.




        141 The Tax Division’s Information Systems Security Officer supervises the Help

Desk and thus should be aware of all reports of data loss incidents made to the Help
Desk instead of to the Security Program Manager. The Information Systems Security
Officer should inform the Security Program Manager of all sensitive data loss incident
reports the Help Desk receives.


U.S. Department of Justice                                                           90
Office of the Inspector General
Evaluation and Inspections Division
                 Chart 19: Flowchart of the Tax Division’s Procedures for
                   Reporting Sensitive Information Loss, Including PII




                                              If incident
                                            involves P II,              Deputy           T ax Division
                                              grand jury               Assistant         Office of the
                              Supervisor    information,               Attorney            Assistant
                                               or federal             General for           Attorney
                                                taxpayer                section             General
                     within                  information
                     1 hour
      Employee




                               Division      Information     If PII within
                               Security        Systems       1 hour
                               P rogram        Security
                                                                             DOJCERT
                               Manager          Officer



      If unable to
          reach
        Division
        Security                Help Desk
        P rogram
        Manager




      For internal tracking purposes, computer security incidents and
equipment losses are supposed to be recorded in the Tax Division Help
Desk’s ticket database, known as Remedy. Equipment losses have been
tracked in this way for several years, and the Tax Division began tracking
data losses specifically in August 2006. The Information Systems
Security Officer stated that all information tracked in Remedy is also
entered into the Archer Database. Tax Division officials said they
routinely query Remedy to generate reports on equipment losses.

Indications of Compliance with Reporting Procedures

       Tax Division officials told us that they believed employees were
following the correct reporting procedures. While we did not validate this
statement, our analysis of the Archer Database showed that between
December 2005 and November 2006, the Tax Division reported
95 percent of its computer security incidents within the required


U.S. Department of Justice                                                          91
Office of the Inspector General
Evaluation and Inspections Division
timeframes specified in both the DOJCERT and Tax Division Incident
Response Plans. We did not analyze any Tax Division incidents for
timeliness because the Tax Division did not report any incidents
involving PII. Table 14 shows the Tax Division’s reporting in each
category.142

   Table 14: The Tax Division’s Timeliness in Reporting Incidents to DOJCERT
                                             Reported    Reported     Could not
                     Reporting   Incidents    within       after      compute
Category            timeframe* reported timeframe timeframe timeliness**
Category 0
                        None             1        N/A          N/A             1
(Exercise/Test)
Category 1
(Unauthorized          1 hour            1           1           0             0
Access)
Category 2
                      2 hours            0        N/A          N/A           N/A
(Denial of Service)
Category 3
                        1 day            1           0           1             0
(Malicious Code)
Category 4
                       1 week            0        N/A          N/A           N/A
(Improper Usage)
Category 5
                      1 month            1           1           0             0
(Scans/Probes)
Category 6
                        None             1        N/A          N/A             1
(Investigation)
Category 7
                      1 month           17          17           0             0
(Spam)
Total                                   22          19           1             2
PII incidents
occurring on or        1 hour            0        N/A          N/A           N/A
after 7/12/06***
* For purposes of this table, reporting timeframes for Categories 0-7 refer to the
timeframes defined in the Incident Response Plan. Reporting timeframe for PII
incidents refers to the timeframe defined in OMB Memorandum M-06-19.
** Some records did not include information to indicate when DOJCERT received the
reports. Category 0 and 6 incidents, for which there are no reporting timeframes, are
also included in this category.
*** PII incidents were reported in varying incident categories.
Source: Archer Database




        142 Our calculations are based on Categories 1 through 5 and Category 7. We

did not include incidents found in Categories 0 and 6 because they had no associated
time criteria, nor did we include incidents for which the Archer Database contained no
information to indicate when DOJCERT received the report that an incident had
occurred.


U.S. Department of Justice                                                           92
Office of the Inspector General
Evaluation and Inspections Division
Ensuring All Incidents Are Reported

       While the Tax Division uses several methods to ensure division
employees are reporting computer security incidents, it relies primarily
on training to ensure employees are aware of the requirement to report
computer security incidents, including those involving loss of sensitive
data or PII. The Tax Division said that it conducts annual Computer
Security Awareness Training to remind users of the responsibility to
report computer security incidents and has updated this training to
instruct employees to report losses of PII within 1 hour. To remind
employees of the importance of reporting sensitive data loss incidents,
the Tax Division has also posted a copy of the Assistant Attorney
General’s September 5, 2006, memorandum in a prominent position on
the Tax Division’s intranet page. The Tax Division’s Rules of Behavior
also instructs employees to report known or suspected incidents to the
Information Systems Security Officer. Tax Division employees are
required to read and acknowledge the Rules of Behavior annually.

      Tax Division officials said that lost equipment is tracked through
the annual inventory process. One Tax Division official we interviewed
noted that it is easier for management to determine if hardware, such as
a laptop or BlackBerry device, is missing because the user will need a
replacement device. For other types of computer security incidents, this
same official stated that there is no failsafe method for ensuring that all
incidents are reported.

Notification to Affected Parties

       The Tax Division has not developed policies concerning notification
to affected parties in the event of a loss of PII. Tax Division officials
expressed a general desire for the Department to take a greater
leadership role in computer security issues, including developing a policy
on notification.

Determining the Type of Data Lost

       In the Tax Division, determining the type of data loss is usually
accomplished through employee interviews. In general, the Tax
Division’s Information Systems Security Officer is tasked with
interviewing the employee reporting the loss and asks the employee to
identify the information that the device may have contained. The
Information Systems Security Officer may also speak with the employee’s
supervisor to determine which cases the employee was most likely to



U.S. Department of Justice                                               93
Office of the Inspector General
Evaluation and Inspections Division
have been working on, but the Tax Division is ultimately dependent on
the employee’s memory of the device’s contents.

       When an employee is working off-site and a computer security
incident occurs, in addition to interviewing the employee reporting the
loss, the supervisor may be able to determine the type of data lost
through the Tax Division’s Document Management System. The Tax
Division maintains a Document Management System that organizes
case-related files, and employees’ access is restricted to the cases to
which they have been assigned. To work on Tax Division information
from a remote location without having to dial in to the Tax Division’s
network, the employees can check out files from the Document
Management System and have those files uploaded onto the hard drives
of their laptops. If an employee chooses this access option and then
reports the laptop lost or stolen, the Tax Division supervisor may be able
to recreate the files that were on the device by reviewing the Document
Management System’s checked out records. Data saved on flash drives
must also be saved on the Document Management System or another
part of the Tax Division’s network to provide a backup in the event that
the flash drive is lost or stolen.143

      Alternatively, employees can access the Tax Division’s network
remotely, either through a hard network connection in a United States
Attorney’s Office or by dialing in using Justice Secure Remote Access.
When employees choose to access the network remotely, the laptop
serves as a dumb terminal, with all files saved to the Tax Division’s
network instead of to the laptop’s hard drive.




        143 Only Tax Division-purchased flash drives are permitted; these flash drives

are encrypted, use biometric security (a thumbprint is required to access the data on
the flash drive), and are tracked in the Tax Division’s annual property inventory.


U.S. Department of Justice                                                               94
Office of the Inspector General
Evaluation and Inspections Division
              APPENDIX IX: USMS REPORTING PROCEDURES


Introduction

      Between December 2005 and November 2006, the USMS reported
15 security incidents to DOJCERT, none of which involved the loss of PII
or involved classified information. The USMS stated that reportable
losses include the loss of electronic devices such as desktop computers,
laptops, or BlackBerry devices that possibly contain classified or
investigative case-sensitive information or printed documents that
include PII. However, the USMS stated it did not begin tracking or
reporting sensitive data loss incidents, including PII, to DOJCERT until
the August 2006 Department memorandum that instructed all
components to report these incidents to DOJCERT.144

      The USMS defines sensitive information as synonymous with Law
Enforcement Sensitive. In the USMS Security Programs Manager policy,
Law Enforcement Sensitive information is defined as unclassified
information of a sensitive and proprietary nature that if disclosed could
cause harm to law enforcement activities by jeopardizing investigations,
compromising operations, or causing life-threatening situations for
confidential informants, witnesses, or law enforcement personnel.145
These categories are designated as law enforcement sensitive:

              • Informant and witness information;
              • Grand Jury information subject to the Federal Rules of Criminal
                Procedure, Rule 6(e), Grand Jury Secrecy Proceedings and
                Disclosure;
              • Investigative material;
              • Law enforcement sources and undercover operations;
              • Law enforcement intelligence sources and methods;
              • Federal law enforcement agency activities;
              • Federal support to state and local law enforcement activities;
              • Information pertaining to the judiciary, to include investigations
                of inappropriate communications; and
              • Personnel information pertaining to employees of the USMS.

      While the USMS does not currently have a definition for PII, it
considers those records requiring protection under the Privacy Act to be
a subset of Limited Official Use information. The USMS defines Limited

        144 DOJ Memorandum, Reporting Incidents Involving Data Loss and Personally

Identifiable Information, Vance Hitch, CIO, August 7, 2006.

       145   USMS Directive 2.34, Security Programs Manager, November 9, 2005.


U.S. Department of Justice                                                           95
Office of the Inspector General
Evaluation and Inspections Division
Official Use information as unclassified information of a sensitive,
proprietary, or personally private nature that must be protected against
release to unauthorized individuals. The following categories of
information are designated as Limited Official Use information:

            • Tax information subject to 26 U.S.C. § 6103, Confidentiality and
              Disclosure of Returns and Return Information;
            • Information that could be sold for profit;
            • Personal information subject to the Privacy Act;
            • Memorandums or reports that disclose security vulnerabilities;
            • Information that could result in physical risk to individuals;
            • Company proprietary information;
            • Audit staff work papers;
            • Draft audit reports;
            • Information offered in confidence during the conduct of internal
              audits, comprehensive assessments, program reviews, and
              evaluations;
            • Program and budget information on intelligence-related activities;
              and
            • Sensitive Antideficiency Act material.146

      The USMS uses the definition of classified information contained in
Executive Order 12958, as Amended, Classified National Security
Information, dated March 25, 2003.

Reporting Procedures

Reporting Procedures for Non-Classified Incidents

      The USMS relies on four policies when reporting computer security
incidents:

       •   USMS Incident Response Plan, December 8, 2005;
       •   USMS Directive 2.34, Security Programs Manager, November 9,
           2005;
       •   USMS Directive 12, Information Resources Management,
           effective October 6, 2003, updated April 3, 2006; and
       •   USMS Directive 7.1, Management of Personal Property,
           October 6, 2003.

      It should be noted that the four policies provide conflicting
chain-of-command reporting procedures. For example, the policies
instruct employees to report computer security incidents to staff titles

      146 USMS Directive 2.34, Security Programs Manager, November 9, 2005,

Attachment III F.2.


U.S. Department of Justice                                                         96
Office of the Inspector General
Evaluation and Inspections Division
and internal departments that either no longer exist or are incorrect.
Therefore, the reporting procedures described here are the actual
practices as described in interviews with USMS officials, supplemented
by the policies.

       USMS employees are to immediately report suspected computer
security incidents involving sensitive information loss including PII to the
Office of Information Technology’s Help Desk at USMS Headquarters and
the employee’s supervisor. If the incident involves lost or stolen property,
the employee is also required to notify the office property custodian (as
required by USMS Property Management regulations for reporting lost or
stolen property) and the Office of Investigations (as appropriate for stolen
property).147 The Help Desk should then notify the appropriate Systems
Administrator in the Office of Information Technology as soon as possible
to help evaluate the incident.148 The Help Desk, after recording general
information about the incident, should then notify the Computer
Security Program Manager, also at Headquarters, who interviews the
employee involved about the circumstances surrounding the event. With
the information gathered during the interview, the Computer Security
Program Manager is required to report the incident to DOJCERT via a
telephone call. The USMS does not currently use their electronic access
to DOJCERT’s Archer Database for reporting incidents online. Chart 20
shows the USMS’s procedures for reporting sensitive information loss,
including PII.




       147  USMS Directive 12, Information Resources Management, Appendix H,
effective October 6, 2003, updated April 3, 2006. The Office of Investigations is also
known as Internal Investigations.

       148  There are 50 Systems Administrators to support 400 locations in 94 USMS
districts. While the majority of the USMS offices do not have a Systems Administrator,
in the locations where one exists the employee reports a data loss first to the Systems
Administrator, who then reports the incident to the Help Desk. In locations where no
Systems Administrator exist, the employee calls the Help Desk at Headquarters and the
employee’s supervisor.


U.S. Department of Justice                                                               97
Office of the Inspector General
Evaluation and Inspections Division
     Chart 20: Flowchart of the USMS’s Procedures for Reporting
              Sensitive Information Loss, Including PII

                                                      Systems
                                               Administrator in the
                          Headquarters         Office of Information
                            Office of               T echnology
                          Information
                          T echnology
                           Help Desk                                   If PII
   Employee                                     Computer Security      within 1 hour
                                                P rogram Manager                       DOJCERT


                          Supervisor



Reporting Procedures for Data Loss that Include PII

      As of April 2007, the USMS had not yet updated its Incident
Response Plan to reflect requirements for investigating and reporting
data loss incidents that include the loss of PII. DOJCERT added the data
loss and PII requirements to its Incident Response Plan template in
November 2006 with the requirement that all components incorporate
this update by December 29, 2006. The USMS stated that it planned to
update its Incident Response Plan and include this revision by mid-
March 2007. The USMS did e-mail its staff on August 29, 2006,
informing them of their responsibility to report all known incidents of
sensitive data loss and PII “within 1 hour of discovery or detection.”149
The USMS does not have procedures for reporting computer security
incidents after hours.

Reporting Procedures for Classified Information

      If classified information is involved in a computer security incident,
employees must promptly report by telephone and confirm in writing the
circumstances of the incident to the USMS Document Security Program
Manager, who is responsible for the receipt, handling, safeguarding, and
storage of all classified material within the USMS.150 The Document
Security Program Manager is responsible for notifying the USMS Security
Programs Manager. The USMS Security Programs Manager is required to

       149 USMS E-Mail to All Staff, Notice From OSD Re: Reporting Incidents Involving

Data Loss and Personally Identifiable Information, August 29, 2006.

      150 USMS Directive 2.34, Security Programs Manager, Attachment C,

November 9, 2005, pp. 13-14.


U.S. Department of Justice                                                             98
Office of the Inspector General
Evaluation and Inspections Division
then notify the Department’s Security Officer, Security and Emergency
Planning Staff (SEPS). Chart 21 shows the USMS’s procedures for
reporting classified information loss.

     Chart 21: Flowchart of the USMS’s Procedures for Reporting
                    Classified Information Loss


                            Document
                                                 Security
                             Security
        Employee                                 Programs              SEPS
                             Program
                                                 Manager
                             Manager


Additional Reporting Requirements

       According to the USMS policy on Management of Personal
Property, employees are required to notify the property custodian
through their supervisor if an incident involves lost or missing electronic
equipment, including a laptop or desktop computer or a BlackBerry
device.151 The property custodian should complete a form/affidavit with
descriptive information about the event and forwards that form to the
Office of Property Management. The Office of Property Management is
required to refer reports of loss to the Board of Survey if the loss is likely
to have been the result of willful intent, gross negligence, neglect,
misuse, theft, or misconduct. If the loss involves sensitive property such
as desktop and laptop computers or BlackBerry devices that possibly
contain classified or investigative case-sensitive information, a copy of
the report should be provided to the Office of Internal Affairs (also known
as Internal Investigations).152 The property custodian should also report
lost sensitive property to the NCIC. In the event of stolen property, the
employee should notify the local police department.

Indications of Compliance with Reporting Procedures

       USMS officials told us that they believed their employees were
following the correct reporting procedures. While we did not validate this
statement, our analysis of the Archer Database showed that the USMS

       151  The property custodian is the Chief Deputy U.S. Marshal within a district
office or the head of office within a Headquarters component. See USMS Directive 7.1,
Management of Personal Property, October 6, 2003.

       152 USMS Memorandum to All USMS Employees, Reporting Losses of USMS

Property, Director, November 5, 2002.


U.S. Department of Justice                                                         99
Office of the Inspector General
Evaluation and Inspections Division
was not always reporting computer security incidents within the required
timeframes specified in both the DOJCERT and USMS Incident Response
Plans. Between December 2005 and November 2006, the USMS reported
62 percent of its computer security incidents to DOJCERT within the
required timeframes. We did not analyze any USMS PII incidents for
timeliness because the USMS did not report any incidents involving PII.
Table 15 shows the USMS’s reporting in each category.153

       Table 15: The USMS’s Timeliness in Reporting Incidents to DOJCERT
                                            Reported    Reported    Could not
                     Reporting Incidents     within       after      compute
Category            timeframe* reported timeframe timeframe timeliness**
Category 0
                        None            0         N/A         N/A          N/A
(Exercise/Test)
Category 1
(Unauthorized          1 hour           2            0           2           0
Access)
Category 2
                      2 hours           0         N/A         N/A          N/A
(Denial of Service)
Category 3
                        1 day           4            1           2           1
(Malicious Code)
Category 4
                       1 week           2            2           0           0
(Improper Usage)
Category 5
                      1 month           0         N/A         N/A          N/A
(Scans/Probes)
Category 6
                        None            0         N/A         N/A          N/A
(Investigation)
Category 7
                      1 month           7            5           1           1
(Spam)
Total                                  15            8           5           2
PII incidents
occurring on or        1 hour           0         N/A         N/A          N/A
after 7/12/06***
* For purposes of this table, reporting timeframes for Categories 0-7 refer to the
timeframes defined in the Incident Response Plan. Reporting timeframe for PII
incidents refers to the timeframe defined in OMB Memorandum M-06-19.
** Some records did not include information to indicate when DOJCERT received the
reports. Category 0 and 6 incidents, for which there are no reporting timeframes, are
also included in this category.
*** PII incidents were reported in varying incident categories.
Source: Archer Database



        153 Our calculations are based on Categories 1 through 5 and Category 7. We

did not include incidents found in Categories 0 and 6 because they had no associated
time criteria, nor did we include incidents for which the Archer Database contained no
information to indicate when DOJCERT received the report that an incident had
occurred.


U.S. Department of Justice                                                           100
Office of the Inspector General
Evaluation and Inspections Division
Ensuring All Incidents Are Reported

       The USMS stated that it relies primarily on the Department’s
required annual Computer Security Awareness Training to educate and
remind staff of their reporting responsibilities as well as what is
considered a reportable incident. However, we were informed during an
interview that employees did not have access to this training in 2006 due
to technical difficulties the USMS had in supporting the Computer
Security Awareness Training online. The USMS also said that it relies on
several written policies and memorandums to inform staff of their
responsibilities to report lost or stolen government-issued equipment
that may contain sensitive information.

      In August 2006, the USMS e-mailed a memorandum to all USMS
employees informing them of their responsibility to report all incidents
involving known loss of sensitive data and PII within 1 hour of discovery
or detection.154 Additionally, the memorandum stated that the loss of
any data storage devices, such as laptops, flash drives, disks, and tapes,
should be reported within the same 1-hour timeframe.

      As stated above, the USMS policy on Management of Personal
Property requires employees to make the loss of property known
immediately through his or her supervisor to the property custodian.
Property custodians are required to maintain accountability for all
property on the accountable property record through physical inventories
and the maintenance of current property records. A comprehensive
physical inventory of all accountable property is required every 2 years.

      USMS Rules of Behavior, which all employees must read and sign,
require employees to report all actual or suspected security violations,
vulnerabilities, and incidents to the first-line supervisor and other
appropriate staff.155

Notification to Affected Parties

       The USMS has not developed policies concerning notification to
affected parties in the event of a loss of PII.



       154 USMS e-mail to all staff, Notice From OSD Re: Reporting Incidents Involving

Data Loss and Personally Identifiable Information, August 29, 2006.

       155 USMS Directive 12, Information Resources Management, Appendix C, Rules

of Behavior, effective October 6, 2003, updated April 3, 2006.


U.S. Department of Justice                                                        101
Office of the Inspector General
Evaluation and Inspections Division
Determining the Type of Data Lost

       To determine the type of data lost or compromised, the USMS
primarily relies on the Chief of Enterprise Management at Headquarters
interviewing the employee involved. The Chief said that she questions
the employee using an internal form containing 23 questions. Several of
the questions ask about applications accessed from the lost laptop or
BlackBerry device, whether information was saved to the hard drive, and
the type of information the lost device contained. The Chief said that she
intends to eventually train the Help Desk to conduct these initial
interviews and complete the interview forms. However, the Chief or a
member of her staff will remain the point of contact for notifying
DOJCERT.




U.S. Department of Justice                                            102
Office of the Inspector General
Evaluation and Inspections Division
             APPENDIX X: ACTS, DIRECTIVES, AND STANDARDS


•   Federal Information Security Management Act (FISMA) of 2002 –
    This Act actually is Title III of the E-Government Act of 2002. It
    defines federal requirements for securing information and information
    systems that support federal agency operations and assets and
    requires agencies to develop agency-wide information security
    programs. Under FISMA, civilian agencies are required to notify the
    U.S. Computer Emergency Readiness Team (US-CERT) in the
    Department of Homeland Security, within certain timeframes based
    on the type of incident, e.g., data breaches, unauthorized access, or
    suspicious activity on their networks. In July 2006, OMB expanded
    the rule to cover all incidents that include PII. FISMA also requires
    the Inspectors General to conduct an annual independent evaluation
    of the information security program and practices of every agency. To
    support agencies in conducting their information security programs,
    FISMA called for the National Institute of Standards and Technology
    (NIST) to develop federal standards for the security categorization of
    federal information and information systems according to risk levels
    and for minimum security requirements for information and
    information systems in each security category.

•   E-Government Act of 2002 – This Act ensures sufficient protection
    for the privacy of personal information in electronic government
    systems by requiring that agencies conduct Privacy Impact
    Assessments (PIA). A PIA is an analysis of how personal information
    is collected, stored, shared, and managed in a federal system. FISMA
    is Title III of the E-Government Act.

•   Privacy Act of 1974 – limits agencies’ collection, maintenance, use,
    and dissemination of information maintained in a system of records.
    The purpose of the Privacy Act is to balance the government's need to
    maintain information about individuals with the right of those
    individuals to be protected against unwarranted invasions of their
    privacy. The Act restricts disclosure of protected information; grants
    individuals the right to access and amend such records; and
    establishes a code of “fair information practices” that requires
    agencies to comply with statutory norms for collection, maintenance,
    and dissemination of records.156



       156   See www.usdoj.gov/oip/04_7_1.html for an overview of the Privacy Act.


U.S. Department of Justice                                                           103
Office of the Inspector General
Evaluation and Inspections Division
•   OMB Memorandum M-06-20 (July 17, 2006) – Fiscal year 2006
    Reporting Instructions for the Federal Information Security
    Management Act and Agency Privacy Management. This
    memorandum provides instructions to all departments and agencies
    for meeting the fiscal year 2006 requirements of the FISMA Act of
    2002. It also adds the requirements that all Inspectors General
    provide a list of any systems they have found missing from the
    agency’s inventory of major information systems (as required under
    the E-Government Act of 2002) and the identification of any physical
    or electronic incidents involving the loss or unauthorized access to PII
    and reporting of such in accordance with OMB Memorandum
    M-06-19.

•   OMB Memorandum M-06-19 (July 12, 2006) – Reporting Incidents
    Involving Personally Identifiable Information and Incorporating the
    Cost for Security in Agency Information Technology Investments. This
    memorandum defines PII and provides updated guidance on the
    reporting of security incidents involving PII. By issuing this
    memorandum, OMB required that all security incidents involving PII
    be reported within 1 hour of the incident’s discovery. US-CERT is
    required to forward all agency reports to the appropriate Identity Theft
    Task Force point-of-contact also within 1 hour of notification by an
    agency. Agencies are also required to identify specific funds they are
    requesting for correcting any security weaknesses identified by their
    Inspectors General or the Government Accountability Office.

•   OMB Memorandum M-06-16 (June 23, 2006) – Protection of
    Sensitive Agency Information. This memorandum advises heads of
    Departments and agencies of the NIST Checklist for protection of
    remote information and recommends additional action to take such as
    encrypting all data on mobile computers and other devices, allowing
    remote access only with two-factor authentication, using a time-out
    function after 30 minutes for remote access, and logging all
    extractions of sensitive information and verifying that each extract
    has been erased within 90 days or that its use is still necessary.

•   OMB Memorandum M-06-15 (May 22, 2006) – Safeguarding
    Personally Identifiable Information. This memorandum reminds
    heads of Departments and agencies of their responsibilities under law
    and policy to safeguard sensitive PII and to train employees on their
    responsibilities in this area.

•   OMB Circular A-130 (November 28, 2000) – Management of Federal
    Information Resources. This circular established policies for the


U.S. Department of Justice                                              104
Office of the Inspector General
Evaluation and Inspections Division
    management, collection, and dissemination of federal information
    resources, as required by the Paperwork Reduction Act of 1980.

•   DOJ Order 2740.1 (November 7, 2005) – Use and Monitoring of DOJ
    Computers and Computer Systems. This order states the
    Department’s policy on the use of departmental computers and
    computer systems, the lack of expectation of privacy with respect to
    such use, and authorized monitoring of or access to information on
    departmental computers and computer systems.

•   DOJ Order 2880.1B (September 27, 2005) – Information Resources
    Management Program. This order establishes Department policy
    governing the planning, management, operation, and use of
    information technology (IT) resources. It includes a section on
    information technology security that states in part that, quote:

                o The Department shall develop and manage an agency wide
                  Information Technology Security Program consistent with the
                  laws and regulations affecting IT Security.

                o Department IT systems processing Sensitive
                 Compartmentalized Information (SCI) shall have controls
                 implemented consistent with the IT security controls
                 established by the intelligence community. All IT systems
                 that process, store, or transmit SCI shall be coordinated with
                 the CIO prior to development and approved by the
                 Department Security Officer prior to their operation.

•   DOJ Order 2640.2E (November 28, 2003) – Information Technology
    Security. This order establishes uniform policy, responsibilities, and
    authorities for the implementation and protection of Department IT
    systems that store, process, or transmit classified and unclassified
    information.

•   Information Technology Security Approved Standards (December
    2003–July 2005) – JMD’s Information Technology Security Staff
    standards establish the management, operational, and technical
    controls for the Department’s information systems.

•   NIST Special Publication 800-53A (April 2006) – Guide for Assessing
    the Security Controls in Federal Information Systems (Second Public
    Draft). This publication provides methods and procedures to assess
    the effectiveness of security controls in federal information systems.
    The guidance allows federal agencies to develop more secure
    information systems.



U.S. Department of Justice                                                        105
Office of the Inspector General
Evaluation and Inspections Division
•   NIST Special Publication 800-53 (February 2005) – Recommended
    Security Controls for Federal Information Systems. This publication
    defines minimum security controls needed to provide cost-effective
    protection for low-, moderate-, and high-impact information systems
    and the information processed, stored, and transmitted by those
    systems. These are the standards used for certification and
    accreditation of federal IT systems.

•    NIST Special Publication 800-61 (January 2004) – Computer
    Security Incident Handling Guide. This guide discusses how to
    organize a security incident response capability and how to handle
    incidents, including denial of service, malicious code, unauthorized
    access, and inappropriate use of systems incidents.

•   Federal Information Processing Standards Publication (FIPS) 200
    (March 2006) – Minimum Security Requirements for Federal Information
    and Information Systems. FIPS Publication 200 specifies minimum
    security requirements for federal information and information systems
    and a risk-based process for selecting the security controls necessary
    to satisfy the minimum requirements. In applying the FIPS 200
    provisions, agencies categorized their information systems as required
    by FIPS Publication 199 and selected an appropriate set of security
    controls from NIST Special Publication 800-53 to satisfy the minimum
    security requirements. FIPS 200 specifies minimum security
    requirements for federal information and information systems that
    represent a broad-based, balanced information security program. The
    requirements are organized into 17 areas, encompassing the
    management, operational, and technical aspects of protecting federal
    information and information systems: access control; audit and
    accountability; awareness and training; certification, accreditation
    and security assessments; configuration management; contingency
    planning; identification and authentication; incident response;
    maintenance; media protection; personnel security; physical and
    environmental protection; planning; risk assessment; systems and
    services acquisition; system and communications protection; and
    system and information integrity.

•   Federal Information Processing Standards Publication 199
    (February 2004) – Standards for Security Categorization of Federal
    Information and Information Systems. FIPS 199 is the first standard
    that was specified by FISMA. It requires agencies to categorize their
    information and information systems as low-, moderate-, or high-
    impact based on the potential impact of a loss of confidentiality,
    integrity, or availability of information or an information system.


U.S. Department of Justice                                             106
Office of the Inspector General
Evaluation and Inspections Division
                   APPENDIX XI: COMPONENT POLICIES


ATF              ● Computer Security Incident Response Capability
                   Incident Response Plan, July 24, 2006
                 ● Automated Information System Security Program, ATF
                   Policy H 7250.1, July 26, 2006
                 ● Computer Security Incident Response Capability, ATF
                   Order O 7500.4A, April 12, 2005

BOP              ● Incident Response Plan, December 2006
                 ● Information Resources Protection,
                   BOP Directive 1237.12, February 20, 2001
                 ● Information Security Programs for Sensitive But
                   Unclassified (SBU) Information,
                   BOP Directive 1237.13, March 31, 2006
                 ● Property Management Manual,
                   BOP Directive 4400.05, May 26, 2004
                 ● Release of Information,
                   BOP Directive 1351.05, September 19, 2002

CRM              ● Incident Response Plan, December 1, 2006
                 ● Criminal Division Administrative Policy Memorandum
                   80-8, Classified Processing, January 14, 2003
                 ● Criminal Division Security Acknowledgement
                   Statement for System Administrators and Privileged
                   Users, November 2006

DEA              ● Computer Incident Response Plan, December 29, 2006
                 ● DEA Policy: Control and Decontrol of DEA Sensitive
                   Information, REF 99-001, June 2, 1999
                 ● Broadcast E-mail Message to all DEA employees:
                   Personally Identifiable Information (PII) Media Loss
                   Reporting Requirements and Procedures, October 12,
                   2006
                 ● Safeguarding Personally Identifiable and Other
                   Sensitive Information, Chief Inspector’s Bulletin, DEA
                   Inspection Division, October 20, 2006
                 ● Memorandum to DEA Deputy Assistant Administrator,
                   Office of Information Systems, Amendment to the
                   Interim Information Technology Rules of Behavior –
                   Protecting Sensitive and Personally Identifiable
                   Information, November 6, 2006
                 ● Employee Responsibilities and Conduct

U.S. Department of Justice                                           107
Office of the Inspector General
Evaluation and Inspections Division
EOUSA            ● Incident Response Plan, December 13, 2006
                 ● Memorandum to Anti-Terrorism Task Force Officials,
                   Limited Official Use (Sensitive) Information
                   Designation, January 14, 2003
                 ● U.S. Attorney’s Manual, Chapter 3-15, Security
                   Programs Management, August 2004
                 ● U.S. Attorneys’ Procedures (USAP 3-13.300.001),
                   Records Management and Case File Disposition,
                   October 24, 2006
                 ● U.S. Attorneys’ Procedures (USAP 3-16.000.001),
                   Computer Assisted Legal Research, October 4, 2006
                 ● U.S. Attorneys’ Procedures (USAP 3-16-200.003),
                   Access to Sensitive But Unclassified (SBU) IT
                   Resources, January 13, 2006
                 ● U.S. Attorneys’ Procedures (USAP 3-16.200.008),
                   Sensitive But Unclassified Laptop Computer Security,
                   January 26, 2006
                 ● U.S. Attorneys’ Procedures (USAP 3-16.300.006),
                   Personal Digital Assistants (PDAs), September 13,
                   2006
                 ● U.S. Attorneys’ Procedures (USAP 3-15.120.002),
                   Handling and Safeguarding Federal Tax Information,
                   November 7, 2006
                 ● U.S. Attorneys’ Manual, Chapter 3-13,
                   Procurement/Property Management, July 2000
                 ● EOUSA Resource Manual, Sections 119-126

FBI              ● Incident Response Plans for the Criminal Justice
                   Information Services Division; SCI Operational
                   Network; FBI Secret; and Unclassified Network, all
                   updated December 2006
                 ● FBI Security Policy Manual, Chapters 17, 21, 22, and
                   Appendix A, April 2006
                 ● Systems User Rules of Behavior
                 ● Memorandum to All FBI Divisions, Reiterating Policy
                   for the Safeguarding of Government Property Outside
                   of FBI Office Space, FBI Finance Division, August 23,
                   2002
                 ● Memorandum to All FBI Divisions, Reiterate Policy
                   Requirement to Place Property on the Property
                   Management Application Upon Receipt, FBI Finance
                   Division, August 23, 2002



U.S. Department of Justice                                           108
Office of the Inspector General
Evaluation and Inspections Division
                  ● Memorandum to All FBI Divisions, Policy Change for
                    Submission of FD-500s, Report of Lost or Stolen
                    Property, FBI Finance Division, November 4, 2005
                  ● Procedures for Reporting Lost or Stolen Property,
                    Accountable Property Manual
                  ● Memorandum to All FBI Divisions, Reiterating
                    Mandatory Policy for the Assignment and Charge-Out
                    of Laptop Computers, FBI Finance Division, March 15,
                    2006
                  ● Memorandum to All FBI Divisions, Security Incident
                    Program, Security Compliance Unit, Security Division,
                    FBI Security Division, February 9, 2006
                  ● Manual of Investigative Operational Guidelines, Part 1,
                    Section 52, Government Property – Theft, Robbery,
                    Embezzlement
                  ● Manual of Administrative Operations and Procedures,
                    Part 2, Section 6-7.5, Lost or Stolen Government
                    Property/Lost or Stolen Personal Property in
                    Government Space

JMD157            ● Incident Response Plan for Systems Operated by the
                    Personnel Staff, December 1, 2006
                  ● Rules of Behavior for Systems Operated by the
                    Personnel Staff
                  ● Incident Response Plan for Systems Operated by the
                    Security and Emergency Planning Staff, November
                    2006

TAX               ● Incident Response Plan, December 20, 2006
                  ● Tax Division Directive No. 101, Physically Protecting
                    Portable Computers While On Official Travel
                  ● Tax Division Directive No. 130, Use of Mass Storage
                    Devices Within The Tax Division, March 9, 2006
                  ● Tax Information Security Guidelines for Federal, State,
                    and Local Agencies: Safeguards for Protecting Federal
                    Tax Returns and Return Information, IRS Publication
                    1075
                  ● Memorandum to Members of the Tax Division,
                    Computer Security, November 17, 2005

        157 Each subcomponent within JMD develops its own Incident Response Plan

and other policies for responding to computer security incidents. The policies identified
in this table were provided to the OIG as examples of the types of policies developed by
all subcomponents of JMD.


U.S. Department of Justice                                                          109
Office of the Inspector General
Evaluation and Inspections Division
                 ● Tax Division Security Features User Guide for
                   JCON II/TaxDoc, October 3, 2006
                 ● Memorandum to All Tax Division Personnel, Personally
                   Identifiable Information: Safeguarding It and
                   Reporting Its Loss, September 5, 2006

USMS             ● Incident Response Plan, December 8, 2005
                 ● USMS Directive 2.34 and Attachments B and C,
                   Security Programs Manager, November 9, 2005
                 ● USMS Directive 7.1, Management of Personal Property,
                   October 6, 2003
                 ● Broadcast e-mail from USMS Security Programs
                   Manager, Notice from OSD re: Reporting Incidents
                   Involving Data Loss and Personally Identifiable
                   Information, August 29, 2006
                 ● Memorandum from the Director, Reporting Losses of
                   USMS Property, November 5, 2002
                 ● USMS Directive 12, Information Resources
                   Management, effective October 6, 2003, updated
                   April 3, 2006




U.S. Department of Justice                                         110
Office of the Inspector General
Evaluation and Inspections Division
APPENDIX XII: SEVEN CATEGORIES OF SECURITY INCIDENTS AND
     REQUIRED TIMEFRAMES FOR REPORTING INCIDENTS



Category     Name              Description                         Reporting timeframe
0            Exercise/         This category is used during        As defined in the exercise
             Network           Department exercises activity       requirements.
             Defense Testing   testing of internal/external
                               network defenses or responses.
1            Unauthorized      In this category an individual      Within 1 hour of
             Access            gains logical or physical access    discovery/detection,
                               without permission to a federal     followed by written report
                               agency network, system,             within 24 hours.
                               application, data, or other
                               resource.
2            Denial of         An attack that successfully         Within 2 hours of
             Service (DoS)     prevents or impairs the normal      discovery/detection if the
                               authorized functionality of         successful attack is still
                               networks, systems or                ongoing and the agency is
                               applications by exhausting          unable to successfully
                               resources. This activity            mitigate activity, followed
                               includes being the victim or        by written report within 24
                               participating in the DoS.           hours.
3            Malicious Code    Successful installation of          Daily
                               malicious software (e.g., virus,
                               worm, Trojan horse, or other        Note: Within 1 hour of
                               code-based malicious entity)        discovery/detection if
                               that infects an operating system    widespread across agency,
                               or application. Components are      followed by written report
                               NOT required to report              within 24 hours.
                               malicious logic that has been
                               successfully quarantined by
                               antivirus software.
4            Improper Usage    A person violates acceptable        Weekly
                               computing use policies.
5            Scans/Probes/     This category includes any          Monthly
             Attempted         activity that seeks to access or
             Access            identify a Department               Note: If system is
                               computer, open ports, protocols,    classified, report within 1
                               service, or any combination for     hour of discovery.
                               later exploit. This activity does
                               not directly result in a
                               compromise or denial of service.
6            Investigation     Unconfirmed incidents that are      Periodically as information
                               potentially malicious or            is developed. This
                               anomalous activity deemed by        category is for each
                               the reporting entity to warrant     component’s use in
                               further review.                     categorizing a potential
                                                                   incident that is currently
                                                                   being investigated.


U.S. Department of Justice                                                          111
Office of the Inspector General
Evaluation and Inspections Division
Category     Name              Description                       Reporting timeframe
7            Spam              Commercial advertising,           Monthly
                               inappropriate content, or other
                               non-phishing spam.




U.S. Department of Justice                                                   112
Office of the Inspector General
Evaluation and Inspections Division
  APPENDIX XIII: OFFICE OF THE CHIEF INFORMATION OFFICER
                         RESPONSE




U.S. Department of Justice                            113
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            114
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            115
Office of the Inspector General
Evaluation and Inspections Division
   APPENDIX XIV: OIG ANALYSIS OF THE OFFICE OF THE CHIEF
              INFORMATION OFFICER RESPONSE


       On May 4, 2007, the OIG sent copies of the draft report to the
Office of the Deputy Attorney General, the Privacy and Civil Liberties
Office of the Deputy Attorney General, the Office of the Chief Information
Officer (CIO), and the nine components involved in the review with a
request for comments. In a memorandum dated May 25, 2007, the
Office of the CIO responded to the report’s eight recommendations on
behalf of the Department of Justice (Department). As a result of that
response, Recommendation 7 is closed, and Recommendations 1 through
6 and 8 are resolved and remain open.

       In addition to the comments received from the Office of the CIO, we
received formal comments from the DEA and the USMS. We address
their comments in Appendices XV through XVIII below. The Criminal
Division, EOUSA, the FBI, and the Tax Division sent informal comments
discussing technical and factual matters, and we made revisions to the
report where appropriate to address these comments. ATF, the BOP, and
JMD did not offer any technical or factual corrections to the report.

Summary of the Office of the CIO Response and OIG Analysis

     Recommendation 1. Require all components to ensure their
procedures cover reporting of after-hours incidents.

       Status. Resolved – open.

       Summary of the Office of the CIO Response. The Office of the
CIO concurred with this recommendation and stated that the
Department of Justice Computer Emergency Readiness Team (DOJCERT)
will update the Incident Response Plan template with procedures to cover
reporting of after-hours incidents within 120 days.

      OIG Analysis. The action proposed by the Office of the CIO is
responsive to our recommendation. So that we may close this
recommendation, please provide the OIG with a copy of the revised
Incident Response Plan template reflecting these updates by October 1,
2007.

      Recommendation 2. Review the components’ procedures for
reporting classified incidents to ensure those procedures comply



U.S. Department of Justice                                            116
Office of the Inspector General
Evaluation and Inspections Division
with the standards in the Department’s Security Program Operating
Manual.

       Status. Resolved – open.

       Summary of the Office of the CIO Response. The Office of the
CIO concurred with this recommendation and stated that it would issue
a clarification to the components within 120 days to ensure their
procedures for reporting classified incidents comply with the standards
in the Department’s Security Program Operating Manual.

       OIG Analysis. The action proposed by the Office of the CIO is
responsive to our recommendation. So that we may close this
recommendation, please provide the OIG with a copy of the clarification
to the components by October 1, 2007.

      Recommendation 3. Clarify the requirement that all losses of
PII be reported within 1 hour and to whom so that all Department
employees understand who to report to and when the 1-hour
timeframe begins and ends.

       Status. Resolved – open.

      Summary of the Office of the CIO Response. The Office of the
CIO concurred with this recommendation and stated that it would work
with the Office of Management and Budget (OMB) and the United States
Computer Emergency Readiness Team (US-CERT) to clarify the 1-hour
reporting requirement. The Office of the CIO stated that existing
Department documentation will be updated within 120 days to reflect the
results of these discussions.

      OIG Analysis. The action proposed by the Office of THE CIO is
responsive to our recommendation. So that we may close this
recommendation, please provide the OIG with a copy of the revised
Incident Response Plan template reflecting these updates by October 1,
2007.

      Recommendation 4. Ensure all components meet the
established reporting timeframes.

       Status. Resolved – open.

     Summary of the Office of the CIO Response. The Office of the
CIO concurred with this recommendation and stated that once it has


U.S. Department of Justice                                           117
Office of the Inspector General
Evaluation and Inspections Division
completed the actions proposed for Recommendation 3, it will develop
reporting metrics within the Archer Database to track the components’
compliance with the reporting timeframes.

       OIG Analysis. The action proposed by the Office of the CIO is
responsive to our recommendation. Please provide by October 1, 2007,
the OIG with a description of the reporting metrics and the methods for
collecting the necessary information, printed screen views showing how
the Archer Database has been modified to incorporate the reporting
metrics, and a plan of action describing how DOJCERT will respond if
the reporting metrics indicate that a component is failing to meet the
required timeframes. If these actions are not completed by October 1,
please provide the OIG with a status report at that time.

      Recommendation 5. Promptly implement a Department-wide
policy for notifying affected individuals in the event of a loss of
personally identifiable information (PII).

       Status. Resolved – open.

      Summary of the Office of the CIO Response. The Office of the
CIO concurred with this recommendation and stated that it was working
with the Department’s Privacy and Civil Liberties Office to develop a Data
Breach Notification Policy. The Office of the CIO stated that it would
issue the policy within 90 days.

      OIG Analysis. The action proposed by the Office of the CIO is
responsive to our recommendation. So that we may close this
recommendation, please provide the OIG with a copy of the Department’s
Data Breach Notification Policy by October 1, 2007.

       Recommendation 6. Develop a Department-specific definition
of PII.

       Status. Resolved – open.

      Summary of the Office of the CIO Response. The Office of the
CIO concurred with this recommendation, with reservations, stating that
the Department’s Chief Privacy and Civil Liberties Officer had asked
OMB specifically if the Department could develop its own definition of PII
in response to this recommendation. OMB expressed reservations about
the Department’s request. The Office of the CIO and the Department’s
Chief Privacy and Civil Liberties Officer will continue working with OMB
on the issue.


U.S. Department of Justice                                            118
Office of the Inspector General
Evaluation and Inspections Division
      OIG Analysis. The action proposed by the Office of the CIO is
responsive to our recommendation. Please provide the OIG with either a
Department-specific definition of PII or a status report on the discussions
with OMB by October 1, 2007.

      Recommendation 7. Consider whether any of the procedures
described as “Best Practices” should be implemented across the
Department.

       Status. Resolved – closed.

       Summary of the Office of the CIO Response. The Office of the
CIO concurred with this recommendation and stated that it would review
the “Best Practices” identified in this report, as well as “Best Practices”
identified by other government agencies, and evaluate the feasibility of
implementing them across the Department. The Office of the CIO
anticipated being able to complete this evaluation within 90 days.

      OIG Analysis. The action proposed by the Office of the CIO is
responsive to our recommendation. This recommendation is closed.

      Recommendation 8. Ensure that components update their
internal policies to reflect correct reporting procedures in
conformance with the DOJCERT Incident Response Plan template
and contain up-to-date titles of internal departments and staff.

       Status. Resolved – open.

       Summary of the Office of the CIO Response. The Office of the
CIO concurred with this recommendation and stated that it would work
with the components to ensure that the components’ internal policies
reflected correct procedures and current personnel. The Office of the CIO
anticipated that it would complete this process within 120 days.

       OIG Analysis. The action proposed by the Office of the CIO is
responsive to our recommendation. So that we may close this
recommendation, please provide the OIG with a certification from the
Office of the CIO confirming that all components have updated their
internal policies by October 1, 2007. If these actions are not completed
by October 1, please provide the OIG with a status report at that time.




U.S. Department of Justice                                             119
Office of the Inspector General
Evaluation and Inspections Division
                       APPENDIX XV: DEA RESPONSE




U.S. Department of Justice                         120
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            121
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            122
Office of the Inspector General
Evaluation and Inspections Division
       APPENDIX XVI: OIG ANALYSIS OF THE DEA RESPONSE


      In a memorandum dated May 25, 2007, the DEA responded to the
OIG draft report. The DEA concurred with the majority of the OIG review
results and the recommendations made to the Department. The DEA
also provided comments on two technical and factual matters and made
one comment on the report’s recommendations.

Summary of DEA Response and OIG Analysis

      Comment 1. The DEA stated that on page 58 of the report the OIG
noted that there were six incidents of PII losses at the DEA and two
incidents involving losses of classified information. According to the
DEA, its internal documents and DOJCERT and SEPS records showed
that only one incident involving classified information occurred during
the review period. Further, of the six incidents cited by the OIG as
involving potential PII loss, only two were actual or suspected losses of
PII. The DEA requested that we incorporate these revisions into the
report.

       OIG Analysis. We declined to incorporate the DEA’s suggested
changes into the report. The numbers that the DEA cites are not
reflected in the DOJCERT’s Archer Database, which we used for each of
the nine components reviewed in our analysis. To determine whether an
incident involved actual or potential loss of PII, we relied on Archer
Database records that showed whether components had responded “Yes”
or “Unknown,” respectively, when asked if an incident involved the loss
of PII. To determine whether an incident potentially involved classified
information, we relied on the incident descriptions in the database. In
this review, we did not verify the database’s information with either
DOJCERT or the components’ internal records. However, we added a
footnote to the DEA appendix that includes the DEA’s numbers and
explains why the OIG’s methodology may have produced different
numbers.

       Comment 2. The DEA stated that the report cites a DEA official as
stating that “. . . in practice the Information Security Section Reports
classified incidents to DOJCERT, not SEPS, and relies on DOJCERT to
report those incidents to SEPS.” The DEA stated that it was unable to
attribute this statement to any DEA official interviewed by the OIG. The
DEA did acknowledge that its one classified incident was not directly
reported to SEPS and should have been, but stated that it did not concur
with the inference that it willfully failed to follow policies and procedures

U.S. Department of Justice                                               123
Office of the Inspector General
Evaluation and Inspections Division
as a course of practice. Further, the DEA requested that all references to
the DEA’s “practice” of reporting loss of classified information to
DOJCERT and not to SEPS be removed from the report.

      OIG Analysis. Upon reviewing the notes of the original interview
and a follow-up email sent to us by the subject of the interview, we found
that his comments could be subject to varying interpretations. We
revised the language on pages 60 and 61 of the report to clarify the
meaning of the information he provided.

      Comment 3. The DEA stated that it “would not concur with
recommendation number five [of the report] unless the definition of PII or
the notification policy itself provided for an exception to notification,
where notification would compromise an ongoing law enforcement
investigation or matters of national security.”

       OIG Analysis. The Department’s Privacy and Civil Liberties Office
is circulating a draft Department-wide notification policy that should
address the DEA’s concerns in this matter.




U.S. Department of Justice                                            124
Office of the Inspector General
Evaluation and Inspections Division
                     APPENDIX XVII: USMS RESPONSE




U.S. Department of Justice                          125
Office of the Inspector General
Evaluation and Inspections Division
U.S. Department of Justice            126
Office of the Inspector General
Evaluation and Inspections Division
       APPENDIX XVIII: OIG ANALYSIS OF THE USMS RESPONSE


      In a memorandum dated May 25, 2007, the USMS responded to
the OIG draft report. The USMS concurred with the eight
recommendations in the report and provided a proposed action plan for
those recommendations that required component versus Department
action. The USMS stated that it would take the following actions by the
noted dates for Recommendations 1, 2, and 8:

   •   Recommendation 1 – The USMS will update its information
       technology security policy no later than June 30, 2007, to include
       the procedures to be followed for reporting computer security
       incidents after hours.

   •   Recommendation 2 – Because nothing in the report indicated that
       there was a problem with USMS reporting procedures for classified
       information, the USMS stated it has no action planned.

   •   Recommendation 8 – The USMS will ensure that by no later than
       June 30, 2007, the procedures issued by various organizations
       within the agency do not have conflicting or inconsistent chain-of-
       command reporting procedures and that staff titles and internal
       department designations are correct.

      While we appreciate the USMS response to the OIG
recommendations, the Office of the CIO is coordinating the resolution
process on behalf of the components for all recommendations. Therefore,
we forwarded the USMS’s response memorandum to the Office of the
CIO.




U.S. Department of Justice                                             127
Office of the Inspector General
Evaluation and Inspections Division
